<html>
<title> - EXAMINING THE IRS'S ROLE IN IMPLEMENTING AND ENFORCING OBAMACARE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              EXAMINING THE IRS'S ROLE IN IMPLEMENTING 
                     AND ENFORCING OBAMACARE
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 2013

                               __________

                           Serial No. 113-67

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
86-195                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 9, 2013..................................     1

                               WITNESSES

Ms. Sarah Hall Ingram, Director Affordable Care Act Office, 
  Internal Revenue Service
    Oral Statement...............................................    12
    Written Statement............................................    15

                                APPENDIX

Letter to the Hon. Elijah E. Cummings from Mr. Daniel I. Werfel, 
  Acting Commissioner, Department of The Treasury................    94
Opening Statement submitted by the Hon. Matt Cartwright..........    95
WSJ article submitted by Mr. DesJarlais..........................    97
WP article submitted by Mr. Bentivolio...........................   101


    EXAMINING THE IRS'S ROLE IN IMPLEMENTING AND ENFORCING OBAMACARE

                              ----------                              


                       Wednesday, October 9, 2013

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:38 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
McHenry, Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, 
DesJarlais, Gowdy, Farenthold, Hastings, Woodall, Collins, 
Meadows, Bentivolio, DeSantis, Cummings, Maloney, Norton, 
Tierney, Lynch, Connolly, Speier, Cartwright, Pocan, Duckworth, 
Kelly, Davis, Welch, Cardenas, Horsford, and Lujan Grisham.
    Staff Present: Brian Blase, Senior Professional Staff 
Member; Molly Boyl, Senior Counsel and Parliamentarian; 
Lawrence J. Brady, Staff Director; David Brewer, Senior 
Counsel; Daniel Bucheli, Assistant Clerk; Caitlin Carroll, 
Deputy Press Secretary; Sharon Casey, Senior Assistant Clerk; 
Steve Castor, General Counsel; Drew Colliatie, Professional 
Staff Member; John Cuaderes, Deputy Staff Director; Adam P. 
Fromm, Director of Member Services and Committee Operations; 
Linda Good, Chief Clerk; Meinan Goto, Professional Staff 
Member; Tyler Grimm, Senior Professional Staff Member; 
Frederick Hill, Director of Communications and Senior Policy 
Advisor; Christopher Hixon, Deputy Chief Counsel, Oversight; 
Michael R. Kiko, Staff Assistant; Emily Martin, Counsel; Laura 
L. Rush, Deputy Chief Clerk; Sarah Vance, Assistant Clerk; 
Rebecca Watkins, Deputy Director of Communications; Tamara 
Alexander, Minority Counsel; Meghan Berroya, Minority Counsel; 
Yvette Cravins, Minority Counsel; Susanne Sachsman Grooms, 
Minority Deputy Staff Director/Chief Counsel; Jennifer Hoffman, 
Minority Communications Director; Chris Knauer, Minority Senior 
Investigator; Elisa LaNier, Minority Director of Operations; 
Una Lee, Minority Counsel; Juan McCullum, Minority Clerk; Dave 
Rapallo, Minority Staff Director; and Daniel Roberts, Minority 
Staff Assistant/Legislative Correspondent.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that the 
money Washington takes from them at the IRS is well-spent. And, 
second, Americans deserve an efficient, effective government 
that works for them. Our duty on the Oversight and Government 
Reform is to protect these rights, along with every--every 
right articulated in the Constitution.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. It is our job to work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    Today, the American people are suffering through a second 
week of a partial shutdown, created by an inability of Congress 
and President Obama to compromise, to reach an agreement on 
funding the government. But, more importantly, the funding of 
the government today is virtually impossible without dealing 
with entitlements.
    One of the central issues in dispute is Obamacare, formerly 
called the Affordable Care Act, but since no part of it makes 
it more affordable except through subsidies, both the President 
and the Congress have chosen to call it Obamacare. For today's 
hearing, we will call it Obamacare.
    Three and a half years after the Affordable Care Act became 
law, the administration is struggling to launch this massive 
program and, in fact, is failing. It is the chatter on 
nighttime comedy that, in fact, you can probably download 
anything and everything faster than you can get onto an IRS 
site. The fact is that, while no mitigation in the 
responsibility to both pay taxes or to buy Obamacare, Americans 
are unable to get on the site. If they get on the site, it is 
confusing, and, without a doubt, there are few choices.
    The promise of Obamacare, to bring people better health 
care for less, has been just the opposite. Healthcare rates in 
the private sector have risen precipitously. And the promise to 
provide you the opportunity to keep the health care you have 
and the doctor you have has gone just the opposite. If you go 
to the exchanges, it is unlikely that you are going to find the 
availability of your doctor for your health care. And, in fact, 
hundreds of thousands of Americans are being thrown out of 
healthcare programs and onto the exchanges as a result of this 
law.
    We are not here today to relitigate the questions of a 
partisan, Democratic-controlled House and Senate on a 
completely partisan basis passing a law, 2,400 pages plus, and 
saying, ``You'll find out what's in it. After it passes, you 
can read it.'' We are not here to do that, but it is, in fact, 
the result of that kind of legislation that has led us to find 
that after 3 years of our witness working at the IRS with 
partisan officials at the White House on an almost daily basis, 
we have the implementation of a one-sided, we-know-it-all type 
of law.
    Today, we will hit a number of areas, including did the IRS 
plan to fail or did they fail to plan in a way that was open 
and transparent and consistent with the law. Just as 90 percent 
of an iceberg is below water, the problem in the user 
experience on the Web site is generally dwarfed by deficiencies 
that happened behind the scenes on the back end.
    Previous hearings of this committee have shown that even 
the contractor chosen to implement the data-sharing is one that 
has had failures that resulted in privileged information, 
including Social Security numbers, being lost. Undoubtedly, 
this will occur again, since every State, thousands and 
thousands of individuals now have access to your taxpayer 
information as part of Obamacare, and you, in fact, have no 
control over who those people are and how they are selected.
    Additionally, some of the most vulnerable among us are 
being sold and signed up for Obamacare by people who have no 
training in HIPAA, no training in any of the protections of 
sensitive healthcare information. But that is a law, and we 
will go through it.
    Today's hearing has a lot to do with the 47 new provisions, 
including 18 new taxes expected to raise $1 trillion over the 
next 10 years, in a program that will cost many times that with 
other taxpayers' costs.
    Obamacare gives the IRS power to force Americans to 
purchase health care and levy a penalty/tax, as determined by 
the Supreme Court, on those who are delinquent. And yet, even 
though the employer mandate has a penalty of $3,000 per worker, 
it is very clear that it is often better for the employer to 
dump their workers and their retirees in order to avoid an 
onerous set of new rules.
    That is part of what this committee has been looking at. 
And, in fact, while the Treasury Department plans to send 
health insurance subsidies directly to an insurance company, if 
the Treasury sends too much to a health insurance company, the 
plan is for the IRS to go after taxpayers to collect the 
overpayment. Yes, if there is a mistake made, you will pay for 
it.
    In the wake of the IRS scandal caused by an effort to 
target Americans because of their political beliefs, Americans 
concerned about the IRS and how they will handle this personal 
and private information have every reason to be concerned. Who 
will have access to the highly personal health and financial 
information? A great many people, most of whom you don't know. 
There will be no control over it at the Federal level or State 
level that meets the requirements of the privacy acts of health 
insurance.
    Additionally, the IRS has repeatedly made mistakes in 
disclosing information, most often conservative groups and 
their donors. Those kind of mistakes could be amplified 
repeatedly, either deliberately or accidentally--we are still 
trying to determine that--but the accidents seem to keep 
coming. The accidental targeting of hundreds of conservative 
groups, including Tea Party groups, has not abated. In fact, 
many of those groups have still not received their approvals or 
denials, something that our witness knows something about.
    What information in the individual tax return will the IRS 
be sharing with officials outside the agency? My ranking 
member's home State of Maryland, in fact, leaves some question 
about whether or not the State will take the information 
collected and use it in other ways, including garnishments or 
other tax levy. The truth is, once the government has more 
information about everything, including your cost of health 
care, who lives in your home, who you are claiming, it will add 
to the ability for both the Federal and State to tax you 
further and ask more onerous questions.
    The U.S. Government Accountability Office described a data 
hub, as a ``complex undertaking involving the coordinated 
actions of multiple Federal, State, and private stakeholders.''
    During the committee hearing in July, Alan Duncan, 
Assistant Inspector General for Audit for the Treasury 
Inspector General for Tax Administration, testified that, in 
fact, TIGTA remains concerned about the protection of 
confidential taxpayer information that will be provided to 
State and Federal agencies broadly.
    The Assistant Inspector General also testified that it 
would be difficult to complete all the interagency testing of 
the hub prior to October 1st, and, in fact, not all of it was 
done. We went live with beta software for the Affordable Care 
Act, and it shows. It shows every day, as the American people 
struggle to try to get information.
    In September, the problem became more than just worries 
when a Minnesota exchange admitted to accidentally--and I 
repeat, accidentally--releasing sensitive information that 
contained names, addresses, and Social Security numbers for 
2,400 brokers. This is, as I said earlier, just the tip of the 
iceberg.
    Let us all be honest: Obamacare's first week has been a 
mess. But we can't undo the last week, and there are no 
mulligans. This, in fact, will continue day after day, and 
there will be no do-overs. We can only admit that the law is 
not ready for prime time, look for ways to mitigate it, and ask 
for the administration to be understanding that what man and 
Congress creates, in fact, will always have some flaws in it.
    Today's witness, Ms. Sarah Hall Ingram, is here to testify 
and answer our questions. Ms. Hall Ingram is the Director of 
the IRS's Affordable Care Act Office. Before overseeing 
Obamacare implementation for the IRS, Ms. Hall Ingram was the 
Commissioner for the IRS Tax Exempt and Government Entities 
Division. She served full-time in that role from 2009 to 2010.
    The administration has already delayed or revised several 
parts of the health law, and, in many cases, unilateral action 
was directly at odds with congressional law. Many Americans 
have been uneasy, feeling that the administration is flying 
Obamacare by the seat of its pants. There are some sobering 
recognitions that, in fact, Executive orders not contemplated 
in the law seem to be an everyday occurrence, while changes to 
the law seem to be, by definition, impossible. It is our hope 
that Ms. Hall Ingram will spell out the challenges the IRS is 
facing so that we stop reading the surprising, yet still 
unsurprising, news of how implementation is going poorly.
    In closing, this is not going to be the committee's final 
hearing on Obamacare implementation. The ranking member has 
indicated that he wants to hear more from IRS witnesses. I do, 
too. Our intent is to bring additional IRS officials for 
testimony in the future, but today we are focused on Ms. Hall 
Ingram.
    I might note two things. First, repeatedly, when we have 
asked for Ms. Ingram, we have been asked to and we have 
deferred and allowed other witnesses. Today, the determination 
was that the person who by definition was at the center of the 
targeting of conservative groups for a period of 2009 to 2010 
and the person who has owned Obamacare since its passage, 
virtually since its passage, for implementation must be heard 
from.
    Although there are individuals behind the witness, they 
will not be sworn and they will not be permitted to testify. 
The only witness today is Ms. Hall Ingram. And I will take 
responsibility directly for asking the Commissioner not to 
attend, since he was not there at the time and was brought in 
only when the scandal over targeting conservatives became a 
problem. We have a fact witness in front of us. My hope is that 
she will be candid in the release of all the facts.
    I have also been notified that the ranking member intends 
to ask for pictures of Ms. Hall Ingram receiving--or being with 
past Presidents. I will object to that. This is not about 
whether Ms. Hall Ingram is a Republican or a Democrat. This is 
not about the politics of anybody at the IRS.
    The IRS, by statute, is limited to two political 
appointees. It is critical that we ask the questions about the 
nonpolitical appointees, not the counsel, not the Commissioner, 
what are their actions, not what are their politics, their 
registrations, their leanings or their self-stated intention. 
People are not to be judged at the IRS based on how they vote. 
They are to be judged based on the job they do and how they do 
it.
    With that, I recognize the ranking member.
    Mr. Cummings. Just one question. What picture are you 
talking about? What are you talking about? Do you want to show 
it?
    Chairman Issa. No, I am not going to.
    Mr. Cummings. Oh, okay.
    Chairman Issa. We were told that--we were handed these by 
her personal attorney. They are pictures with past Presidents. 
The minority requested them is what her attorney told us. Is 
that correct, Mr. Cummings?
    Mr. Cummings. What is the big deal that we want to see 
pictures of a witness with President Bush?
    Chairman Issa. Mr. Cummings, you have constantly and the 
people up and down the dais have tried to paint political, 
Republican versus Democrat. Somehow, if somebody is a 
Republican or was appointed by a Republican, that somehow any 
claim of targeting conservatives is not there.
    The fact is, this committee's docket will be--or enclosures 
will include extraneous material but not material designed to 
forward some question that paints somebody as a Republican or 
Democrat.
    Mr. Cummings. Mr. Chairman----
    Chairman Issa. I do not know the gentlelady's politics, and 
I do not----
    Mr. Cummings. Mr. Chairman----
    Chairman Issa. --intend to ask.
    Mr. Cummings. Mr. Chairman, just one moment. The way 
politics comes up in all of this is, of every single witness 
that has been interviewed, your staff has asked their political 
affiliation.
    We have had this conversation before at this dais, by the 
way. So I just--I was just curious.
    I will go into my opening statement.
    Chairman Issa. The gentleman is recognized.
    Mr. Cummings. Today, our Nation is entering its ninth day--
the ninth day of House Speaker John Boehner's government 
shutdown.
    Speaker Boehner has refused to allow the House to vote on a 
clean continuing resolution that would end the shutdown, even 
though it would pass with a bipartisan majority. Instead, he is 
allowing a small group of Republican extremists to pursue their 
idealogical crusade to repeal the Affordable Care Act and put 
insurance companies back in charge of healthcare decisions for 
millions of Americans.
    Even worse, our country is rapidly approaching the debt-
ceiling deadline of October 17th. Yet Republicans seem willing 
to jeopardize the full faith and credit of the United States of 
America unless we eliminate the Affordable Care Act, even 
though it is the law of the land and has been upheld by the 
Supreme Court of the United States.
    House Republicans have voted more than 40 times to repeal 
the Affordable Care Act. So although today's hearing may be 
cloaked in the rhetoric of improving the law, nobody truly 
believes Republicans want that to happen. Instead, today's 
hearing is an obvious attempt to link two issues that have 
nothing to do with each other: the implementation of the 
Affordable Care Act and the so-called IRS Tea Party scandal.
    For nearly a year, Republicans have been railing against 
today's hearing witness, Sarah Hall Ingram, for being the 
supposed mastermind behind the IRS targeting of Tea Party 
groups and for being some sort of political operative who is 
now in charge of implementing Obamacare.
    One of our committee members, Congressman Jordan, said Ms. 
Ingram: ``headed up this scandal.'' He said:``I can't wait--I 
can't wait until we get her in front of the committee.''
    Congressman Tim Griffin accused Ms. Ingram of being: 
``directly in charge of IRS targeting.'' He said: ``She 
provided horrendous customer service under her watch, and now 
she is going to do the same implementing Obamacare.''
    Another member of our committee, Congressman Meadows, 
criticized the bonuses Ms. Ingram received. And Congressman Tom 
Price argued that her: ``employment at IRS should be 
suspended.''
    The problem with these accusations is that they are 100 
percent wrong. After hearing directly from 30 witnesses and 
reviewing thousands of pages of documents, our committee has 
obtained absolutely no evidence whatsoever that Ms. Ingram was 
involved in any way with developing or directing the use of 
inappropriate criteria to screen Tea Party groups or any other 
groups applying for tax-exempt status.
    In fact, we found just the opposite. Ms. Ingram left her 
position as Commissioner of the Tax Exempt Government Entities 
Division in December of 2010, 6 months before her former 
subordinates became aware of inappropriate criteria used to 
screen applicants for tax-exempt status. Russell George, the 
Inspector General of the IRS, stated that Lois Lerner did not 
learn about the inappropriate criteria until June 2011, 6 
months after Ms. Ingram left for her new position implementing 
the ACA.
    There is another problem with these ruthless Republican 
allegations: Ms. Ingram is not a political operative. She is, 
in fact, a dedicated public servant who has excelled under both 
Republican and Democratic administrations. In 2004, President 
George W. Bush awarded Ms. Ingram the Nation's highest civil 
service award, the Distinguished Executive Presidential Rank 
Award, for her outstanding: ``tax law leadership'' and, ``her 
highly effective efforts to combat terrorism financing.''
    And although you won't hear this from my Republican 
colleagues, after President Bush gave her that award, Ms. 
Ingram also received a bonus in recognition of her exemplary 
service. That bonus was larger than any she received during the 
Obama administration.
    Dragging Ms. Ingram through the mud and impugning her 
reputation as part of a broader Republican campaign against the 
ACA is the worst kind of politics. It is intellectually 
dishonest, and it is unfair to this highly regarded public 
servant.
    October 1st was a historic day for our country, not because 
Speaker Boehner shut down the government but because it was the 
first day millions of Americans could sign up for health care. 
In the first 2 days alone, 7 million Americans visited 
healthcare.gov, which dwarfs the highest Web traffic ever 
experienced on Medicare's Web site.
    Although there will continue to be challenges implementing 
this law, I want to thank Ms. Ingram for her service under both 
Democratic and Republican administrations and for her work on 
the ACA, which, by all accounts, is outstanding.
    Finally, Mr. Chairman--you alluded to this--I would like to 
place a document in the record, and that is a letter from Mr. 
Werfel, our Acting Commissioner.
    Since today's hearing was supposed to be about IRS 
implementation of the ACA, I asked you last week to invite 
officials from all four IRS offices in charge of this program. 
On Monday, you refused. And I heard you this morning, just a 
few minutes ago, when you said that we are not finished with 
this--and I am pleased to hear that--that other witnesses would 
come forth later.
    And so I asked these officials to attend today, along with 
IRS Commissioner Werfel, in case committee members have 
questions outside the scope of Ms. Ingram's responsibilities. 
Last night, I received a letter from Mr. Werfel stating that 
you personally told him that he and these other IRS officials 
were not welcome, that essentially they were banned from the 
hearing room.
    I have seen a lot of things as a Member of Congress over my 
17 years, but I have never seen a committee chairman tell the 
head of an agency that he could not be present during a public 
hearing with one of his own employees.
    I will read the letter, if I might, because I don't want 
to--I see you moving around a little bit. I want to make sure I 
read it.
    It says, ``Dear''--it is dated October 8th, 2013. It is 
addressed to me. It says, ``Dear Ranking Member Cummings, I am 
responding to your letter today requesting that I attend 
tomorrow's hearing along with other IRS personnel who have 
relevant subject matter expertise in matters related to the ACA 
implementation.
    ``I spoke directly to the chairman this evening regarding 
your request, and the chairman requested that I do not attend. 
Instead, the chairman suggested that we have technical experts 
present that could be available to support Ms. Hall Ingram but 
that would not be called to give her direct testimony.
    ``Given my respect for the chairman's authority in this 
matter, I have decided to agree to the chairman's direction and 
will not attend in person.
    ``Of note, I remain concerned that Ms. Hall Ingram alone 
will not be able to provide comprehensive testimony regarding 
IRS efforts to implement the ACA, given that many of the 
significant IRS activities in this area fall outside of her 
direct purview. However, it is my understanding that the 
chairman's decision that Ms. Ingram will be the only witness 
for tomorrow's hearing is now final.
    ``And I thank you for your ongoing assistance.'' And it is 
signed, ``Danny Werfel.''
    I ask that that be made a part of the record, Mr. Chairman.
    Chairman Issa. I reserve and recognize myself in opposition 
on the reserve.
    The gentleman in his opening statement made it clear that 
he thinks that the targeting of conservative groups is a phony 
scandal, while the President, just the opposite, said it was 
serious.
    The gentleman has repeatedly wanted to make it very clear 
that his job is to stop the work of this committee.
    Mr. Werfel was, in fact, an individual who----
    Mr. Cummings. Mr. Chairman, you just said something that is 
absolutely not true. I have not done that, and I resent you 
saying that.
    Chairman Issa. I appreciate your resentment, but I will 
continue.
    Mr. Cummings. That I have tried to stop the work of this 
committee?
    Chairman Issa. It is very clear you have.
    Mr. Cummings. You said--come on, Mr. Chairman.
    Chairman Issa. The fact is that, at the last hearing, you 
requested, for my four witnesses, seven. And I gave you four. 
The policy of this committee is and has been under both 
Republican and Democratic leadership that the minority is 
generally accommodated with a witness, a witness germane. You 
have repeatedly abused that in the process.
    When you sent a direct invitation for a number of 
individuals, including someone that was not there during the 
planning of the Affordable Care Act and will be gone in a 
matter of days, in the name of the Commissioner--he was highly 
inappropriate to be a fact witness because he wasn't there 
before and he will not be there in a couple of weeks.
    In conversation with the Commissioner--and I will allow 
this in afterwards----
    Mr. Cummings. Well, thank you.
    Chairman Issa. The fact is, in conversations with the 
Commissioner, I said, of course she can have any and all people 
that would help her in answering the questions, people--maybe 
if somebody comes up with an esoteric question on what the 
URL's will be for Obamacare, fine. But, in fact, we have asked 
for repeatedly and deferred Ms. Ingram on a previous occasion, 
even though she is the head of the department implementing. She 
is the highest individual with the longest service related to 
the questions here today.
    So, elections have consequences. I have the responsibility 
of announcing what a hearing is going to be, sometimes hearings 
that you request. I have the primary responsibility for 
selecting the witnesses, and I have always taken seriously the 
suggestions of witnesses you want and, when they are timely, 
have always provided at least one. That is not true of my 
predecessor, Mr. Towns. Although a friend and a good man, he 
often did not even give me one witness. So the decision to have 
the head of the implementation was mine.
    Mr. Werfel is a dedicated, long-serving public servant. I 
asked him not to be here for what I thought would be simply a 
staged opportunity to say, why don't you let the Commissioner, 
who didn't know about it before and won't be there in another 
week, the Acting Commissioner, do it.
    For that reason, I will allow the letter in.
    Chairman Issa. But understand that the attempt is to get to 
the truth, and this committee has tried to hold as many 
hearings, including hearings on subjects that you have 
requested, and we will continue to do so.
    So, with that, the unanimous----
    Mr. Cummings. Mr. Chairman, I wasn't finished. May I 
finish?
    Chairman Issa. I have accepted your unanimous consent.
    Mr. Cummings. That was with regard to my document. I wasn't 
finished with my statement.
    Chairman Issa. Oh. The gentleman may have an additional 1 
minute.
    Mr. Cummings. Thank you very much.
    Mr. Chairman, I am just going to say we have a title here 
that says, ``Examining the IRS's Role in Implementing and 
Enforcing Obamacare.'' That is the title of the hearing.
    And, you know, you have made an allegation that I am trying 
to stop everything. I am trying to get to the truth, the whole 
truth, and nothing but the truth, so help me God. That is what 
I am trying to get to. And that is why I resented your 
statement.
    But, with that, I yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. We will now recognize the subcommittee 
chairman, since his name was mentioned as----
    Mr. Jordan. Thank you.
    Mr. Chairman, I just want to say, finally, finally she is 
here. We have been trying for 5 months to get Ms. Ingram in 
front of this committee. I was beginning to think there was no 
such person as Sarah Hall Ingram. I mean, a couple months ago, 
Chairman Lankford and I had a joint subcommittee scheduled. Ms. 
Ingram was supposed to be in front of that committee, but Mr. 
Werfel called up and said, nope, she is not coming; I am 
instead.
    For months, we have been trying to get this lady in front--
here is the lady who, as the chairman said, is at the center of 
the storm of two of the biggest issues this country has dealt 
with in recent history: the targeting of conservative groups 
and implementation of Obamacare.
    Here is the lady who was Lois Lerner's direct boss, and 
today is the first time she has been in front of this 
committee, after this scandal has been known about for 5 
months? Here is the lady who for the last 3 years has been head 
of the office for implementing the Affordable Care Act, and 
today is the first time she comes in front of the committee? I 
mean, this is unbelievable. Two of the biggest issues facing 
the country, and the first time she comes in front of the 
Government Oversight Committee.
    And Mr. Cummings brings up the letter that we got yesterday 
from Mr. Werfel. They tried again yesterday to not have her be 
here. So it raises just one simple question: Why? What does she 
know that the IRS doesn't want this committee, this Congress, 
and the American people to know? What does she know about the 
Affordable Care--what are they trying to hide?
    So, Mr. Chairman, thanks for your persistence. I am glad it 
finally happened. I mean, it is astonishing that it took 5 
months to get her, but I am glad it finally happened.
    One more thing if I could, Mr. Chairman, and then I will 
yield back.
    Could we put up a slide?
    Mr. Cummings raised this issue, and Mr. Werfel said she is 
not the right person to bring, we need these other folks here, 
we need Mr. Werfel here, he wanted to come.
    Let's put up--this was a briefing--if we could put up the 
first slide?
    This was the briefing given to the IRS Oversight Board just 
this past May, May 2nd, 2013. And guess who gave that briefing? 
Who do you think gave that briefing? The lady we have been 
waiting to get in front of this committee, Sarah Hall Ingram. 
And, again, you don't have to take my word for it. We got the 
minutes from the meeting.
    If we can put that slide up?
    The minutes from the meeting, Affordable Care Act update, 
led by Sarah Hall Ingram, Director, ACA Office.
    So Mr. Werfel didn't want her to come today, hasn't let her 
come for 5 months, but she was good enough to brief the IRS. 
And not just brief it; look what it says she talked about. Ms. 
Ingram discussed the security and safeguard programs the IRS 
has in place regarding the sharing of data among its partners, 
including those for the Affordable Care Act program.
    This is exactly the lady we need in front of the Congress. 
It just took us 5 months to get her here. So this is important.
    Mr. Cummings. Would the gentleman yield?
    Mr. Jordan. I would be happy to yield.
    Mr. Cummings. Let me make sure I understood what you said. 
You said that I was trying to stop her from coming here? Did 
you say that?
    Mr. Jordan. We have a letter from Mr. Werfel indicating he 
didn't want Sarah Hall Ingram to come to this----
    Mr. Cummings. Oh. Well, that had nothing to do with me.
    Mr. Jordan. You just a read a letter from Mr. Werfel, a 
different letter you had. You said that----
    Mr. Cummings. I just read----
    Mr. Jordan. You wanted Mr. Werfel here, as well.
    Mr. Cummings. Will the gentleman yield? I just want to----
    Chairman Issa. If the gentleman will suspend.
    The record from the chairman is, in fact, that Mr. Cummings 
tried to get four additional witnesses----
    Mr. Jordan. Exactly.
    Chairman Issa. --on this panel. Mr. Werfel tried to not 
have Sarah Hall Ingram come. And the request, no matter where 
they originated, to not have her testify today repeatedly came 
from the Commissioner.
    Mr. Cummings. Thank you.
    Mr. Jordan. Here is the point, Mr. Chairman. Why in the 
world does it take 5 months to get the lady who was there when 
the targeting of conservative groups started, who was Lois 
Lerner's direct boss, who for the past 3 years has been 
implementing the Affordable Care Act at the IRS? Why in the 
world should it have taken 5 months for her to come in front of 
this committee? What are they trying to hide? And that is why 
this hearing is so important.
    And, Mr. Chairman, I will yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. Members will have 7 days in which to submit 
opening statements for the record.
    Chairman Issa. And we will now recognize the panel.
    Ms. Sarah Hall Ingram----
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. The ranking member will not be recognized 
because of accusations you made in your opening statement.
    Would Mr. Cartwright like a few moments?
    Mr. Cummings. Of course.
    Chairman Issa. The gentleman is recognized.
    Mr. Cartwright. I thank you, Chairman Issa, for this 
opportunity to discuss the IRS's role in implementing and 
enforcing the Affordable Care Act. I do look forward to today's 
testimony. And I would like to hear all about the nationwide 
dragnet that finally snared our witness and brought her here 
today.
    I will say, the IRS has begun to play and will continue to 
play a key role in both the implementation and the enforcement 
of the Affordable Care Act. The Department of Health and Human 
Services manages the implementation of the ACA, with the IRS 
assisting mostly by administering subsidies to those who 
qualify under the law and penalizing those who don't comply 
with the law.
    To determine which individuals fall into the latter 
category, the IRS, along with the Centers for Medicare and 
Medicaid Services, operates a data hub, allowing those applying 
for coverage on the healthcare exchanges to easily determine 
which plans and which subsidies they qualify for.
    This data hub does not--and I repeat, does not--receive or 
maintain any personal health information or medical records. It 
simply routes data, never storing it, and accesses only the 
information needed to determine individual eligibility for 
coverage and tax credits.
    These tax credits are desperately needed in my district, 
where nearly 9.4 percent of my constituency lives below the 
poverty line. Seventy thousand--and that is 10.5 percent--do 
not have healthcare insurance, including 6,500 children, and 
will be able to utilize the subsidies offered under the 
Affordable Care Act and coordinated by the IRS to finally get 
covered. Clearly, my constituents need the Affordable Care Act.
    I look forward to today's testimony. And I want to echo the 
comments of the ranking member, that this effort to somehow 
link--the attempts to generate and gin up a scandal about the 
IRS and link that with the implementation of the Affordable 
Care Act, this is quite an act of limbo dancing going on here.
    And I will be interested to see if my colleagues across the 
aisle can actually carry out the idea of linking the supposed 
IRS scandal with the implementation of the ACA, when we don't 
even have the people who are actually most knowledgeable in 
charge of those areas here as a witness. In fact, they were 
apparently instructed not to come.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. We now go to our--as I said, I will say it 
again, Members may have 7 days in which to submit opening 
statements for the record.
    We will now recognize our first panel.
    Ms. Sarah Hall Ingram is Director of the Affordable Care 
Act Office and formerly Commissioner of Tax Exempt and 
Government Entities at the Internal Revenue Service.
    Ms. Ingram, pursuant to committee rules, would you please 
rise to be sworn and raise your right hand?
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    Ms. Ingram. I do.
    Chairman Issa. Please be seated.
    Let the record indicate the witness answered in the 
affirmative.
    Your entire opening statement, Ms. Ingram, will be placed 
in the record, so you need not read verbatim. Please try to 
stay as close to 5 minutes as you can.
    The gentlelady is recognized.

 STATEMENT OF SARAH HALL INGRAM, DIRECTOR, AFFORDABLE CARE ACT 
                OFFICE, INTERNAL REVENUE SERVICE

    Ms. Ingram. Chairman Issa, Ranking Member Cummings, and 
members of the committee, my name is Sarah Hall Ingram, and I 
am the Director of the Affordable Care Act Office under the 
Services and Enforcement part of the IRS. I appreciate the 
opportunity to discuss the work the IRS is doing to fulfill our 
responsibilities under the ACA.
    IRS implementation of the tax provisions of the ACA 
represents the collaborative work of all parts of the IRS. I do 
want to make clear that my office is responsible for only one 
piece of this large puzzle. That piece involves the business 
operations, flows, and procedures and products. Significant 
work is also being done by our Information Technology Division, 
our Office of Safeguards, and the Chief Counsel's Office.
    The written testimony we provided the committee reflects 
input from all these various functions. I will give you the 
best view that I can of our ACA implementation efforts from my 
perspective, but others who are accompanying me today may be 
better positioned, in many cases, to answer your particular 
questions. They include Chief Technology Officer Terry 
Milholland; the Director of Privacy, Government Liaison, and 
Disclosure, Rebecca Chiaramida; and Healthcare Counsel Tom 
Reeder.
    The IRS is charged with implementing the tax-related 
provisions of the ACA. While many tax provisions have already 
been implemented, a major effort in this regard involves the 
delivery of premium tax credits that will help millions of 
American families access affordable private health insurance 
coverage through the new health insurance marketplaces.
    The Department of Health and Human Services has principal 
responsibility for defining the structure and operations of the 
marketplaces. Open enrollment for insurance purchased through 
the marketplaces began on October 1st, and coverage can begin 
as soon as January 1st, 2014.
    The IRS has a supporting role in the development and 
operation of the marketplaces, which is to provide data and 
computational services to the marketplaces for use in making 
their determinations about citizen eligibility for financial 
assistance. In addition, the IRS is responsible for 
incorporating the premium tax credit and other tax provisions 
into the tax administration process for tax returns filed in 
2015 and beyond.
    Our implementation efforts in this regard fall into three 
major categories: first, employing information technology to 
facilitate data-sharing with HHS and State agencies to assist 
them in determining whether an individual who was applying for 
insurance coverage qualifies for financial assistance, 
including the premium tax credit. Our use of information 
technology will also play a key role going forward, as we 
incorporate the various provisions into tax administration 
infrastructure.
    Second, protecting the safety and privacy of taxpayer data 
being shared with Federal and State entities under the ACA 
statute. This includes both the establishment of safeguard 
procedures before data is released and on the ongoing 
monitoring of safeguarding practices going forward.
    And, third, updating and improving business processes and 
systems to facilitate tax return filing and compliance with the 
tax-related provisions of the ACA, including the premium tax 
credit.
    I am pleased to report that the systems and processes that 
the IRS has developed to support enrollment in the marketplace 
were launched on schedule and are working as planned. We have 
handled all requests received to date via the HHS data services 
hub, and turnaround times are meeting our goals.
    Our data-protection efforts are also working as intended. 
Prior to October 1st, we ensured that data security agreements 
were approved for all entities scheduled to receive taxpayer 
information, including the federally-facilitated marketplace, 
State individual marketplaces, and those Medicaid offices that 
had requested approval before October 1st.
    We have also been working to ensure that individuals who 
seek information from the IRS about obtaining insurance 
coverage through the marketplace are steered to the resources 
that can best help them. We have collaborated across agencies 
and stakeholders to ensure the availability of consistent 
information on Web sites and other channels, as well as in 
outreach to individuals, businesses, and professionals.
    Looking to the future, the IRS is also focused on preparing 
for ACA provisions that will have an impact on IRS forms and 
procedures beginning with the 2015 filing season. In regard to 
both the premium tax credit and the individual responsibility 
requirement, preparations are already under way to modify forms 
and instructions, enhance education and outreach to the 
taxpayers and their advisors, update our business processes, 
and complete the IT infrastructure changes in time for the 2015 
filing season.
    This concludes my testimony. I would be happy to take any 
questions from the committee.
    Chairman Issa. I thank you.
    [Prepared statement of Ms. Ingram follows:]
    [GRAPHIC] [TIFF OMITTED] 86195.001
    
    [GRAPHIC] [TIFF OMITTED] 86195.002
    
    [GRAPHIC] [TIFF OMITTED] 86195.003
    
    [GRAPHIC] [TIFF OMITTED] 86195.004
    
    [GRAPHIC] [TIFF OMITTED] 86195.005
    
    [GRAPHIC] [TIFF OMITTED] 86195.006
    
    [GRAPHIC] [TIFF OMITTED] 86195.007
    
    [GRAPHIC] [TIFF OMITTED] 86195.008
    
    [GRAPHIC] [TIFF OMITTED] 86195.009
    
    Chairman Issa. I will now recognize myself.
    Ms. Ingram, if I heard you correctly, all is going as 
planned and well in the rollout of the Affordable Care Act. Is 
that correct?
    Ms. Ingram. The portion of the responsibilities the IRS was 
in charge of is going fine.
    Chairman Issa. Excellent.
    I would now like to--if you would give the first document 
to the gentlelady.
    I would like to bring your attention to an email chain 
dated Friday, July 20th, 2012, in which you were CC'ed and 
added to the chain.
    In preparation for the delivery of these documents, I 
assume, which we were delivered under discovery, you have 
reviewed those. Is this correct?
    Ms. Ingram. I am not sure whether I have seen the 
particular one, but I am reading it now, sir.
    Chairman Issa. Okay. Take your time and read it.
    Ms. Ingram. I have reviewed the document. Thank you.
    Chairman Issa. Thank you.
    Do you recall this document?
    Ms. Ingram. I do not recall the document. I think I recall 
what it is a discussion about.
    Chairman Issa. Well, one of the areas of interest is there 
is a significant redaction that quotes the statute 6103. Do you 
know who is underneath that blackout?
    Ms. Ingram. I don't recall the document, so I can't help 
you with what is underneath the redaction, sir.
    Chairman Issa. Okay. So the subject of this--well, let's go 
to the--let's go to a second one.
    Would you give her the second document?
    And we will pause and give you time to read it.
    Ms. Ingram. Thank you.
    Chairman Issa. This one is from you directly, so hopefully 
you recall it.
    Ms. Ingram. I recall----
    Chairman Issa. Do all Members have the document in front of 
them?
    Can we have the clerk distribute the documents? I want to 
make sure everyone has them in front of them. Do we have enough 
copies? Okay. They will be distributed.
    If the gentlelady will just pause for a moment.
    Do all the Members now have the document?
    I think down in the front row they will need more.
    Ms. Ingram, do you recall the second document, in which you 
are the author?
    Ms. Ingram. I remember the conversations. Since my name is 
on the email, I assume it is----
    Chairman Issa. Okay.
    Ms. Ingram. --me.
    Chairman Issa. Do you know the names underneath any of 
these black blocks, or the information?
    Ms. Ingram. No. I am sorry. I couldn't remotely remember 
what might have been underneath.
    Chairman Issa. So you don't know what is underneath there.
    As an expert at the IRS, many times awarded by both 
Republican and Democratic administrations, do you know what 
6103 indicates?
    Ms. Ingram. Yes, I understand 6103. Yes, sir.
    Chairman Issa. Okay. And is it true that that, in fact, is 
sensitive information that is not to be distributed outside 
people permitted to have it within the IRS and a very limited 
amount of people here in Congress?
    Ms. Ingram. I understand the rules of the 6103, yes, sir.
    Chairman Issa. Well, you understand that you can't 
distribute 6103 information outside of people authorized to see 
it. Is that correct?
    Ms. Ingram. Correct.
    Chairman Issa. So why are political appointees in the 
Office of the President receiving 6103 information? On what 
basis would you be allowed to discuss the information, which is 
a form of classification under 6103, with political appointees 
at the White House?
    The IRS is a nonpolitical organization. You are not a 
political person. But isn't it true that political appointees 
are not allowed to see this information unless specifically 
cleared, correct?
    Ms. Ingram. I am not familiar with what process was used to 
put the markings on this document. My understanding from 
looking at the document is that these are names that were 
offered to us as examples of how the----
    Chairman Issa. Yeah, no, I understand. But you have been 
with the IRS a long time. 6103 information--did you share 6103 
information with people at the White House?
    Ms. Ingram. I am not conscious of ever sharing 6103 
information with the White House, so I--but I cannot speak to 
what the process was for putting these labels on this document.
    Chairman Issa. Okay. So your testimony today is that you 
have never shared confidential information with political 
appointees at the White House, but--in your 75 or 79 trips to 
the White House, the meetings in small and not-so-small groups 
with political appointees at the White House.
    Then I have to understand, either this is 6103 information, 
as the IRS has said it is, and you have shared it with 
political appointees at the White House, or it is not 6103, in 
which case someone at the IRS is abusing the redaction and 
keeping this committee from getting the information it needs 
for its proper and lawful discovery.
    I think we will have Danny Werfel back here on this 
subject.
    Did you participate in redaction decisions at all?
    Ms. Ingram. No, sir, I did not.
    Chairman Issa. Okay.
    Now, I guess one of the--this is a serious matter, but it 
appears from this that you were part of the discussion at a 
time in which a controversial rule was going into effect that 
included a number of conservative and religious groups and that 
you were providing back-and-forth advice to White House 
personnel on that implementation.
    Is that correct?
    Ms. Ingram. My recollection of this exchange had to do with 
what the current IRS rules are under regulations, under 6033, 
in case policymakers wanted to use any definition that existed 
already in the Tax Code and that they understand what they 
would cover or not cover depending on which definitions they 
chose to employ. It was not a discussion about their decision 
about what to use.
    Chairman Issa. So you were providing technical information 
on how the administration could determine whether or not church 
and non-church groups, schools sponsored by churches and other 
affiliated groups, whether or not they could be compelled under 
the Affordable Care Act to do certain things. Is that correct?
    Ms. Ingram. It was a discussion about what the current 
definitions under 6033 mean and have been for some decades.
    Chairman Issa. But the questions from political appointees 
at the White House to you in your nearly 80 trips back and 
forth, and apparently a large amount of emails, had to do with 
their desire to compel religious groups to do certain things 
under the Affordable Care Act, and you were advising them as to 
what the law would be and how they might implement it. And in 
the case of one of the emails, you said, ``Hoping there is a 
quick answer while I prep for something else. Please copy me on 
the answer.''
    So this was something where you wanted to be aware of and 
participate in the decision process by political appointees at 
the White House. Is that correct?
    Ms. Ingram. I think that portion of the email is addressed 
to staff at the IRS, hoping that they could take care of 
answering the questions about 6033.
    Chairman Issa. Right. I was reading, actually, your quote. 
``Hoping there is a quick answer while I prep for something 
else. Please copy me on the answer.'' That is your portion of 
that first email.
    Ms. Ingram. Yes. It was an ACA-related question, and I 
wanted the staff to do the analysis.
    Chairman Issa. So you have been intimately involved in ACA 
implementation questions, including whether or not somebody 
would receive a waiver, whether or not somebody under current 
law could or could not be forced to do something they did not 
want to do. Is that correct?
    Ms. Ingram. I have been involved in answering questions 
about how the rules work, and that is what this exchange is 
about. It was not about what rule they, the policymakers, ought 
to adapt.
    Chairman Issa. And one last time: The information 
underneath here, if it is not 6103, you certainly would agree 
that we should know what it is. And if it is 6103, then it is 
something you have said you have never done, which is to 
transfer 6103 information to political appointees at the White 
House.
    Ms. Ingram. I would have to refer you to the people who did 
the redactions.
    Chairman Issa. No, I just----
    Ms. Ingram. I don't know what is underneath, sir. I am 
sorry.
    Chairman Issa. Neither do we. Neither do we.
    I now recognize the ranking member.
    Oh, I now recognize the gentlelady from New York.
    Mrs. Maloney. Thank you.
    And I would like to thank Ms. Ingram for your public 
service and congratulate you on earning a reward, an award, for 
your work on combatting terrorism financing. As one who lost 
500 constituents on 9/11, I know how important this work is. It 
is vital to our homeland security and vital to saving American 
lives. So I wanted to thank you for that.
    I also think that it is important that we realize the 
impact the government shutdown is having on our economy. 
Because an important part of homeland security is economic 
security, and our economic security is falling. The stock 
market is closing at the lowest level in a month. The Dow Jones 
average fell 136 points. The Standard & Poor's 500 Index fell 
14 points. The NASDAQ fell 37 points. And consumer confidence 
is at an all-time low due to the threat of a default on our 
debt, on American debt.
    I do want to make an important point, that 195 Democrats 
have signed a petition saying that they will vote today, they 
will vote in 10 minutes, to open up the government. And I feel 
if a vote was allowed on the floor, there would be enough like-
minded Republicans that would vote, as we did on the Violence 
Against Women Act and other areas, jointly in a bipartisan way 
to open up our government.
    And I would say that, instead of having a hearing on 
unfounded allegations, we should be looking at what the impact 
of this shutdown is on the IRS and other government agencies 
and their ability to provide services to the American people.
    So I would like to ask you, Ms. Ingram, what is the 
percentage of people that have been furloughed in the IRS?
    Ms. Ingram. I have been informed that it is roughly 90 
percent.
    Mrs. Maloney. Ninety percent. Well, who is left?
    Ms. Ingram. A small number of people trying to keep 
essential things moving.
    Mrs. Maloney. Well, do you think the government shutdown 
will impact the agency's ability to carry out your mission, to 
enforce the tax laws of our country in a fair process with 
great integrity?
    Ms. Ingram. Overall comments on issues about such shutdown 
and budget I need to defer to folks back at the IRS.
    Mrs. Maloney. Well, I want to focus on one area that the 
IRS plays a critical role in in our economy, and that is the 
approval of mortgage loans.
    And, regrettably, due to the recession, homeownership is at 
the lowest level in 18 years. But home sales are finally 
beginning to tick up until we got to this shutdown, and now 
they have again fallen backwards, even though housing finance 
is considered by some economists to be as high as 20 to 25 
percent of our economy, with the related industries.
    Mrs. Maloney. So this slowdown in the approval of mortgage 
loans is going to have a dramatic effect on our economy.
    And the shutdown of the IRS has a specific responsibility. 
Because, as I understand it, the IRS has to approve or provide 
tax records for 1 year for any mortgage approval. Is that 
correct?
    Ms. Ingram. I am not the right person to answer detailed 
questions about that program. I am sorry, ma'am.
    Mrs. Maloney. Well, I looked at the IRS Web site just in 
case you couldn't answer, and, by law, any mortgage loan 
approval is subject to the review by the mortgage lender of at 
least 1 year's worth of Federal tax returns.
    This process of verifying income requires the assistance of 
an IRS employee. Therefore, a third-party mortgage firm cannot 
verify a borrower's income via his or her tax return and the 
sale cannot be closed. So, therefore, even though the FHA is 
continuing to process loans and some banks are processing 
loans, they need the IRS to approve these tax returns. So, 
therefore, the sale and the mortgage cannot go through.
    And it had on the Web site commonly asked questions. And it 
said, can a third party obtain a tax transcript during the 
shutdown? And the answer was clearly no. So we can't move 
forward in this vital area of approving home loans and 
mortgages that could help our economy move forward.
    And consumer confidence continues to decline the longer 
this shutdown lasts. And as a result of lackluster 
expectations, Realtor.com also notes that the number of 
mortgage applications is also decreasing dramatically, after 
experiencing an uptick prior to the shutdown of the Federal 
Government.
    So I would say that what we should be focusing on is what 
we can do to open up the government. We are now in day 9 of the 
government shutdown. My time has expired. Let's work together 
to open up the government and get our economy moving again.
    Chairman Issa. I thank the gentlelady. And I will take her 
opening statement as a recommendation that we hold a hearing on 
whether, in fact, essential personnel at the IRS should have 
included people for that department.
    Mrs. Maloney. Thank you.
    Chairman Issa. With that, we go to the gentleman from Ohio, 
Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Ingram, you have been at the IRS how long?
    Ms. Ingram. I am sorry, I was adjusting the mic, sir.
    Mr. Jordan. You have been at the IRS how long.
    Ms. Ingram. Over 31 years.
    Mr. Jordan. And you take the--I want to go back to where 
the chairman was. You take the 6103 confidentiality statute 
pretty seriously at the IRS?
    Ms. Ingram. Very seriously.
    Mr. Jordan. In fact, let's put up the definition here, just 
the statute itself.
    It says, ``No officer or employee of the United States 
shall disclose any return or return information obtained by him 
in any manner in connection with his or her service as such an 
officer or employee or otherwise or under the provisions of 
this statute.''
    This is the statute itself. It is pretty straightforward. 
You can't share personal taxpayer information, correct?
    Ms. Ingram. True.
    Mr. Jordan. Okay.
    And then you gave the--I cited it in my opening statement. 
You gave a presentation to the IRS Oversight Board where you 
highlighted this as you were talking about the Affordable Care 
Act.
    If we can put that slide up.
    This is from the presentation you gave according to the 
minutes of that meeting in front of the IRS Oversight Board. 
And I want to show, ``Federal tax law imposes privacy 
protections that bar IRS from disclosing Federal tax 
information.'' Down to the final sentence, ``This encompasses 
both the release of the data and the safeguarding of the data 
in the hand of the recipient.''
    So if you are conveying--you can't pass this back and 
forth, you have to protect it. This was the presentation you 
gave in front of the IRS Oversight Board.
    Now, let's go back to the email the chairman had in front 
of you, if we could. It is addressed to Ms. Jeanne Lambrew. Who 
is Jeanne Lambrew?
    Ms. Ingram. She is--my understanding is that she is on the 
Domestic Policy Council.
    Mr. Jordan. Your understanding? You don't know this lady 
very well?
    Ms. Ingram. No, I don't know her very well. No.
    Mr. Jordan. Well, according to the White House visitors 
log, we just--I mean, we do this all the time. We grabbed the 
White House visitors log. In a 17-month timeframe, you visited 
with her 75 times. That is more than once a week. It says, 
Sarah H. Ingram, 8:26, Jeanne Lambrew, Deputy Assistant to the 
President for Health Care.
    Seventy-five different times it is in the log that that is 
who you visited with, and you would say you don't really know 
her?
    Ms. Ingram. Those are the times that I was cleared to 
attend, not necessarily the times that I actually attended.
    Mr. Jordan. Do you know how many times you did attend of 
those 75 you were cleared.
    Ms. Ingram. Many fewer.
    Mr. Jordan. Many fewer. Okay. So something below 75, but 
potentially you could have been there 75 times. Okay.
    And your testimony to Mr. Issa was that you did not 
disclose any 6103 information, correct?
    Ms. Ingram. I have not.
    Mr. Jordan. Okay. So who, then, at the IRS decided that you 
did and blacked out all they blacked out on that email? I mean, 
so--we got this from the IRS. We didn't black it out. We 
actually want to know what is underneath.
    Ms. Ingram. There is a difference between whether somebody 
gives me information about a taxpayer to which I can respond 
versus releasing an email to other members, such as the Members 
of Congress. But I defer to the people at the IRS----
    Mr. Jordan. Well, wait. So are you saying you are allowed 
to give 6103 information to the White House?
    Ms. Ingram. It is not 6103 information. It is coming----
    Mr. Jordan. Well, can you look at--just look at that email 
real closely. And do you see where all the black print is, see 
where it is all blacked out? There is a number written on each 
of those blacked-out areas. And what is the number written 
there? Can you just say for the record what the number is?
    Ms. Ingram. ``For the release of the documents''----
    Mr. Jordan. No, no, no. What is the number?
    Ms. Ingram. 6103.
    Mr. Jordan. 6103. So someone at the IRS decided this was 
confidential taxpayer information. And when we got these 
documents, when the committee got these documents, they said, 
``Oh, you know what? That is information you are not allowed to 
see, committee.'' But yet it was fine for you to communicate to 
the White House and release that information and give that 
information.
    Ms. Ingram. I would refer you to the people at the IRS who 
can----
    Mr. Jordan. So we want to know----
    Ms. Ingram. --better explain the difference between----
    Mr. Jordan. That would be great. We would like to know who 
that person is who made that decision. Because you certainly 
didn't think it was. Someone did.
    Ms. Ingram. I believe the committee is interacting with 
people at the--
    Mr. Jordan. Let me ask you a question. This is your email. 
So go down there--put that back up, if we could.
    I just want to ask you one question. If it is not 6103--and 
this is your email. Let's just go right below the line, there 
is one little sentence, ``The large, well-known''--blank--
``university.'' Do you see that little sentence there? ``The 
large, well-known''--blank--``university.'' What is underneath 
that?
    Ms. Ingram. I don't know, sir.
    Mr. Jordan. You wrote it and you don't know? You can't 
remember?
    Ms. Ingram. I don't remember every email that ever 
crosses----
    Mr. Jordan. You remembered the subject. This is about the 
lawsuits a number of Christian-affiliated universities had 
against the government regarding their religious liberty 
rights, correct? That is what the subject matter of all these 
emails are in this exchange with Ms. Lambrew, right?
    Ms. Ingram. It is about the definition under 6033----
    Mr. Jordan. So you can't tell me, is that Christian 
University? Is that Catholic University? You can't tell me what 
is underneath that word even though you wrote it?
    Ms. Ingram. No, sir. I do not know what is underneath the 
blanks.
    Mr. Jordan. You can't tell me what is underneath the blanks 
even though you wrote it. You can't tell me who decided to 
black this out and redact this so the committee couldn't get 
it. But your testimony is also, I did not share any 
confidential taxpayer information with the White House, even 
though 75 times you were cleared to meet with Ms. Lambrew, and 
you had this correspondence back and forth with all kinds of 
redactions, and all the redactions say the same thing, 6103.
    It sure looks like someone broke the law here, Ms. 
Lambrew--or Ms. Ingram.
    Ms. Ingram. I would refer the Congressman to the team with 
which this committee----
    Mr. Jordan. Would you provide----
    Ms. Ingram. --is already working on this document.
    Mr. Jordan. Will you provide--Mr. Chairman, if I could, 
please.
    Will you provide us the person or persons who decided that 
this committee couldn't see this information and wrote ``6103'' 
on this email?
    Ms. Ingram. I will take the word back that the folks who 
are working with the committee on the production of documents 
clarify with you----
    Mr. Jordan. But that should----
    Chairman Issa. Would the gentleman----
    Mr. Jordan. Or you should be able to give us the 
information. If it is not 6103, then just tell us, give us the 
clean email.
    Chairman Issa. Would the gentleman yield?
    Mr. Jordan. I would be happy to yield.
    Chairman Issa. Would the individuals behind Ms. Ingram who 
are from the IRS please identify yourself for the record?
    I just want to know if there is somebody there that could 
communicate back to the IRS that we would like these documents 
in unredacted format so that we could go forward and have a 
conversation. Is there anyone in that group who can correspond 
with the IRS?
    I apologize. Maybe Danny Werfel should have been here.
    Mr. Cummings. Yeah, he should have been here. That is my 
point.
    Mr. Jordan. Mr. Chairman?
    Chairman Issa. So is there any one of you who has the 
ability to correspond to Leg Counsel or to Legislative Affairs 
or to the IRS to let them know that we would like the 
unredacted documents so we could go forward and ask Ms. Ingram 
what her involvement was and what organizations were being 
targeted or answered in this case? Will one of you raise your 
hand if you can?
    Ms. Ingram. Mr. Chairman, we would be glad to take your 
questions----
    Chairman Issa. No, we don't want your ``I will come back 
for the record.'' You will be back here if that is the case.
    Okay. I would instruct the clerk--I will recognize the 
gentleman in a second.
    I will instruct the clerk to get a call in to the IRS. I 
would like those documents delivered before this hearing is 
over so that we at least can ask the witness details about her 
own emails she doesn't seem to be able to recognize.
    Mr. Jordan. Mr. Chairman?
    Mr. Cummings. Mr. Chairman?
    Chairman Issa. Go ahead.
    Mr. Cummings. Hopefully they are not on furlough.
    Mr. Jordan. Two quick things, Mr. Chairman. First of all--
--
    Ms. Ingram. They are.
    Chairman Issa. Well, in this case, they are essential.
    Mr. Jordan. Mr. Chairman, first of all, remember what took 
place here. The White House and the IRS are communicating back 
and forth, potentially giving away confidential taxpayer 
information, to get lawsuits dismissed from Christian 
universities suing the government over their religious liberty 
rights, number one.
    Number two, remember this: This law compels every single 
American, individual mandate, to go to this exchange and give 
personal information to the IRS. They are compelled to do that.
    Chairman Issa. I thank the gentleman.
    Mr. Jordan. And this lady was sharing personal information 
with the White House.
    Chairman Issa. Would the gentleman----
    Mr. Jordan. That is why this law is so scary.
    Chairman Issa. The gentleman's time has now expired.
    Mr. Cummings. Thank you very much.
    Chairman Issa. Would the gentleman like to be recognized?
    Mr. Cummings. Yes. Thank you.
    Chairman Issa. The gentleman is recognized for 5 minutes.
    Mr. Cummings. Thank you, Mr. Chairman. May I have 7 since 
you had 7?
    Chairman Issa. The gentleman is recognized for 5 minutes.
    Mr. Cummings. Thank you very much for your courtesy.
    Ms. Ingram, unlike the last questioner, I am going to allow 
you to answer my questions.
    Ms. Ingram, you have--not you, Mr. Chairman.
    Chairman Issa. I am glad I wasn't the last one there. I 
hope you have questions for her answers.
    Mr. Cummings. I certainly--no, I have questions. I don't 
answer questions--ask and answer.
    Ms. Ingram, you have been attacked by several Members of 
Congress for personally directing the so-called targeting of 
Tea Party groups applying for tax-exempt status. For example, a 
Republican Congressman, Tim Griffin, accused you of being 
directly in charge of this targeting. Similarly, Republican 
Congressman Tom Price accused you of systemic harassment of 
conservative and religious organizations and argued that you 
should be suspended.
    Ms. Ingram, let me ask you to respond to these accusations 
directly. Did you play any role whatsoever in developing the 
inappropriate criteria used to screen applicants for tax-exempt 
status?
    Ms. Ingram. No, I did not.
    Mr. Cummings. The Inspector General didn't find you 
responsible either, because the Inspector General understood 
that you were not in the chain of command during the relevant 
time period.
    It appears that many of the accusations against you are 
based on a misunderstanding about your title and your position. 
Although you left your previous position in December 2010, your 
job title did not officially change until 2013. So if someone 
looked up your job title, they might think that you were still 
at TEGE. Is that right?
    Ms. Ingram. That is true, sir.
    Mr. Cummings. Now, Ms. Ingram, it is my understanding that 
when you began your new position implementing the ACA in 
December 2010, you were no longer functioning as the 
Commissioner of Tax Exempt and Government Entities. Is that 
correct?
    Ms. Ingram. Yes, sir.
    Mr. Cummings. When you took the ACA job in 2010, your 
former deputy, Joseph Grant, became the Acting Commissioner of 
TEGE. Is that correct?
    Ms. Ingram. Yes.
    Mr. Cummings. Ms. Ingram, did Mr. Grant fully assume those 
responsibilities in December 2010?
    Ms. Ingram. Yes, he did. It was announced that he would act 
as Commissioner.
    Mr. Cummings. Did Lois Lerner report to Mr. Grant when he 
became the Acting Commissioner of TEGE?
    Ms. Ingram. Yes.
    Mr. Cummings. So after 2010, Ms. Lerner did not report to 
you anymore. Is that right?
    Ms. Ingram. Only on paper, not in function.
    Mr. Cummings. So she was no longer in your chain of 
command?
    Ms. Ingram. That is right.
    Mr. Cummings. The Inspector General determined that Ms. 
Lerner learned about the inappropriate screening criteria in 
June of 2011. That was 6 months after you moved to your full-
time ACA position. Is that right?
    Ms. Ingram. I understand that is the timing, yes, sir.
    Mr. Cummings. Since you no longer reported--since she no 
longer reported to you, did Lois Lerner tell you about the use 
of inappropriate criteria in 2011?
    Ms. Ingram. I don't recall hearing anything about it until 
I sat in on a meeting requested by my boss in the spring of 
'12.
    Mr. Cummings. Now, in fact, Mr. Grant, who was her direct 
supervisor, told us that Ms. Lerner did not tell him anything 
in 2011 either. I just want everyone to be clear on the fact, 
because I think there are some people are clearly confused 
about this timeline.
    And I want to go back to some things Mr. Jordan was asking 
about. I take it that you are very concerned about 6103 
information, right? I mean, you guard--I mean, how do you view 
that? And how have you operated--first of all, how long have 
you been with the IRS?
    Ms. Ingram. Over 31 years.
    Mr. Cummings. And so tell me about your view with regard to 
6103 information and protecting it. And I remind you that you 
are under oath. Have you ever, to your knowledge, released 
inappropriately 6103 information?
    Ms. Ingram. I have never, as far as I know, ever violated 
any portion of 6103, which is a basic tenet from day one of 
employment at the IRS, to protect the confidentiality of the 
data that the citizens give us.
    Mr. Cummings. So you have spent 31 years at IRS.
    Ms. Ingram. Yes, sir.
    Mr. Cummings. That is a long time.
    Well, I just want to thank you for your service. And I know 
this is a difficult situation today. I am hoping the committee 
will be courteous to you. You are the face of our public 
servants, who give their blood, sweat, and tears and sacrifice 
for a bigger good. And so I just appreciate you.
    And, with that, I will yield back.
    Mr. Jordan. [presiding.] The gentleman from Florida is 
recognized for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Ms. Ingram, have you ever heard of Henry Chao, C-h-a-o, 
Chief Information Officer of Medicare and Medicaid Services?
    Ms. Ingram. Yes, sir.
    Mr. Mica. You have? He said--before October 1st, he said 
the rollout was not ready for October and hoped it would not be 
a third-world experience. Are you familiar with his evaluation 
of the ability to roll this out?
    Ms. Ingram. No, sir.
    Mr. Mica. Okay. Well, it is kind of funny. In the newspaper 
today, it was reported that it is easier to blog from Kenya, a 
third-world country, than to sign up for Obamacare. Would you 
say that that is an accurate assessment of where we are?
    Ms. Ingram. All I can speak to, sir, is whether our part is 
working as planned, and it is.
    Mr. Mica. Well, your part is a couple of things. We talked 
a little bit about income verification. And you don't have the 
ability to do that now; is that correct?
    Ms. Ingram. We are operating a system that, when we are 
asked for the limited tax data on----
    Mr. Mica. When somebody applies now, there is no 
verification of their income? Or will there be? Do you have 
that capability?
    Ms. Ingram. There is currently operating an income query 
process, whereby the marketplaces go through the data hub to us 
to----
    Mr. Mica. But can you now----
    Ms. Ingram. Yes, we are successfully----
    Mr. Mica. Can you now, when someone goes online, you can 
verify their income?
    Ms. Ingram. When we get the request, we are successfully 
and in all cases returning timely answers. I cannot speak to 
stages before us.
    Mr. Mica. So the people that have so far signed up, you can 
verify their income now?
    Ms. Ingram. There have been requests----
    Mr. Mica. And you will. Now, if----
    Ms. Ingram. It is not the IRS's role in the application 
process to do the total verification.
    Mr. Mica. But you are enforcement, though, right?
    Ms. Ingram. Pardon me.
    Mr. Mica. Are you enforcement?
    Ms. Ingram. We are worried about----
    Mr. Mica. IRS is the enforcer?
    Ms. Ingram. --the tax compliant----
    Mr. Mica. Tax compliant.
    Ms. Ingram. --the tax provisions, yes, sir.
    Mr. Mica. Right. Well, the court said this is a tax----
    Ms. Ingram. Yes, sir.
    Mr. Mica. --process.
    Are you ready in 2014? When are you going to announce to 
folks that in 2014 they have a $95 individual penalty or a $285 
family penalty if they haven't complied with signing up?
    Ms. Ingram. We have final regs, we have materials on our 
Web site, and that has been part of our----
    Mr. Mica. So you ready to go----
    Ms. Ingram. --part of our public outreach.
    Mr. Mica. When do you plan to send out notices? Will that 
be in 2014?
    Ms. Ingram. I am sorry, sir. Notices? I am trying to track 
you.
    Mr. Mica. Well, that you have not complied and individuals 
have not complied.
    We eliminated the employer mandate temporarily. I guess the 
President suspended that. But you have--folks are going to get 
a sticker shock when they find out that they are going to have 
this obligation.
    But you are prepared to send that out?
    Ms. Ingram. We already have information about that 
provision in our outreach materials, in public meetings, on the 
Web site, et cetera.
    Mr. Mica. But you haven't sent that out. You are not ready; 
you are just preparing for that.
    Ms. Ingram. May I ask for a clarification about which 
notice the Congressman is referring to?
    Mr. Mica. Again, if you haven't complied, there is a $95 
individual----
    Ms. Ingram. Yeah.
    Mr. Mica. --payment, $285 per family. At some point, that 
has to kick in, right?
    Ms. Ingram. So after the returns are filed in early 2015 
would be the first time----
    Mr. Mica. Okay.
    Ms. Ingram. --that we would have any information.
    Mr. Mica. Not until then.
    All right, another thing is, can you tell us how many have 
signed up for Obamacare?
    Ms. Ingram. No, sir. That is not part of the IRS role, and 
we have no insight into those numbers.
    Mr. Mica. You have no insight.
    You know, all the reports I have--I read, you know, a 
little bit of who was responsible for setting this up. It says 
the system was developed by CGI Group.
    Then I got a list of who--if you could put the list up of 
who got the obligation contracts to put this system together.
    This is a partial list. It is about a quarter of a billion 
dollars these folks received. I didn't know them, but they have 
a pretty good reputation, I understand. I did recognize Booz 
Hamilton.
    Were you involved in either deciding on any of these 
contracts being awarded at all or involved in picking who put 
this together?
    Ms. Ingram. These are all HHS contracts. We have----
    Mr. Mica. I know.
    Ms. Ingram. --nothing to do with those.
    Mr. Mica. No, I asked you--yeah.
    Ms. Ingram. No, we have nothing to do with that.
    Mr. Mica. And would there be political people, appointees 
that would have made that, or other people in HHS?
    Ms. Ingram. I would have to refer you to the other agency, 
sir.
    Mr. Mica. Well, I was just a little surprised by that.
    And I will just show the committee. I went to one of my 
recognized, Booz Hamilton, and then just checked the political 
contributions.
    If you would put up the political contributions.
    It is quite revealing. Over almost a quarter of a--let's 
see, that is a million dollars to the Democrat side, $287, and 
$63,000 to the Republican side. It looks like some of these 
contracts--and this is on opensecret.com--which is to political 
folks.
    But you are not aware of any of that activity, right?
    Ms. Ingram. We have no part of any of this.
    Mr. Mica. And, again--and it might be interesting to go 
back, for the media and other folks, to see who got contracts 
and who were the big players.
    Finally, are you aware of any requirements for hiring 
additional personnel or additional space needed to house IRS 
personnel who will be involved in Obamacare? How much space and 
how many people?
    Ms. Ingram. I am not aware of space issues, but the 2014 
President's budget includes the need to have additional IT 
specialists come in and help us finish the work for 2015.
    Mr. Mica. Finally, the amount of capacity, I am told, of 
your core data center, for most of our 400 IT core data 
centers, we only use about 8 to 12 percent of capacity.
    Do you know what percent of capacity for the data centers, 
or could you provide it to the committee, is used by IRS 
currently?
    Ms. Ingram. That is certainly beyond my----
    Mr. Mica. Well, I am asking if----
    Ms. Ingram. --knowledge, but we can take the question back.
    Mr. Mica. --you could provide it. Because we find very 
little has been used for most of those, again, according to 
reports Mr. Connolly and I have gotten.
    Thank you. I yield back.
    Mr. Jordan. I thank the gentleman.
    The gentleman from Virginia is recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    Now, let's get a few things out of the way here, Ms. 
Ingram.
    Have you ever read ``The Crucible'' by Arthur Miller?
    Ms. Ingram. I have not read it. I have seen it performed.
    Mr. Connolly. And you know what it is about?
    Ms. Ingram. Yes, sir.
    Mr. Connolly. What is it about?
    Ms. Ingram. Well, I am from New England, so I am familiar 
with the original story.
    Mr. Connolly. So it is about?
    Ms. Ingram. It is about the Salem witch trials.
    Mr. Connolly. Ah. So let's get--you are under oath. Have 
you been consorting with the devil?
    Ms. Ingram. Not to my knowledge, sir.
    Mr. Connolly. Are reports that you can fly accurate?
    Ms. Ingram. Greatly exaggerated, sir.
    Mr. Connolly. Have you been involved in any way in trying 
to pervert our youth in Salem or anywhere else?
    Ms. Ingram. I certainly hope not, sir.
    Mr. Connolly. You are sure?
    Ms. Ingram. Yes, sir.
    Mr. Connolly. Well, all right.
    You received an award in the Bush administration for 
excellence in public service, the highest award I think for 
anyone in the IRS; is that correct?
    Ms. Ingram. It is the highest award given to members of the 
Senior Executive Service, yes.
    Mr. Connolly. Did the devil have anything to do with that 
award?
    Ms. Ingram. I was not part of either the nomination process 
or the awarding. I can't say, sir.
    Mr. Connolly. We now know that the Bush administration 
manufactured evidence about weapons of mass destruction to 
justify the invasion of Iraq. Were you involved in that?
    Ms. Ingram. Uh----
    Mr. Connolly. Because you received an award from President 
Bush. So there is a connection.
    Ms. Ingram. No, sir.
    Mr. Connolly. Really? Hmm. All right. If that is your 
testimony, Ms. Ingram.
    In your testimony, you said that the IRS is permitted to 
disclose tax return information to other Federal agencies and 
State tax authorities to facilitate efficient tax 
administration. And you cited the fact that the ACA provides a 
specific exception--and we are talking about 6103 here--for 
information-sharing activities.
    Could you explain what that means? That sounds very 
ominous. It sounds like the devil is involved here.
    Ms. Ingram. So, from time to time, Congress puts exceptions 
in the 6103 rule to permit or in some places require us to 
share tax data in narrow circumstances to forward some policy 
that Congress has in mind. As part of the ACA, there was an 
amendment made to 6103 to require us to share data upon 
request----
    Mr. Connolly. For what purpose?
    Ms. Ingram. For the purpose of the recipients' using it to 
determine eligibility for the benefits of the marketplaces and 
Medicaid.
    Mr. Connolly. So the recipient would be who? The White 
House? Political operatives? The devil? Who is it?
    Ms. Ingram. It is the individual marketplaces and Medicaid 
offices who are using the data under the new part of 6103 to 
make income-based determinations on eligibility for their 
programs.
    Mr. Connolly. So it is not political activity?
    Ms. Ingram. No, sir.
    Mr. Connolly. It is not partisan political activity?
    Ms. Ingram. No, sir. We are required by statute.
    Mr. Connolly. By statute. You mean we wrote it?
    Ms. Ingram. Yes, sir.
    Mr. Connolly. Oh.
    Ms. Ingram, I just want to say that, at least on this side 
of the aisle, you are an esteemed public servant. We deeply 
appreciate the service you have provided to your country. We 
are glad that you have stepped up to try to make affordable 
care available to all Americans, pursuant to the statute 
written by this Congress.
    And, at least speaking for myself, I deeply regret the 
fact, going back to ``The Crucible,'' that you are going to be 
pilloried here today. And I very much appreciate, as a fellow 
New Englander, your sangfroid and your willingness to put up 
with it. But don't for a minute think that the pillorying to 
which you are going to be subjected speaks for all of us. It 
does not. And, frankly, if the American people are watching 
this hearing, they are going to be ashamed of the treatment to 
which you are subjected.
    Thank you for your service.
    Mr. Cummings. Will the gentleman yield?
    Mr. Connolly. I will yield.
    Mr. Cummings. Just one question, Ms. Ingram. You have been 
asked several questions about your responsibility under the IRS 
with regard to the Affordable Care Act.
    Are you where you were scheduled to be--in other words, 
with regard to the development of everything that you all were 
supposed to do under your section of the IRS?
    Ms. Ingram. Yes.
    Mr. Cummings. Are you following my question?
    Ms. Ingram. Yes, we are on--for the business operational 
parts that I am responsible for contributing to the team, we 
are on schedule.
    Mr. Cummings. Thank you very much.
    Mr. Jordan. The gentleman from Tennessee is recognized.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    And I will make it clear that I have no complaints about or 
criticisms of Ms. Ingram. But in Forbes magazine just this 
morning, a columnist named Avik Roy wrote this. He said this: 
``One week into the launch of Obamacare, however, it is not a 
joke. It is literally easier to blog from the Kenyan border 
than to sign up for insurance on Obamacare's Federal exchange. 
Why is this happening? Politics. The Obama administration was 
more afraid of delaying the launch of Obamacare than they were 
of botching it.
    ``All you need to know about the rollout of Obamacare's 
subsidized insurance exchanges is that so far the toughest 
questions posed to the Obama administration have come from 
Comedy Central. 'We are going to do a challenge,' Jon Stewart 
told Kathleen Sebelius on 'The Daily Show.' 'I am going to try 
and download every movie ever made, and you are going to try to 
sign up for Obamacare, and we will see which happens first.''
    Some of the last questions made it seem that maybe they 
were done sort of in a joking manner, but this really is 
nothing to joke about. It is really kind of sad that this law 
was signed into effect in March of 2010. Forty-two months the 
government employees have had to prepare for this, 3-1/2 years. 
Ms. Ingram has been working on this since December of 2010. 
And, once again, I have no complaints about Ms. Ingram. But I 
think it is kind of ridiculous, kind of sad that, after all 
this time, things are in the shape that they are in.
    And, also, I find out this morning that the taxpayers have 
paid over $400 million in sweetheart deals to government 
contractors to help all the government employees who have been 
working on this to try to get this in shape. I mean, this is 
the most messed-up, convoluted, confusing law that I think that 
has ever been passed.
    And even before this rollout, as bad as it has been, 
thousands and thousands of citizens across this country have 
written and emailed and called Members of Congress. I have to 
just--I can bring so many examples, but I have one that says, 
``I am a retired TVA employee and received notice of a more 
than $500 increase in monthly health insurance. Starting in 
2014, monthly premiums will be $1,495 per month for me and my 
wife. Went into the Affordable Care site and premiums are about 
the same, except none of my doctors are on the list. I 
encourage you to keep voting to defund Obamacare, vote against 
increasing the debt ceiling, and vote to include everyone in 
Obamacare--no waivers or credits. My slogan for President Obama 
is: ``Be a man, sign up for your own plan.'' That was from Jack 
H. Weiss.
    Then another man, Joseph Schmitt, emailed me, ``I remember 
our President saying the new healthcare bill will reduce costs. 
I have my healthcare renewal forms, and the premium has 
increased about 15 percent, a $700 deductible is added, and my 
copayment is increased. Drug coverage is also increased. Maybe 
you can do nothing about this, and I understand. I just want 
you to know that I feel as if the truth was not told.''
    And another example from Bruce Christopher, it says, ``My 
2011 health insurance premium is going up 11 percent for less 
coverage. Copay and deductibles have doubled. Just thought you 
would want to know.''
    Now, you have your responsibilities. And the IRS 
Commissioner, Mr. Shulman, was here earlier, and also he said 
that--he noted that the statute does not allow traditional 
enforcement methods. But he said that the IRS will, quote, 
``communicate with the taxpayer and attempt to resolve the 
outstanding liability.''
    Can you tell us, since you are in charge of this office, 
Ms. Ingram, how will the IRS communicate that information to 
taxpayers?
    Ms. Ingram. I believe then-Commissioner Shulman was 
referring to the individual payment provision.
    Mr. Duncan. Right. That is correct.
    Ms. Ingram. So the traditional parts that are not available 
to us per the statute is that, if there is a liability related 
to that provision, liens and levies and any criminal steps 
cannot be used for that provision. And we are operationally 
making sure that that is absolutely true as it rolls out.
    For the if somebody is not covered, which most Americans 
are, or they are not eligible for an exemption, a statutory 
exemption, which another group is, if they actually have a 
liability and do not pay it as part of their return-filing 
process, it would be a balance due like other balance dues.
    And we are very conscious that, in the early times, there 
is education to be done and----
    Mr. Duncan. Well, how will you identify the people who 
haven't complied? I mean, are they supposed to check a box on 
their tax return, or what is going to happen?
    Ms. Ingram. We received a great deal of feedback that it 
would be helpful to Americans who are covered to be able to 
check a box and know that they were done. So our intention is 
to give people an easy way as part of their tax-filing process 
to check a box or indicate the exemption that they qualify for 
or to calculate the penalty as part of their return-filing 
process.
    Mr. Duncan. And now you know that all these employer 
mandates have been delayed. And it was my understanding that 
the IRS was going to use the information obtained in these 
employer mandates to do your required compliance work. So were 
you going to use the information that these employers provided?
    Ms. Ingram. So the information that is relevant to this 
provision is the information coming from the insurer 
information reports. And for the first year, the Congressman is 
correct that that is not mandatory in the first year.
    We are making sure citizens have the information they need 
to fill out their returns correctly and honestly, which most 
taxpayers do, I would like to emphasize. And we will be looking 
to see whether there are other ways to look at the filing 
patterns.
    But our main concern in the first year is to make sure 
people are educated and know what they need to do.
    Mr. Duncan. Well, let me--my time has expired, and I just--
--
    Ms. Ingram. In second year, we will have the returns.
    Mr. Duncan. I just want to say that I feel it is really--
this is not a joke to the American people. And it is sad that 
we would have laughter and jokes here in this committee 
hearing, in my opinion.
    Thank you.
    Mr. Jordan. I thank the gentleman.
    The gentleman from Pennsylvania is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Ms. Ingram, thank you for coming here today and 
putting up with our committee, especially right now in an 
atmosphere on Capitol Hill where there is an utter frenzy to do 
everything people can think of to get rid of Obamacare before 
it takes effect, including this hearing.
    But, Ms. Ingram, in my 4-1/2 minutes left, I want to see if 
we can cover the big picture.
    You are a 31-year employee of the IRS; is that correct?
    Ms. Ingram. Yes.
    Mr. Cartwright. You were not working at the Tax Exempt and 
Government Entities part when the targeting of the both 
conservative and progressive political groups came to light. Am 
I correct in that?
    Ms. Ingram. I was not working at TEGE, though I will note 
that it is true that on paper I still had that title.
    Mr. Cartwright. I saw that. But you didn't know that 
targeting was going on until after you stopped working in that 
area?
    Ms. Ingram. Yes. The first I heard was in the spring of 
2012.
    Mr. Cartwright. And you now work on the IRS piece of part 
of the implementation of the ACA. Is that correct?
    Ms. Ingram. Yes, sir.
    Mr. Cartwright. All right. You are working 60 or 70 hours a 
week at that, aren't you?
    Ms. Ingram. Ah, yes.
    Mr. Cartwright. All right. And you are working in one of 
the four offices of the IRS having to do with implementation 
and handling of the ACA. Am I correct in that?
    Ms. Ingram. Yes, sir.
    Mr. Cartwright. Okay. So one office is the Information 
Technology Division. That has been tasked to provide overall 
direction and day-to-day management and oversight of ACA-
related IT delivery for new and modified systems. Is that 
right?
    Ms. Ingram. That is true.
    Mr. Cartwright. You are not in that office, right?
    Ms. Ingram. No, sir.
    Mr. Cartwright. Another one is the Privacy, Governmental 
Liaison, and Disclosure Office, which has been tasked to 
monitor almost 300 Federal and State agencies currently 
approved to receive tax data and to ensure compliance with 
Section 6103, the one that had been bandied about a bit this 
morning, right?
    Ms. Ingram. Yes, sir.
    Mr. Cartwright. And you are not in that office, are you?
    Ms. Ingram. No, sir.
    Mr. Cartwright. One is the Office of Healthcare Counsel. 
This office has been tasked to coordinate the ACA across the 
Office of Chief Counsel in collaboration with the ACA, ACIO, 
ACA Safeguards, and ACA S&E PMO. You are not in that office 
either, are you?
    Ms. Ingram. No, I am not, sir.
    Mr. Cartwright. Okay.
    The one you are in is ACA Services and Enforcement 
Division, the one that has been tasked to coordinate ACA across 
S&E operations in collaboration with ACA, ACIO, Associate Chief 
Information Officer, Healthcare Counsel, and ACA Safeguards. Am 
I correct in that?
    Ms. Ingram. Yes, sir.
    Mr. Cartwright. All right.
    Well, now, if you had questions about those offices that 
you are not in, it would be more appropriate to bring the 
people from those offices and question them, would it not?
    Ms. Ingram. Yes, sir. There is a limit as to what I can 
provide as to their operations.
    Mr. Cartwright. So, for example, exactly how 6103 
information blocking comes up, you would want to ask the 
Privacy, Governmental Liaison, and Disclosure Office about 
that, wouldn't you?
    Ms. Ingram. Yes, sir, and the lawyers that advise them.
    Mr. Cartwright. Right.
    But now let me ask you this. There is an October 4, 2013, 
letter that Ranking Member Cummings wrote to Chairman Darrell 
Issa asking that people from all four of those divisions be 
brought here to testify. That was declined; they only wanted 
you. And they have asked you about all of these other subjects.
    Do you have any information at your disposal as to why 
Chairman Issa declined the participation of all these other 
people who know about these subjects?
    Ms. Ingram. I have not been a part of any of those 
conversations, sir.
    Mr. Cartwright. In fact, in the same letter, Ranking Member 
Cummings asked pointedly if Chairman Issa would also invite 
Acting IRS Commissioner Danny Werfel, who is charged with 
overseeing this entire effort at the IRS, and that also was 
declined.
    Ms. Ingram, do you know why Chairman Issa declined bringing 
Acting IRS Commissioner Werfel to answer those questions here 
today?
    Ms. Ingram. Again, I haven't been part of any of those 
conversations, sir.
    Mr. Cartwright. And I guess, even larger picture, Ms. 
Ingram, you don't work at the HHS, which is responsible for the 
overall rollout of the Affordable Care Act, do you?
    Ms. Ingram. No, sir.
    Mr. Cartwright. And they weren't invited here to answer 
questions today. Do you know why that was?
    Ms. Ingram. I am not familiar with how the decisions were 
made, sir.
    Mr. Cartwright. Well, if you have a question about a 
subject, wouldn't you want the person there that knows the most 
about that subject to answer those questions? Wouldn't a 
tribunal that wants to get to the truth of things act that way, 
instead of putting it all on somebody who is only working in 
one specific area?
    Ms. Ingram. I defer to the committee. Sorry, sir.
    Mr. Cartwright. Thank you very much for your time.
    And I yield back.
    Mr. Jordan. I thank the gentleman.
    The gentleman from Utah is recognized.
    Mr. Chaffetz. I thank the chairman. I would actually yield 
to the gentleman from Ohio.
    Mr. Jordan. I appreciate the gentleman yielding.
    Just real quick, in answering Mr. Cartwright's line of 
questioning, I would just remind the committee again: We have 
the ACA implementation IRS Oversight Board briefing May 2nd, 
2013, the document we got from the IRS Oversight Board. Ms. 
Ingram did that briefing. Page 7 of the minutes says, 
``Affordable Care Act update, led by Sarah Hall Ingram.'' She 
discussed the security and safeguard programs the IRS has in 
place regarding the sharing of data among its partners.
    So it was, again, good enough for her to brief the IRS 
Oversight Board. It seemed like it would be appropriate for her 
to brief this committee in Congress.
    I want to go back to the email real quickly, if I could. 
Let's go back. I just want to stress for the committee, the 
underlying issue here was about 58 different institutions who 
were suing the government because they believed their religious 
liberty rights, their First Amendment religious liberty rights, 
were being infringed upon by the Affordable Care Act.
    Isn't that correct, Ms. Ingram? This regarded the lawsuits 
that were in place, that were filed, regarding infringement of 
religious liberty.
    Ms. Ingram. I am sorry, Congressman. I don't see where the 
litigation is mentioned.
    Mr. Jordan. Not mentioned. This is what you are talking 
about.
    Ms. Ingram. No, sir. I am explaining how----
    Mr. Jordan. Only schools below college level that are 
affiliated with a church or operated by a religious order, 
these schools, while exempt from filing, would not meet their 
religious employer unless they are a church--this is all about 
institutions. Because, again, remember what was going on at 
this time. The administration was concerned about all these 
entities suing the government.
    Ms. Ingram. This is about 6103 rules--6033 rules in the 
Internal Revenue Code and how they work.
    Mr. Jordan. Used to define who qualifies and who doesn't, 
who would be exempt and who wouldn't be.
    And the end result was, from your discussions and the way 
the ruling was changed, most of these lawsuits were dismissed, 
lawsuits like Colorado Christian University v. Sebelius, 
Priests for Life v. Sebelius, Roman Catholic Archbishop of 
Washington v. Sebelius, Wheaton College v. Sebelius, Hobby 
Lobby--most of these cases have been dismissed because of the 
change in the definition that was being discussed in these 
emails, correct?
    Ms. Ingram. All I know, to respond to you, Mr. Congressman, 
is that I was answering questions about how current tax 
definitions worked under 6033. I was not involved in litigation 
or regulation decisions.
    Mr. Jordan. You were answering--the White House wanted to 
know if they could change the definition. You were giving them 
information about the definition, and the end result was most 
of these suits were dismissed. That is what happened.
    Ms. Ingram. I can't speak to that, sir. I can only 
explain--
    Mr. Jordan. You don't have to speak to it; it is the fact. 
And part of that was determined by the back-and-forth between 
the White House and you. And our concern, of course, is, in 
that correspondence that resulted in most of these cases being 
dismissed, you shared, at least by someone's definition at the 
IRS, you shared personal taxpayer information with the White 
House.
    And now, under the Affordable Care Act--and now, under the 
Affordable Care Act, Americans have to give personal 
information to the IRS, to the same lady, to the same 
organization that potentially, at least by someone's 
definition, shared all kinds of personal information with the 
White House political people at a time--this took place, again, 
at a time when religious institutions were suing the government 
because the Affordable Care Act infringed on their religious 
liberty rights.
    That is what people are nervous about. That scares a lot of 
people. You guys working back and forth, personal information 
going in emails; the end result is lawsuits get dismissed, 
religious institutions don't get their day in court. And now 
all of America has to send the same kind of personal 
information to you and the IRS in order to get health care.
    Ms. Ingram. May I have a minute to respond, sir.
    Mr. Jordan. Sure.
    Ms. Ingram. First, I will let the committee and the 
specialists in 6103 law provide the explanation as to why it 
would not have been a 6103 problem for me to have this email 
but a 6103 issue vis--vis the committee. And I will let you and 
they work that out.
    Mr. Jordan. Oh, wait, wait, wait. Just stop right there a 
second.
    So it was okay--that is amazing. It is okay for the White 
House to get the unredacted version, political people at the 
White House, from the same entity that targeted groups who came 
into existence because they opposed the Affordable Care Act, 
but Congress can't get it. That is just what--that is 
unbelievable.
    You just told us it is okay--you said you didn't do 
anything wrong, it is okay for the White House to get this 
information, but we on the Government Oversight Committee can't 
get the same information.
    Ms. Ingram. I cannot answer what is under those blocks, so 
I cannot answer whether the information originated with the 
White House or not. And I would refer you----
    Mr. Jordan. This is phenomenal. You wrote it. You don't 
know what is underneath those blocks. But it was okay for the 
White House to get it, but it is not okay for us to get it. And 
Americans are supposed to rest assured the IRS will treat their 
personal information--when they are forced by the law to sign 
up for the Affordable Care Act, Americans are supposed to rest 
assured you guys will treat that in a confidential fashion. 
Unbelievable.
    Mr. Cummings. Time is up.
    Mr. Jordan. My time has expired.
    Mr. Chaffetz. I will go ahead and yield back.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Tierney is recognized.
    Mr. Tierney. Thank you.
    Thank you, Ms. Ingram, for subjecting yourself to this 
today. I appreciate you being here.
    So, look, I mean, a lot of the Members in this Congress, 
Republican Members, including some of the ones on this 
committee, have sort of been alleging that the White House 
orchestrated the so-called targeting of Tea Party groups.
    For example, on May 14th, 2013, Chairman Issa stated on 
national television, ``This was the targeting of the 
President's political enemies effectively, and lies about it 
during the election year so that it wasn't discovered until 
afterwards.''
    So our committee has now heard from over 30 witnesses in 
interviews or in hearings, and none of them have indicated that 
the White House was involved in the treatment of applications 
for tax-exempt status.
    Ms. Ingram, do you have any reason personally to believe 
that the White House directed targeting of Tea Party 
organizations?
    Ms. Ingram. I have never heard anything that would indicate 
that.
    Mr. Tierney. Did anyone in the White House directly or 
indirectly ever instruct you to treat the Tea Party 
organizations differently from any others?
    Ms. Ingram. I have never had any such conversation with the 
White House.
    Mr. Tierney. So, to be clear, you have no knowledge of any 
White House role in these cases whatsoever. Is that correct?
    Ms. Ingram. None whatsoever, sir.
    Mr. Tierney. Now, there have been press accounts claiming 
that since 2009 you visited the White House 165 times. Is that 
correct?
    Ms. Ingram. I have been told of the press accounts.
    Mr. Tierney. Okay.
    Ms. Ingram. Those have to do with clearances, not 
attendance.
    Mr. Tierney. So most of us realize that those logs can 
often include scheduled visits that didn't actually take place. 
So how many times did you actually visit the White House 
complex during the timeframe, in 2009 area?
    Ms. Ingram. I am sorry, sir. From when to when.
    Mr. Tierney. From 2009 on.
    Ms. Ingram. Well, I don't have a number, sir, but once I 
started the ACA work, from time to time I would accompany 
Treasury to the Old Executive Office Building to provide 
administrability analysis for an issue that is being discussed 
amongst the multiple agencies. And that put me on a list for 
building clearances that was a repeating invitation, but I only 
went when I could add value from an administrability point of 
view.
    Mr. Tierney. On any of those visits that you made, were 
they about the applications for tax-exempt status that are 
under investigation by this committee?
    Ms. Ingram. Never, sir.
    Mr. Tierney. Okay. In fact, these regularly scheduled 
interagency meetings are on the Affordable Care Act is 
primarily what you were invited to participate in; is that 
correct?
    Ms. Ingram. As far as I know, always Affordable Care Act.
    Mr. Tierney. And they took place in the Old Executive 
Office Building, not in the actual residential White House or 
the Office of the White House itself?
    Ms. Ingram. I would say yes, except that I have a vague 
memory that for one meeting I went through a--somewhere in the 
sub-basement, I went through a second checkpoint. So I don't 
really know where I was at that point, but I just want to be 
open and complete about that.
    Mr. Tierney. Sure.
    Well, look, you know, some people have attempted to paint 
these meetings as evidence of a political bias on your part, so 
I want to give you an opportunity to respond to that. Have any 
of your actions at the IRS implementing the Affordable Care Act 
been motivated by any of your personal political views?
    Ms. Ingram. Absolutely not. Those--there is no place for 
personal political views in my work at the IRS.
    Mr. Tierney. In your tenure at the IRS, have you ever 
treated organizations differently based on their political 
views?
    Ms. Ingram. Absolutely not.
    Mr. Tierney. Have you seen any evidence that political bias 
has motivated the actions of any other IRS employee?
    Ms. Ingram. I have not seen bias in the work at the IRS.
    Mr. Tierney. Okay.
    I mean, we should be troubled by the baseless and partisan 
attacks that have been lobbed not just against you but others 
during the course of this investigation. So, hopefully, the 
record will be clear now and that it has been recognized that 
your duties have been exemplary conducted on that. And I thank 
you for your service.
    I yield to Mr. Cummings.
    Mr. Cummings. I am just sitting here listening to all of 
this. And, you know, I was listening to what Mr. Jordan just 
asked you. It is troubling.
    Do you have a family?
    Ms. Ingram. Yes, sir.
    Mr. Cummings. Are you married?
    Ms. Ingram. Yes, sir.
    Mr. Cummings. Do you have children?
    Ms. Ingram. Not my own.
    Mr. Cummings. Uh-huh.
    And the reason why I asked you that is sometimes I think we 
forget that public employees are human beings simply trying to 
do a job, people who could probably go out in the private 
sector and make more money. And the idea that you gave 31 
years--that 31 is just ringing in my head. That is a lot of 
time.
    And I want to go back to something Mr. Connolly said. I 
want you to know, you may very well be attacked here today, but 
this is really not about you. This is bigger than you. And I 
want you to understand that.
    Thank you very much.
    Mr. Jordan. I appreciate the gentleman's comments. And he 
is exactly right. It is not just about Ms. Ingram. It is about 
Americans who have to comply with this act.
    And I would just point out this, too: Lots of people 
underneath these redactions have families, as well, and they 
had their personal information bandied about like it was 
nothing. That concerns all of us.
    The gentleman from Michigan is recognized.
    Mr. Walberg. I thank the chairman.
    And, Ms. Ingram, I also thank you for being here to 
testify. We need to ask questions of a lot of people, and you 
are one of those.
    I appreciate the fact of concern from my colleagues on the 
other side of the aisle that we treat Federal employees like 
human beings as well. And that is right; it ought to be that 
way.
    But I also think about the 59-year-old woman in Jackson, 
Michigan, who calls my office in tears, a single mother, 
single-parent mother, who was just informed by her employer 
that she was being cut back from her part-time job of 35 hours 
as a home caregiver to 25 hours. And the additional revenue she 
made as a waitress on the weekends now would not come anywhere 
near covering her mortgage. That is a human being, as well. And 
that is why we are trying to get answers in hearings like this, 
and that is why we appreciate you being here.
    It is also the employer of 54 individuals, human beings, in 
my district who was told by his insurance carrier that they 
could not provide coverage for them anymore for their employees 
because they wouldn't meet the requirements of Obamacare.
    And so that is why we these hearings are important: to get 
to the issues that get the human beings, citizens, taxpayers, 
people that have dreams and aspirations just as you, Ms. 
Ingram, and I and my colleagues have, as well. And that is 
important to do this, and not to have a battle that continues 
to go on about shutdowns. Though I believe, very clearly, 
leadership on the other side of the aisle relishes this 
shutdown taking place and the pain that it brings about for 
political reasons.
    I ask you a question, moving on, dealing specifically with 
the employer mandate in the Affordable Care Act and the 
constitutional opinions that are out there all over the place 
that the President did not have the authority to delay the 
employer mandate. And we are asking for the individual mandate 
to be delayed for fairness, so they can get it right.
    But, Ms. Ingram, were you involved with discussions about 
the employer mandate delay prior to the announcement of the 
delay in a July 2nd blog post? Were you aware of that?
    Ms. Ingram. I was asked during that early summer about my 
views about the administrability of going forward with no 
relief or going forward with various kinds of relief and 
including the input that was coming in from the employer 
community about wishing to have more time to analyze their data 
and IT needs and from the insurer community and to consider 
administrability, which I always do, not only from the point of 
view of the IRS but from the individual and from the 
information reporter.
    Mr. Walberg. Do you know why the administration chose to 
wait as long as July 2nd to post this delay in a blog, why that 
decision was made?
    Ms. Ingram. I was not in the decision-making process. I 
provided administrability analysis.
    Mr. Walberg. Were you involved in the discussions regarding 
the administration's legal rationale behind the delay?
    Ms. Ingram. No, sir.
    Mr. Walberg. So you don't know what factors were considered 
for our President to ultimately make that decision?
    Ms. Ingram. I was not involved in the discussion, and I was 
told that the decision was made by the Assistant Secretary.
    Mr. Walberg. Is it true that the IRS will collect 
Obamacare's employer mandate penalty?
    Ms. Ingram. In--when, sir? I am sorry. In what----
    Mr. Walberg. When it is in effect. Will you, the IRS, 
collect the employer's--Obamacare's employer mandate penalty?
    Ms. Ingram. Yes. Once the information reporting commences, 
there will be the sufficient information to be able to 
calculate the tax.
    Mr. Walberg. So the employer mandate penalty amounts to 
$2,000 or $3,000 penalty per worker, as I understand what is in 
the law. Can you explain why the penalty would be $2,000 per 
worker and when it would be $3,000 per worker?
    Ms. Ingram. The difference between the two parts of that 
statute refer to whether the employer offers coverage at all. 
And that is the smaller amount. But it is a multiple of the 
number of workers, with some subtractions.
    If the employer offers adequate insurance, then the only 
question is whether an employee got a premium tax credit who 
was entitled to it, despite the employer offer. And, in that 
case, the number of people who get the premium tax credit would 
be a multiple of the $3,000.
    Mr. Walberg. Does the IRS have to offer the employer an 
opportunity to review and contest the determination prior to 
assessing the penalty.
    Ms. Ingram. As we put in our Q&As on the Web and have 
talked about publicly, the employer has very little ability to 
calculate that themselves because it requires knowledge of the 
1040s and who got a premium tax credit. So we will provide a 
proposed bill for the employer, including the underlying 
information, and let them help us correct the data.
    Mr. Walberg. When does the correction take place? After the 
payment of the penalty?
    Ms. Ingram. No, sir. After we propose an amount and they 
can work with us on correcting any errors in that calculation, 
and then there would be a bill.
    Mr. Walberg. Okay.
    I thank the chairman. I yield back.
    Mr. Jordan. I thank the gentleman.
    I now recognize the gentleman from Wisconsin.
    Mr. Pocan. Great. Thank you, Mr. Chairman.
    And, Ms. Ingram, thank you very much for being here. I want 
to echo the comments of both people, and your patience has been 
tremendous.
    I don't really know where to begin, so let me start with, 
are you of Libyan descent?
    Ms. Ingram. Not to my knowledge, sir.
    Mr. Pocan. Have you ever lived in Libya?
    Ms. Ingram. No, sir.
    Mr. Pocan. Have you ever traveled through Libya?
    Ms. Ingram. No, sir.
    Mr. Pocan. All right. How about, on the zodiac, are you a 
Libra?
    Ms. Ingram. No, sir.
    Mr. Pocan. Okay. You know, if you were at all involved with 
Benghazi, we would have hit the GOP trifecta: the IRS, the 
Affordable Care Act, and Benghazi. I mean, you would have made 
anyone who is frowning on the other side of the aisle just 
absolutely ecstatic. Unfortunately, I guess we don't have a 
trifecta today.
    I guess what we do have is a Whac-A-Mole hearing. We are 
just going to keep pounding at different things, hoping we hit 
something.
    And I think it has been pretty clear from people on this 
side of the aisle, Mr. Cartwright and our ranking member, but I 
just want to verify: You were not in charge, your job was not 
in charge of any targeting of Tea Party or progressive groups 
that this committee has discussed.
    Ms. Ingram. No. My functional assignments did not include 
any of that.
    Mr. Pocan. Okay. And we have seen lots of emails with 
redacting. You are not in charge of redacting at the IRS, are 
you?
    Ms. Ingram. No, sir.
    Mr. Pocan. Okay.
    They brought up some financial donations to Presidential 
campaigns. Is your job at the IRS to oversee somehow financial 
donations?
    Ms. Ingram. No, sir.
    Mr. Pocan. Okay.
    They brought up your travel schedule a number of times, how 
many you were at the White House. I assume we are going to have 
some of the janitorial staff at the White House coming in 
pretty soon, too, because they have been there an awful lot.
    How about--a number of areas we have brought up in the ACA 
you are not responsible for. Let's go to what specifically, I 
mean, you are here for, which is your supervision within the 
IRS of the Affordable Care Act.
    Specifically, it has been 9 days into implementation. Have 
there been any problems specifically in your area with the IRS 
portion of the implementation of the Affordable Care Act?
    Ms. Ingram. We have successfully taken in and turned around 
all the requests that we have received from the hub. And as far 
as we can tell--and we are looking on a daily basis--it is 
operating well.
    Mr. Pocan. Are there any areas based on, again, the 
oversight from your department that you see as potential areas 
that you are watching very closely that could have some issues?
    Ms. Ingram. Having to do with the supporting services that 
we are doing right now?
    Mr. Pocan. Correct.
    Ms. Ingram. Well, we have two kinds of activities that I 
would refer you to in general, because I know about them in 
general.
    One is looking at transactions on a sampling basis to keep 
reassuring ourselves they are working as intended and that 
when--not only in the testing phase, but also now that we are 
operational.
    The other thing we are doing is that there are two parts of 
Safeguard work. One is before data is--agreements are approved, 
and the other is once data flows are operational, we go back 
out and do operational reviews of practices. And that 
operational review cycle has started this week.
    Mr. Pocan. So just as a final, you know--ask the question 
again, just because it is what--``Examining the IRS's Role in 
Implementing and Enforcing Obamacare,'' what the headline of 
this is, as of 9 days now, we don't have problems that you are 
aware of at this point in your responsibilities within the 
implementation of the Affordable Care Act?
    Ms. Ingram. The IRS team is very comfortable that things 
are operating well at the IRS.
    Mr. Pocan. All right. That is great to hear.
    Again, Ms. Ingram, we really appreciate your willingness to 
field a wide variety of questions, both relevant and, more 
often than not, not relevant.
    And I just have to say one thing to the last committee 
member who said Democrats relish the shutdown. Actually, we are 
pretty disgusted by the shutdown.
    You know, the fact that my small businesses can't get SBA 
loans right now. About $80 million went into my community last 
year. That is pretty disgusting, that they can't, you know, 
grow jobs and grow the economy.
    The fact that veterans may not get benefits because we are 
holding our breath right now in Congress is pretty disgusting 
to me.
    The fact that Head Start kids in my district, including in 
Beloit, Wisconsin, where, the day after I was there visiting, a 
bullet went through their window--it is in a pretty tough 
neighborhood. The fact that they are going to not have funds is 
pretty disgusting.
    The fact that I have so many Federal employees who are 
furloughed and aren't working, I don't relish that, and I am 
pretty disgusted by it.
    And the fact that this country, it is costing $160 million 
a day while we are in closedown is not something the Democrats 
relish.
    And I just think that--I just want to clear the record. I 
don't think there is a single person here who would say they 
relish the shutdown.
    RPTS HUMISTON
    DCMN SECKMAN
    [11:35 a.m.]
    Mr. Walberg. Would the gentlemen yield?
    Mr. Pocan. Sure.
    Mr. Walberg. Thank you. I thank the gentleman. Just to 
clarify, my comments about that relishing go to the leadership 
in the Senate as well as the White House, the President, who 
are unwilling and made it very clear they will not negotiate.
    We have worked together to pass bills to deal with all of 
the things you mentioned. We passed them, sent them in a 
bipartisan fashion over to the Senate. It is time for us to 
stand together and ask the Senate and the President to show 
leadership and negotiate to a solution, and I want to see that 
as well.
    Mr. Pocan. Sure. And all I would add to that, if I can, to 
respond--thank you, Mr. Chairman--is the fact that, you know, I 
believe--and I serve on the Budget Committee. For 6 months, we 
have been asking people, since March 23rd, when the Senate 
passed a budget, to sit down and have a conference. And when, 
at 20 minutes to midnight on September 30th, finally, the idea 
comes together to sit down, I don't know if the finger pointing 
goes to the Senate leadership or the President.
    Mr. Jordan. Thank the gentleman.
    Now recognize the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Ms. Ingram.
    Thank you for being here. Give me a chance to walk through 
some questions. I want to talk to you about some of the process 
issues of the implementation on this.
    Was the IRS ready to be able to implement the business 
mandate, the employer mandate, as far as tracking through 
penalties, tracking through whether they are covering 
employees? Were they prepared for that?
    Ms. Ingram. Because the transition relief mentions that we 
will be ready to take in information returns from anybody who 
would like to voluntarily try the--doing that in the transition 
year, the work is the same for us either way.
    Mr. Lankford. Okay. So, right now, the IRS is fully 
prepared to be able to do what it needs to do? Obviously, you 
are taking in voluntary information now or you will in the 
months ahead----
    Ms. Ingram. No.
    Mr. Lankford. So----
    Ms. Ingram. I am sorry.
    Mr. Lankford. No. But I am saying the IRS was ready for it 
either way. The administration made the decision, business 
mandate, we are not going to do it this year, based on 
businesses were not ready to do that, insurance companies were 
not ready to do that, not because the IRS was not prepared?
    Ms. Ingram. That is right. But it is--it would have been 15 
months away in any case before anything was being filed.
    Mr. Lankford. Correct, because of the forms and such things 
coming out. Is the expectation from the IRS that, starting in 
2015, let's go 2016, whatever year we've got full roll-out, 
that individual businesses will have to list or report 
individuals within their company that were offered qualified 
health plans during the course of the year and what months that 
they were offered those plans?
    Ms. Ingram. If the business is of a sufficient size, yes, 
sir.
    Mr. Lankford. So if you're 50 or more, is that the size 
we're dealing with?
    Ms. Ingram. Roughly, yes.
    Mr. Lankford. So if they're 50 or more, they're going to 
have to report, starting in 2015 or 2016, whatever year that 
may be when we're in full implementation, every individual that 
was offered qualified health insurance, the months that they 
were offered that?
    Ms. Ingram. Every full-time employee, per the statute.
    Mr. Lankford. So, again, going back to the $2,000 or $3,000 
penalty, you said that business really won't know that until 
the 1040s are in for the individuals. So there is an 
expectation that the business will report what individuals are 
there, if they were offered qualified health insurance. The 
1040 from the individual will then show whether they got the 
subsidies. Those come together, and then, at some months later, 
it comes back to the business, you owe an additional amount of 
penalty because an employee of yours received a subsidy and was 
not eligible for that. Is that correct or not correct?
    Ms. Ingram. We would provide them with the results of that 
matching.
    Mr. Lankford. How long do you think that would take?
    Ms. Ingram. There are a number of different ways that we 
might do it. We haven't settled on exactly how we would do it, 
but we have heard from the business community that it would be 
helpful to them to know relatively promptly.
    Mr. Lankford. I would assume that is--that is the 
challenge, as far as business, to try and budget and plan for 
the next coming year to see how that--see how it works. If an 
individual starts receiving the subsidy, and I understand the 
subsidy is going to the insurance company, not the individual, 
I understand that; individual signs up, begins to get the 
premium supports, that goes to the insurance company to help 
provide for that, but the individual stops paying their 
portion. How long will it be before the IRS is notified that 
this individual has stopped paying their portion, whether they 
got a job and they just didn't call the insurance company, 
their new job provides insurance, or whether they just decided, 
you know what, I don't want to pay this anymore. How long will 
payments continue to move to that insurance company?
    Ms. Ingram. So the entire process for the setting of those 
credit payments and the process for what happens when somebody 
stops to pay or the insurance goes out of effect is all a 
process that goes on between HHS and the marketplaces and the 
insurance companies. The IRS is not involved in that.
    The information the IRS receives is from the marketplaces, 
which will have the record of what amounts had been paid 
appropriately, which is based on----
    Mr. Lankford. So is Treasury notified at some point to stop 
doing payments? They are notified by HHS; they're notified by 
IRS, or how are they notified?
    Ms. Ingram. They're not notified by IRS. We're not involved 
in the advance portion, but, yes----
    Mr. Lankford. All right.
    Ms. Ingram. --the information will flow--is supposed to 
flow up and down, and I refer you to HHS on the specifics.
    Mr. Lankford. Okay. Let me ask you this question as well. 
This $2,000 fee, penalty, tax, whatever you want to call it, if 
an employer does not provide healthcare at all to an employee, 
if an employer provides full healthcare, everything, except 
some of the things on the preventative services list that's 
been identified by HHS, that penalty, if I'm reading this 
correctly, is $36,500 per employee.
    So it's $2,000 if they provide nothing, but if they don't 
provide any one thing on the preventative list, but they 
provide everything else, it's $100 a day. That's $36,500. Is 
that correct or not correct?
    Ms. Ingram. I'm not entirely clear on what the second 
amount is that you're referencing.
    Mr. Lankford. Well, there's a $100-a-day penalty for not 
providing everything on the preventative services list, and 
that preventative services list is rather long for men, women 
and children; here are the things that have to be provided in 
your employer-provided healthcare.
    So there's a lot of questions out there from a lot of 
employers that if they miss one of those or if, for religious 
reasons, they choose not to provide one of those, if they don't 
provide it at 100 percent coverage, paid for by the employer, 
they're not fined $2,000; they're fined $36,500. It's $100 a 
day.
    Ms. Ingram. I'm going to have to take the question back for 
the lawyers, including the Justice Department.
    Mr. Lankford. I would very much appreciate this, because 
this same question has been asked by multiple employers in my 
district. They can't get anyone at IRS to answer the question. 
They continually ask this question, is this really $100 per 
day, per person? In fact, it's actually per person that is 
affected; it's not even per employee. So if that employee has 
children, their assumption is also $36,500 per child as well. 
No one will give them an answer from IRS on what that penalty 
is and how it stacks up. All that they get is a stall from it.
    And we've got to get some clarification, because there are 
an awful lot of businesses that are out there that do have a 
problem, whether for religious reasons or for other reasons, 
and if they miss one, that's a pretty big hit. That's no longer 
just a fee or a penalty; that's actually punitive, $36,500 per 
person.
    Ms. Ingram. What I can say, sir, from the perspective of my 
planning, that's not in my current work plan to address that 
issue. So that doesn't necessarily answer your question, and I 
will take it back.
    Mr. Lankford. We would--if we can get--any guess on timing 
when we get that, because they've asked for months for 
clarification on that? So can we get a time period when we 
might get an answer to that?
    Ms. Ingram. If it relates to matters that are in 
litigation, there are a number of places I have to stop to get 
the answer.
    Mr. Lankford. So----
    Ms. Ingram. I'm sorry.
    Mr. Lankford. So do they. Thank you.
    I yield back.
    Mr. Jordan. The gentlelady from California is recognized.
    Ms. Speier. Thank you, Mr. Chairman.
    Ms. Ingram, thank you for your incredible service to our 
country for 31 years.
    I am pretty disappointed in this hearing today, Mr. 
Chairman. We have a shut--a shutdown, we have 800,000 
furloughed Federal employees. At the IRS, 90 percent of the 
staff have been furloughed. October 15th is the deadline for 
all tax returns to finally be submitted, and we are talking 
about Ms. Ingram, not how the IRS is going to process all the 
paper that is going to be coming in in the next week. Instead 
of having a hearing on the impact the shutdown on Federal 
employees and the public, the committee majority has decided to 
re-enact the movie ``Groundhog Day'', holding yet another 
hearing to try and find political bias or wrongdoing by the 
administration; only this version of ``Groundhog Day'' isn't 
funny at all.
    The committee has decided to bully a civil servant with a 
long and distinguished career with the IRS. In fact, members of 
this committee on the other side have made their intentions 
clear, accusing Ms. Ingram of responsibility for a scandal and 
political bias they have not been able to prove.
    Let's be clear. Ms. Ingram is not a political appointee. 
She received the Distinguished Service Award from President 
George Bush in 2004. She was given the job of implementing the 
ACA precisely because she is competent and able to get the job 
done, a thankless task for sure.
    So, Ms. Ingram, let's go to your credentials. You have been 
a staff person within the IRS for 30 years. Is that correct?
    Ms. Ingram. Since late 1982.
    Ms. Speier. And in 1982, you graduated from the 
distinguished law school at Georgetown, correct?
    Ms. Ingram. Yes, ma'am.
    Ms. Speier. And you probably had the opportunity of going 
to K Street for the big bucks, but chose, rather, to support 
your country by joining the IRS. Is that correct?
    Ms. Ingram. Yes, ma'am.
    Ms. Speier. And you've served in that capacity since the 
administration of President Reagan. Is that correct?
    Ms. Ingram. Yes, ma'am
    Ms. Speier. So every administration since then, Republican 
and Democrat, you have been in service to this country at the 
Internal Revenue Service?
    Ms. Ingram. Yes, ma'am.
    Ms. Speier. It has been charged that you are responsible 
for targeting Tea Party organizations seeking tax-exempt 
status. In fact, Republican House Member Tim Griffin accused 
you of being: ``directly in charge of this targeting.'' He said 
this: ``she provided horrendous customer service under her 
watch, and now she's gonna do the same implementing 
Obamacare.''
    Ms. Ingram, I want to give you a chance to respond to that 
attack. Were you directly in charge of targeting Tea Party 
groups?
    Ms. Ingram. No, ma'am.
    Ms. Speier. Were you involved in any way, shape or form in 
targeting of Tea Party or other groups at the IRS?
    Ms. Ingram. No, ma'am.
    Ms. Speier. So where would Mr. Griffin get that kind of 
flawed information?
    Ms. Ingram. I think the fact that on paper I was left on 
the prior position confused many people, and the fact that, in 
the spring of 2012, Steve Miller asked me to sit in on a few 
meetings and listen has caused some confusion for some people, 
but I had a more than full-time job at ACA starting in December 
of 2012 and only on an occasional basis performed particular 
tasks when requested by Mr. Miller, usually having nothing to 
do with EO.
    Ms. Speier. It was December 2010, was it not?
    Ms. Ingram. I'm sorry. 2010, yes.
    Ms. Speier. All right. So, in 2004, President George Bush 
awarded you the Nation's highest, I repeat, highest civil 
service award, the Distinguished Executive Presidential Rank 
Award. Is that correct?
    Ms. Ingram. Yes, ma'am.
    Ms. Speier. And this award was for your outstanding tax law 
leadership and highly effective efforts to combat terrorism 
financing. Is that correct?
    Ms. Ingram. Yes, ma'am.
    Ms. Speier. I think we have a picture of you with President 
Bush. Can we put that up? Probably hard to see where you are, 
but I've been told that you're right under the----
    Chairman Issa. Would the gentlelady yield? Is that the 
personal meeting that she had with the President? Who are those 
people that are watching that one-on-one personal meeting?
    Ms. Speier. I didn't say it was a personal meeting.
    Chairman Issa. Oh. Okay. So----
    Ms. Speier. I said she was being awarded this Distinguished 
Service Award, the highest civil service award that you can 
receive in national service.
    Chairman Issa. Were all the other people receiving the same 
award in that picture?
    Ms. Speier. I am not sure.
    Chairman Issa. Well, the gentlelady's lawyers provided it. 
Maybe she could tell us. Were they all recipients?
    Ms. Ingram. Every year rough--somewhere, but--I believe my 
year, it was roughly 55 or 60 recipients.
    Ms. Speier. Okay, 55 or 60 recipients out of how many 
members of the Federal employment, or is this within the IRS?
    Ms. Ingram. No, not just IRS.
    Ms. Speier. So this was within the entire Federal 
employment of 800,000 people, there are 50 that are selected, 
and she was one of them. Is that correct?
    Ms. Ingram. This is an award given to a small number of 
people who are part of the Senior Executive Service. I don't 
have the exact number of the total Senior Executive Service in 
the Federal Government.
    Ms. Speier. But it is an extraordinarily large number of 
people, and you were recognized as one of a handful of people 
who has done extraordinary work.
    And while my time has expired, Mr. Chairman, I would like 
us to explore maybe in greater detail her work in combating 
terrorism financing, because we know that that is a profound, 
profound risk that we are dealing with in this country.
    I yield back.
    Mr. Jordan. Thank the gentlelady.
    We now recognize the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    Ms. Ingram, you know, in my district in Arizona, my 
constituents are becoming increasingly concerned with the 
Federal Government's overreach and their ability to keep their 
personal information secure. In fact, earlier this year, the 
Environmental Protection Agency leaked personal information of 
hundreds of cattlemen and farmers in rural Arizona to special 
interest groups, which put their financial security at risk. 
Additionally, the IRS's political targeting of individuals 
earlier this year just underscores our constituents' 
skepticism.
    Now, my question to you is, to implement the insurance 
exchanges, the IRS will have to share taxpayer information much 
more broadly than it ever has before. How do you plan to make 
this information fully protected and not misused?
    Ms. Ingram. Thank you, sir, for letting me clarify 
something that was said earlier this morning, and that is, when 
our information flows upon request of the applicant that it be 
provided, flows to the exchange or the Medicaid office, it is 
secured behind the scenes. It is not shown to anybody who is 
applying or who is assisting them or to the general employees 
in those two offices. It's a backroom data feed that is then 
mixed with other data available to the entity to come up with 
determinations that are then shared. And that is an arrangement 
that we worked out quite specifically to reduce the risk that 
unauthorized people might see the data.
    Mr. Gosar. You know, the administration has recently stated 
that the data hub is ready and finished in its security 
testing, yet there were all kinds of technical problems when 
the exchanges occurred last week. In fact, the Arizona 
Republic, the largest paper in my State, actually wrote, but 
despite years of planning, healthcare experts predicted some 
consumers may experience temporary setbacks when applying for 
coverage today through the new government-run Web site, 
healthcare.gov, and they were right. Some Arizonian residents 
discovered delays Tuesday when attempting to log on to 
healthcare.gov. The Web site made users wait to access the 
login page, siting a high volume of users on the nationwide 
exchange. Users in other States reported a similar problem.
    Given these technical struggles, why should we have 
confidence in the IRS testing?
    Ms. Ingram. I'm sorry. If I could get clarification. On the 
IRS's testing of its own system or----
    Mr. Gosar. Yes.
    Ms. Ingram. --on the security of the data that's going out?
    Mr. Gosar. Yes. Why would we trust the IRS's testing on 
their security mechanism?
    Ms. Ingram. Well, the IRS historically has a very good 
track record about our own systems. Again, I would emphasize 
that when our data goes to the marketplaces and the Medicaid 
offices, it does not interface with the Web site, which I 
believe is what you were discussing, if I was listening 
correctly.
    Mr. Gosar. Yes. So when--let me give you a follow up. When 
did the IRS finish its testings of Obamacare data hub prior to 
October 1st? When did it?
    Ms. Ingram. I have to take back the question of exactly 
when, but testing continue--various types of testing went on 
all year.
    Mr. Gosar. And that was one of the many comments--that the 
IRS has functioned very, very well in what they've been asked 
to do. Can you tell me how many inquiries they actually--you 
actually processed from the IRS's aspect to date?
    Ms. Ingram. So remember these are inquiries for data, not 
enrollments. So I would want to be very clear that those are 
two different things, but we have----
    Mr. Gosar. But they're tied to enrollment?
    Ms. Ingram. Well, they're----
    Mr. Gosar. In order to fully enroll, you have to go----
    Ms. Ingram. If you want financial assistance----
    Mr. Gosar. Yes.
    Ms. Ingram. --then you--they have to ask us if it's--if 
it's a marketplace, they must, by statute, ask us for the data. 
If it's a Medicaid office, it's optional under the statute----
    Mr. Gosar. So how----
    Ms. Ingram. --however, in total, to date, we've processed 
several hundred thousand requests.
    Mr. Gosar. Okay. From all over the country?
    Ms. Ingram. From all over the country.
    Mr. Gosar. Okay. Now, at a hearing before this committee in 
July, Alan Duncan, the assistant inspector general for the 
audit at the Treasury inspector for the tax administration said 
that TIGTA was concerned with lack of adequate testing that 
could result in significant delays, errors in accepting and 
processing ACA applications for healthcare insurance. Despite 
having 3 and a half years to prepare for these exchanges, the 
Web--for the Web site launch, was there adequate time to test 
the system, to your knowledge?
    Ms. Ingram. We're very comfortable that any of the testing 
that was about our systems or our interface with the data hub, 
we would not have turned on if we were not comfortable.
    Mr. Gosar. I'm going to end with one real quick question. 
I'm--I'm amazed at your detail. You're a very detail oriented 
person, are you not?
    Ms. Ingram. It depends on the topic, sir.
    Mr. Gosar. Well, I'm a dentist, so I'm very detail 
oriented. I'm amazed at your detail and your familiarity with 
what I saw on these email tracks. I suspect with your dialogue 
back and forth, you do know who--what's below 6103, do you not?
    Ms. Ingram. I see hundreds of emails a day for most of my 
career. I cannot remember what is in a particular one.
    Mr. Gosar. And--but your recollection in regards to the 
discussion back into this committee was very astute to 
specifics within that documentation of email. You know who's 
below 6103, do you not?
    Ms. Ingram. I do not know who's below those blocks.
    Mr. Gosar. Okay.
    Thank you very much. Mr. Chairman.
    Mr. Jordan. The gentleman from Nevada is recognized.
    Mr. Horsford. Thank you, Ms. Ingram, for appearing before 
our committee today. I understand that the IRS had a number of 
important steps that it needed to take in preparation for the 
October 1st deadline that made the healthcare.gov Web site 
operational. In addition to getting the technology ready so 
that the IRS could share the data required to determine 
eligibility for premium tax credits, the IRS also had to ensure 
that the exchange of information would protect the privacy of 
taxpayer information.
    So I want to ask, you are one of four senior executives at 
the IRS who run different parts of the implementation of the 
Affordable Care Act, and you're one of them, correct?
    Ms. Ingram. Yes. I'm one of four principal ones, but there 
are people all over the IRS.
    Mr. Horsford. And out of the four executives, one of those 
executives is responsible for getting the technology 
operational and another is responsible for ensuring that the 
taxpayer information remains protected. Is that correct?
    Ms. Ingram. Yes.
    Mr. Horsford. So Ranking Member Cummings asked the chairman 
to invite your counterparts at the IRS to attend this hearing 
today to testify as to their responsibilities, but the chairman 
declined that request. He also apparently directed them not to 
attend the hearing or even sit behind you in case questions 
came up. Nonetheless, I have questions, and I'm just going to 
forge ahead and hope that you can answer some of them.
    First, the ACA requires the IRS, HHS and other Federal 
agencies to share taxpayer information. Can you explain why 
that data sharing is necessary?
    Ms. Ingram. My understanding, but I--my understanding is 
that the reason that the IRS was put into that process of the 
enrollment process was to provide a data foundation for most 
recently filed tax returns to start the conversation at the--at 
the marketplace about what the best prediction of the following 
year's income would be, but the statute also contemplates that 
marketplaces would have--might have multiple sources of income 
data and also take into account what the individual says. All 
of--all we have--are required to do is when asked, provide the 
limited data points.
    Mr. Horsford. So given the different agencies involved, 
what measures has the IRS implemented to ensure that taxpayer 
information is protected?
    Ms. Ingram. Well, I'm going to stay very high level, and if 
there are more detailed questions, I will have to take them 
back and would be glad to provide the committee with more 
detail.
    In general, the IRS has a safeguarding program that has 
been around for decades and does--does and oversees agreements 
having nothing to do with ACA with over 300 or something State 
and Federal entities, and that program was brought as it--as 
normal to a new data sharing mandate in the statute. And in 
addition, I understand the safeguards people were involved in 
conversations with HHS and the states very early on to ensure 
that what they needed to see before they certified would be in 
place, a lot of educational stuff, helping them build stuff 
into the design of their systems, onsite visits, whatever, but 
for--there's a whole lot of stuff, and further detail, I would 
prefer to take the question back to get a fuller response or 
something.
    Mr. Horsford. On one of my other committees, the Cyber 
Security Subcommittee of Homeland Security, we've learned that 
the data hub will not actually store information but, instead, 
will essentially be a pass-through that routes information to 
authorized users. Is that correct?
    Ms. Ingram. That's right. Think of it as an envelope being 
carried by a mailman.
    Mr. Horsford. So will the applicant or the person on the 
other end of the computer screen be able to see the taxpayer's 
information, or do they just get a ruling on eligibility of 
income?
    Ms. Ingram. The agreement that we insisted on for anybody 
receiving this data was that the tax data would not be 
displayed. Exactly--and we have looked at how the Web sites at 
the recipient level are being built in order to assure 
ourselves of that. I can't answer the question of whether--
there's a variety of how the bottom line determination is 
communicated on the screen.
    Mr. Horsford. Are there----
    Ms. Ingram. It's----
    Mr. Horsford. --criminal penalties for the misuse or 
wrongful disclosure of personal tax information in regards to 
the ACA?
    Ms. Ingram. My understanding is that the tax safeguards, 
including sanctions, travel with the data, so whoever receives 
that data is subject to the same provisions.
    Mr. Horsford. So there are civil and criminal----
    Ms. Ingram. Yes.
    Mr. Horsford. --penalties for----
    Ms. Ingram. Yes.
    Mr. Horsford. --misusing.
    So, Mr. Chairman, I'll conclude by just saying that I hope 
that members on the other side will avoid reckless and, in my 
opinion, irresponsible assertions that personal information 
will be compromised under the Affordable Care Act. Just as 
current tax law requires, individual and corporations share 
this information with the IRS every day, and there are 
professionals at the IRS who handle this information with the 
care and caution that they should each and every day, and if 
they fail to do so, there are criminal and civil penalties that 
they can be held against them for any breach of that 
information.
    Chairman Issa. Would the gentleman yield?
    Mr. Horsford. No. I'd like to conclude my comment. And so 
the point I'd like to make is that it's irresponsible and 
reckless to somehow suggest that this personal information is 
going to be compromised. You all file your tax returns every 
year. It's information that these professionals handle with 
care. And we need to not raise these alarmist concerns when the 
data doesn't support the assertion.
    I yield back my time.
    Mr. Jordan. Yeah. I would just say this. We don't know that 
it will be compromised. What we do know is that someone at the 
IRS thought it already was.
    And I yield to the gentleman from North Carolina.
    Mr. McHenry. I thank the gentleman for making that 
important point. I appreciate my colleague going very far out 
on the line to pledge to the American people that their 
personal data will not be breached, and I hope the gentleman's 
right. I hope the gentleman's right, but I fear that it is not 
going to be right.
    The question with data security is a very major one for--
not just for government, but private corporations in America 
and around the globe. The question of data security is a 
complex one, obviously, and it's oftentimes not a question of 
if you'll have a data breach, but when, and the depth and the 
breadth of that data breach.
    Chairman Issa. Would the gentleman yield for just a 
question?
    Mr. McHenry. Sure.
    Chairman Issa. I thank the gentleman.
    You know, the other gentleman wouldn't--wouldn't yield, 
but, you know, I couldn't help but remember the National 
Organization for Marriage that saw their donors list released 
by the IRS, and the answer was it was inadvertent. And my 
understanding is no civil or criminal penalties occurred; 
nobody was punished for inadvertently releasing and then those 
contributors being contacted and harassed. I thank the 
gentleman for yielding.
    Mr. McHenry. Thanks.
    You know, recent media reports reveal that the health 
insurance exchanges, I mean, for--the words I get from my 
constituents about how long it takes to first log on to even 
get a Web site available so they can log on--I tried for 3 days 
to actually get to a log-on page and was unsuccessful. But once 
they get in, there--there's a concern about whether or not the 
rates and the subsidy amount are correct. Do you have concerns 
about that?
    Ms. Ingram. The IRS does not have a role in that part of 
the operation, so I'd have to refer you to HHS.
    Mr. McHenry. So, in terms of the subsidy amounts, you would 
not have any role?
    Ms. Ingram. Whether our responses when we are queried are 
correct, I have a high confidence level. I don't know exactly 
what part of the----
    Mr. McHenry. Does the IRS----
    Ms. Ingram. --is being referred to.
    Mr. McHenry. Does the IRS calculate the subsidy amount?
    Ms. Ingram. We offer a service that the marketplaces are 
not required to use to, based on anonymous inputs, do a math 
calculation as a service. That's all we do.
    Mr. McHenry. Oh, you don't--you have--so, in my State in 
North Carolina, we're under the Federal exchange because we 
chose to not create one at the State level. So the calculations 
that they're receiving, my constituents are receiving, after 
they log on and give all their personal identifying 
information, the IRS has no role in that?
    Ms. Ingram. I believe that the Federal exchange is using 
our computation service.
    Mr. McHenry. Oh, so you are involved----
    Ms. Ingram. But we are not--we get anonymous set of data 
points, provide the math and give it back. We're not part of 
either the citizen selection of how much of that they want to 
take or how that interacts with the actual premiums on the 
policy they select. So I just want to be clear about what part 
we do and what happens after we respond.
    Mr. McHenry. Okay. So--all right. So--so if you're saying 
you're not involved, it sounds like you are somewhat involved 
in this.
    Ms. Ingram. I don't under--I don't--I'm not familiar with 
what part of what you are discussing is not working, so I can't 
speak to whether our part----
    Mr. McHenry. Okay.
    Well, then--then let me just give you a few stories----
    Ms. Ingram. Okay.
    Mr. McHenry. --as a result, because I--I----
    Ms. Ingram. Okay.
    Mr. McHenry. I didn't find that--your answer in any way 
satisfying, but there--here are the stories from my 
constituents. Michael from Conover waited for hours to first 
log on, and then it took him hours to set up an account on the 
Federal exchange and, then, unfortunately, with the repairs 
over the weekend, saw it deleted, so he had to start over again 
this week.
    Mike from Hickory saw his premiums rise from $388 to $650.
    Phil from Forest City saw an increase, even though the 
policy was unchanged, saw an increase of 42 percent; Phil from 
Forest City. And he's determined that the policy may actually 
be worse than it was previously.
    Erica and her three kids saw their premiums rise from $481 
to $847.
    Matthew from Ashville saw his premiums rise 285 percent.
    Curtis from Shelby saw his premiums double from--
essentially double from $549 to $1,077.
    So, when people talk about Obamacare and all the rhetoric 
here in Washington and what we see out of the IRS and 
implementation here, I'm more concerned about the families that 
are impacted in my district. We don't--we want people to have 
access to affordable health insurance, but these rates are 
simply not affordable, and the fact that the IRS is a huge 
implementing agency does not actually give my constituents any 
great deal of reassurance about the Federal role here.
    And so, with that, I yield back.
    Chairman Issa. [Presiding.] I thank the gentleman.
    Recognize the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Under the Affordable Care Act, the Federal Government----
    Chairman Issa. Would the gentleman turn his mic on, 
perhaps?
    Mr. Davis. I think I just turned it off rather than on. 
Thank you very much.
    And let me thank our witness for being here.
    Ms. Ingram, under the Affordable Care Act, the Federal 
Government, State governments, insurers, employers and 
individuals are given shared responsibility to improve the 
availability, quality and affordability of health insurance 
coverage in the United States.
    Starting in 2015, the individual share of responsibility 
provision calls for each individual to have minimum essential 
health coverage. Individuals will report on their tax returns 
whether or not they have health insurance in 2014.
    Let me ask you this: Suppose I have employer-provided 
insurance that I have enjoyed for over 5 years. I like my 
coverage. I have no desire to change my coverage. When I file 
my taxes, will it be easy as checking a box on the form to say 
that I have employer coverage and am therefore in compliance 
with the requirement?
    Ms. Ingram. Like most Americans, you'll be able to just 
check a box.
    Mr. Davis. So, many individuals in the United States have 
health coverage today that would count as minimum essential 
coverage and will not need to do anything more than continue 
the coverage that they have. For those who do not have 
coverage, who anticipate discontinuing coverage or who want to 
explore more affordable options, the health insurance 
marketplace has opened this month for every State and the 
District of Columbia. Can you explain what qualifies as minimum 
coverage?
    Ms. Ingram. If somebody does not have employer coverage or 
does not have coverage through a government program, like the 
Veteran's Administration or Medicaid or Medicare and--I would 
suggest they do two things. I would suggest they check out the 
marketplace that they have access to, depending on where they 
live, what kind of marketplace that is, and see whether 
something there works.
    I think the other thing that is worth noting is that there 
are a series of exemptions from the individual shared 
responsibility requirement, and before somebody worries about 
paying a penalty, they ought to--I would recommend they try to 
have insurance to hedge their personal economic liabilities and 
also to check out, if they cannot do that, make sure they 
understand the exemptions. And the information that's on our 
Web and as part of our continuing education process reaching 
out to people through lots of channels, and in our work with 
HHS in their operations and materials, we want to make sure 
people understand those three pieces. If they have something 
now, they're fine. If they want to access something, here's 
some opportunities. If they meet one of the exemptions, then 
they should consider--they should still consider having 
insurance, but they should understand that. And only the very 
small number of people, according to the CBO, who need to worry 
about the penalty, they'll have what they need to meet their 
obligations on their return.
    Mr. Davis. And let me ask you. If an individual receives 
their insurance through their spouse's employer, are they 
considered to have minimum coverage?
    Ms. Ingram. Insurance is insurance no matter where you get 
it.
    Mr. Davis. Thank you very much. And----
    Mr. Cummings. Will the gentleman yield?
    Mr. Davis. Yes.
    Mr. Cummings. The--let me ask you, when you--you talk a lot 
about education and how important it is in this first stage to 
do that. Can you just tell us what role you all play with 
regard to educating?
    Ms. Ingram. Certainly. We've--we've approached the 
education path in a number of time periods. And certainly for 
2013, a great deal of the cross-Federal agency education has 
had to do with the opening of the marketplaces, but we have 
worked closely with our colleagues to make sure that any 
discussions about tax provisions and tax rules were correctly 
and accurately portrayed in their materials or their Web sites 
or their public presentations, and we have partnered with the 
Small Business Administration and HHS on a number of outreach 
events, including tax practitioner forms, Chamber of--local 
Chamber of Commerce events, and Webinars since we've been 
leveraging the Webinar format.
    As we go into 2014 and certainly as we approach the 2015 
filing season, a great deal of the education is specifically 
about tax provisions and specifically about the tax returns 
that would be filed in early 2015, and so the focus shifts over 
time about which pieces of topic and which avenues of outreach 
and the volume of educational efforts. So it evolves over time. 
I just want to be clear, there are phases.
    Chairman Issa. Okay. The gentleman's time has expired.
    We now go to the gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Thank you, Ms. Ingram, for being here today. I want to ask 
you some questions about to the healthcare exchanges, but first 
if you would indulge me for a second. We've had a lot of our 
colleagues on the other side of the aisle praising your service 
and defending your integrity at the IRS, and I--I'm not sure I 
have any reason to doubt that. I don't know you very well.
    Do you believe, just as an American--I know you've worked 
for the IRS for 31 years, you're probably proud of the 
organization that you work for and serve. Do you believe that 
Tea Party groups were indeed targeted?
    Ms. Ingram. From what I understand at this point, and I 
have not followed all of the discussions or certainly not the 
press and so forth, I am--I do not ever think it is okay to use 
people's political viewpoints in the managing of inventory in 
the tax agency. I am not familiar enough with exactly what had 
happened, but when I sat in on a meeting in the spring of 2012 
and when I skimmed the TIGTA report this past spring, I was 
upset at the way activities were described.
    Mr. DesJarlais. So you think it's appropriate, then, that 
this committee continue to pursue investigation and find out 
who is responsible, if this indeed happened?
    Ms. Ingram. I would never voice an opinion about the 
prerogatives of this committee, sir.
    Mr. DesJarlais. Okay. Well, that's probably fair. But 
nonetheless, it seems like we're under fire today for wanting 
to get answers for people for just what you said; it's never 
right for the IRS to target anyone for political reasons. 
President spoke out against it. Now it's being called a phony 
scandal. Do you think it's a phony scandal, or do you think it 
warrants further investigation, as an American?
    Ms. Ingram. Sir, I don't personally engage in the public 
debates either about investigations or----
    Mr. DesJarlais. Do you have an opinion?
    Ms. Ingram. Over my career, when there have been any 
questions or allegations about something not going right and 
particularly if there is a whiff of any kind of personal bias, 
which I have not heard, but any concerns about allegations 
about the appropriate handling of cases, I have always thought 
that TIGTA was the appropriate place for me to turn to ask them 
to look into things, and I understand that they are part of 
this process.
    Mr. DesJarlais. Okay. Well, let's talk about some of the 
problems that we're encountering with the roll-out of the 
healthcare exchanges.
    I'd like to ask unanimous consent to enter a Wall Street 
Journal article, dated September 19th, 2013, into the record, 
``Pricing Glitches Affect Rollout of Online Health Exchanges.''
    Chairman Issa. Without objection, so ordered.
    Mr. DesJarlais. This article references the fact that less 
than 2 weeks before the launch of insurance marketplaces 
created by the Federal health overhaul, the government software 
can't reliably determine how much people need to pay for their 
coverage, according to health insurance executives and people 
familiar with the program. Four people familiar with the 
development of the software that determines how much people 
would pay for subsidized coverage on federally run exchanges 
said it is still miscalculating prices. Test calculators 
initially scheduled to begin months ago only started this week 
at some insurers, and there was a statement that there's a 
blanket acknowledgement that rates are being calculated 
incorrectly. According to a senior health executive, who didn't 
want to be named, said, Our tech operations--our tech and 
operations people are very concerned about the problems they 
are seeing and the potential of them to stick around.
    So, according to the GAO, the Federal Government spent $400 
million to develop the Federal exchange data hub. After 3 and a 
half years and $400 million, why did the Web site fail so 
dramatically last week?
    Ms. Ingram. The IRS isn't part of any of those activities, 
sir. I'm sorry.
    Mr. DesJarlais. Okay. Are there any plans to provide relief 
from the individual mandate for individuals who are unable to 
access the Federal exchange and obtain minimal coverage or 
essential coverage?
    Ms. Ingram. I would posit that it's a little early to even 
have that conversation.
    Mr. DesJarlais. Well, let me ask this. Do you think that 
you could have been better prepared to implement all of this if 
you had another year?
    Ms. Ingram. The IRS? No.
    Mr. DesJarlais. Do you think everything's as good as it's 
going to get right now?
    Ms. Ingram. I think the IRS--the responsibilities that were 
assigned to the IRS, we planned, we built, we turned it on, and 
it's working.
    Mr. DesJarlais. What will you do to people who can't pay 
their portion? If you subsidize a family, say an average family 
of four that gets $5,000 and they have to pay, let's say, 
$5,000, what if they can't pay that? What are you going to do 
to them punitively?
    Ms. Ingram. What is--the only thing that is of interest to 
the IRS in administering the individual responsibility payment 
is which months that family has insurance in effect. We are--
we're not directly involved in whether the individual is behind 
on their payments to the insurance company. What we get told is 
which months are their insurance in effect, and that's the only 
question that's relevant for us.
    Mr. DesJarlais. Does that determine the penalty that they 
pay or the extra taxes that they pay?
    Ms. Ingram. That's the underlying piece of data that goes 
into that calculation.
    Mr. DesJarlais. Okay.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from New Mexico for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And thank you very, Ms.--Ms. Ingram. I'm going to focus on 
the Affordable Care Act components and some of the statements 
about implementation made by my colleagues.
    Today, every Federal employee that is furloughed or 
government program that is disrupted as a result the government 
shutdown is a casualty in my colleagues on the other side of 
the aisle's effort or their war to kill the Affordable Care Act 
and prevent millions of Americans from signing up for 
affordable healthcare insurance. And today I've listened to the 
focus really on the HHS component of the Web design and whether 
or not people can get on.
    And I'm just going to go back to a couple other issues. 
One, while I wasn't here in Congress, I'm clear that there had 
been several congressional mandates and significant, in the 
billions, appropriations to both DOD and VA. And as part of 
those investments, they're required to share information that 
would address the backlog. They're supposed to do electronic 
medical records. And they have not and, as far as I know, are 
really nowhere close to getting that resolved, but I've not 
seen this sort of effort to repeal or pull back any efforts to 
make sure that you're assisting veterans in that regard.
    As part of the stimulus package in 2009, all public and 
private healthcare providers have to adopt electronic--
electronic medical records if they're going to participate in 
Medicare and Medicaid, and that is virtually every healthcare 
provider, and they have to do that by 2014. And, in fact, if 
hospitals don't do that, as an example, they will be penalized 
in 2015.
    And I can tell you that as recent--as a new Congress Member 
having to navigate my healthcare from my district in 
Albuquerque and here, I still had to go get a hard copy, if you 
will, of an x-ray to get it here, despite these mandates and 
the incentive payments made available to these healthcare 
providers to be able to share electronic medical information 
and to provide it to me. So, like the Forbes article, I can be 
in a third world country and access my bank records, but I 
still can't get an electronic medical record or my personal 
medical records.
    The point being--one more, maybe. Medicare, the enrollment 
for Medicare Part D was a nightmare. I was running the 
Department on Aging in New Mexico, and I got hundreds of phone 
calls a week from seniors who were dismayed, who were upset, 
who couldn't figure out which plan that they had to enroll in. 
They got limited enrollment phases. It was difficult to enroll. 
They got kicked off. They picked a plan; then that plan changed 
their formulary, so the drugs that they needed were not on. 
Folks that were getting benefits from their States and their 
Medigap plans were dropped from those benefits. It was really 
awful.
    And the big complaint still is the donut hole, which is now 
being addressed in the Affordable Care Act. Point being, we 
ought to repeal Medicare Part D. Enrollment is tough, and I 
expect that this committee and others will make sure that the 
IRS and HHS get their jobs done, do it well, and that we ask 
you what we can do to assist in the best possible 
implementation and to deal with all of the glitches that have 
been identified to date and make sure that the millions of 
people who have attempted to enroll can enroll.
    And so my last, with just--because I've made a statement 
that's way too long trying to make sure that this anomaly that 
my colleagues identify with just the Affordable Care Act exists 
in almost every large reform that we have done, but I have seen 
no effort to pull back and repeal.
    Is it your understanding typically that most Americans are 
happy when they know they can get a tax credit of any kind?
    Ms. Ingram. Yes.
    Ms. Lujan Grisham. And when they're applying for those tax 
credits, that they're pretty effective at figuring them out and 
contacting you or their accountants and getting whatever help, 
or going even to AARP to make sure that they get their access 
to that credit or that subsidy?
    Ms. Ingram. We try to make sure that everybody knows what 
obligations and what benefits they may be eligible for. And we 
try to equip them and their advisors to make that process as 
easy as we can, just like the rest of the tax return, that we 
make a similar effort.
    Mr. DesJarlais. Will the gentlelady yield?
    Ms. Lujan Grisham. I will.
    Mr. DesJarlais. Do the taxpayers ever see any of that 
subsidy, or does it go directly to the insurance companies?
    Ms. Ingram. There are two ways the taxpayer can access the 
assistance. If they need help meeting their premiums on a 
month-to-month basis as they go along, then they may find the 
advance payments convenient. Those payments go to the insurance 
company, and they are billed by the insurance company only for 
the balance. If for some reason somebody thinks from whatever 
source that they can make their payments themselves, there's 
also an opportunity to--if they qualify when they file their 
return, to ask for the credit at that point. It'll depend on 
someone's personal economic decision which way they want to do 
it.
    Mr. DesJarlais. I thank the gentlelady for yielding.
    Ms. Lujan Grisham. Absolutely.
    Mr. Chairman, with your--thank you--permission, I'll just--
and I'll be brief.
    And so given that, and recognizing that the benefit will go 
towards the premium, but now my premium's reduced, and I ran 
the high-risk pool, so in the State, we were one of the only 
States, maybe the only State, that provides a low-income tax 
premium benefit to individuals with pre-existing conditions 
today who couldn't otherwise afford insurance, my experience 
was they were genuinely happy about paying less for their 
premium regardless of the effort to make that happen.
    Is that what you expect to occur by those Americans, and--
and thousands of New Mexicans, who will have access to that 
benefit under the Affordable Care Act?
    Ms. Ingram. We understand that one--that the principal 
purpose of the credit is to make it possible for people to get 
insurance who couldn't otherwise afford it.
    Ms. Lujan Grisham. Thank you.
    I yield back.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Good afternoon, Ms. Ingram.
    What is the legal authority by which a President can sua 
sponte decide to enforce or not enforce certain provisions of a 
law?
    Ms. Ingram. I'm not in the--in the group of people who 
analyze the legal underpinnings of that, but it is--I will say 
as an administrator, it is not uncommon when there are large, 
new, particularly information reporting related things.
    Mr. Gowdy. I'm actually asking for the legal basis. Can you 
site a case?
    Ms. Ingram. I'm probably the wrong person. I understand----
    Mr. Gowdy. Well, you're an attorney.
    Ms. Ingram. There has been--but I have not done the 
analysis in these cases.
    Mr. Gowdy. Well----
    Ms. Ingram. I haven't----
    Mr. Gowdy. Let's simplify the analysis. Can a President 
unilaterally increase a fine that Congress set?
    Ms. Ingram. I'm sorry. I'm confused by----
    Mr. Gowdy. It's not a----
    Ms. Ingram. --the question.
    Mr. Gowdy. It's not a trick question. Can any chief 
executive unilaterally increase a fine or a statutory maximum?
    Ms. Ingram. I don't know of any example of that.
    Mr. Gowdy. So the answer would be no.
    Ms. Ingram. I hesitate to respond for all of the agencies 
and all of the statutes on the books.
    Mr. Gowdy. Just, despite the fact that I'm a lawyer, too, 
I'm going to say, trust me. The answer to that question is no. 
You can't. You can't decide that we think the maximum for 
burglary should be life instead of 30 years, so we're going to 
sentence somebody to 40 years. You can't do that.
    Ms. Ingram. Right. I understand, sir.
    Mr. Gowdy. All right. And you would also agree a President 
cannot unilaterally suspend a mandatory minimum. If the law 
says you have to spend 5 years in prison for a 924(c) 
violation, the President can't just decide he doesn't like that 
law and suspend it. Correct?
    Ms. Ingram. Again, I----
    Mr. Gowdy. Again, it's not a trick question. It's not even 
a legal question. It's more of a civics question.
    Ms. Ingram. I'm trying to get my head around the 
parameters.
    Chairman Issa. Mr. Gowdy--Mr. Gowdy, would you let a 
layperson intersect for a moment?
    Mr. Gowdy. If the gentleman would be gracious enough to 
toll my time.
    Chairman Issa. I'll do my best.
    Mr. Gowdy. Thank you.
    Chairman Issa. As a layperson----
    Ms. Ingram. Yes. Thank you.
    Chairman Issa. --in your 31 years at the IRS, have you ever 
looked at the letter of the law on which you are executing IRS 
requirements and then seen an executive order that is 
inconsistent with that and gone with the executive order? In 
other words, do you ever consider, as a lawyer and as a 31-year 
professional, that the President can usurp IRS law or 
regulation through executive order? I didn't say, fill in the 
gaps. I said usurp, go--contravene existing law.
    Ms. Ingram. Would the chairman indulge me in taking that in 
two parts?
    Chairman Issa. That would be the gentleman from South 
Carolina's decision.
    Mr. Gowdy. My time is being tolled.
    Chairman Issa. Not anymore. I'm done.
    Mr. Gowdy. Well----
    Ms. Ingram. May--may I respond?
    Mr. Gowdy. You--you may.
    Ms. Ingram. Thank you. The executive order President part, 
I don't understand in the question, but let me put that aside.
    I will say it is not uncommon in my 31 years, particularly 
when a statute is new or particularly when the constituency is 
having logistical, operational problems meeting their 
obligation under a statute, that the IRS has given people 
either additional time, an additional year, or tried to tailor, 
on a temporary basis, what people have to do with that statute.
    Mr. Gowdy. And my question is----
    Ms. Ingram. It's not uncommon.
    Mr. Gowdy. --what is the legal basis for that? What is the 
legal basis--have you ever seen an instance when an executive 
unilaterally increased the marginal tax rate?
    Ms. Ingram. No. In--increase? No.
    Mr. Gowdy. So you will agree that there are certain 
categories where the executive can't change the law even if the 
executive may not agree with the law?
    Ms. Ingram. It's never a question of whether we agree with 
the law. The law--that's not relevant to the decision. The 
question is, particularly in the information reporting area, 
that----
    Mr. Gowdy. I'm not talking about information reporting. I'm 
talking about a statute passed by Congress. And I want the 
legal authority by which an executive can decide which portions 
of that law he or she wants to enforce and which provisions of 
that law that executive sua sponte decides not to enforce.
    Ms. Ingram. If there is any variation from the bare letter 
of the statute, it is never a single person and it is--always 
includes legal analysis by someone, not me.
    Mr. Gowdy. Well, the most recent legal analysis from the 
Department of Justice is only if a--an executive believes that 
a law is unconstitutional, i.e., DOMA, can he or she refuse to 
enforce it.
    I want to read an exchange to you back when the President 
from time to time did get difficult questions from the media, 
so let's go--we're going to go back a while, but I want to read 
an exchange where he was asked this question: People question 
your legal and constitutional authority to delay the employer 
mandate. Did you consult with your lawyer?
    And this was the President's response: If you heard me on 
stage today, what I said was I will seize any opportunity I can 
to work with Congress to strengthen the middle class, improve 
their prospects, improve their security, but where Congress is 
unwilling to act, I will take whatever administrative steps I 
can in order to do right by the American people.
    I did not hear a legal authority for suspending the law. I 
heard a political justification. Did you hear a legal authority 
in his response?
    Ms. Ingram. I don't know anything about his response, sir.
    Mr. Gowdy. Well, I just read it to you.
    Ms. Ingram. Yes.
    Mr. Gowdy. Did you hear a legal justification for 
suspending certain provisions of the law?
    Ms. Ingram. I only heard what you read. It speaks for 
itself. I can't really interpret it.
    Mr. Gowdy. Can you cite me a legal justification for 
determining which portions of a law you want to summarily turn 
off and turn on?
    Ms. Ingram. I--I'm not familiar with anything in the way 
that we administer the Tax Code where we would be changing 
things in the way that you previously mentioned, changing a tax 
rate, increasing a tax amount, reducing a tax amount.
    The situations in which I've been involved, both in ACA and 
prior to ACA over the years, have had to do with taking into 
account requests from the community who need more time or more 
logistical help in meeting their obligations under----
    Mr. Gowdy. So your testimony is there is no provision of 
the ACA, which was passed by Congress, that is not being 
implemented precisely as it was passed by Congress? Is that 
your testimony?
    Ms. Ingram. As we understand it to be passed by Congress.
    Mr. Gowdy. What does that mean, ``as we understand it''?
    Ms. Ingram. I----
    Mr. Gowdy. Have--have you failed to meet any deadlines? Has 
any portion of the ACA as passed not been implemented on the 
timetable under which it was passed?
    Chairman Issa. The gentleman's time has expired. The 
gentlelady may answer.
    Ms. Ingram. Thank you, Mr. Chairman.
    There are several provisions where at the request of the 
taxpayer community, we have taken into account their need to 
have a delayed phase-in of provisions passed by Congress. I 
would point you to the W-2 provisions, which were logistical, 
administer-ability requests from the community, and the 
information filing requirements for employers and insurers were 
based on extensive and persuasive requests from them that they 
needed more time to arrange their data and build their systems. 
The actual employer tax can't be figured out without some of 
that reporting.
    Mr. Gowdy. Mr. Chairman, I would ask unanimous consent to 
ask just one more question, because something in her response 
prompted another question.
    Chairman Issa. Without objection, so ordered.
    Mr. Gowdy. You said you had heard from the taxpayer 
community. I'm not familiar with that entity in our--in our 
tripartite branch of government. How about Congress? My 
question is, what is the role of Congress when the executive 
decides he or she wants to sua sponte not enforce a provision 
of the law heretofore passed? Not the taxpayer community. 
What's the role of Congress?
    Ms. Ingram. Congress from time to time will enact statutes, 
with due respect to this body, that the community tells us are 
difficult to administer on that exact time frame. We try to 
listen to the community. We do not always do what they ask, but 
where it's reasonable to us and we think that it's a temporary 
accommodation and does not do lasting damage to the actual 
enactment of Congress and the ongoing implementation and phase-
in of the law, we will take their views into consideration. And 
we take very seriously our obligation to listen to that 
community as part of our job.
    Mr. Gowdy. Mr. Chairman, I'm out of time.
    Chairman Issa. Yes.
    Mr. Gowdy. I just find it stunning, I literally found that 
answer stunning, and it's hard to stun me, that--that a--that 
an executive branch entity would not enforce the law because 
some constituency group decided it was hard to implement it. 
That is not the way this works. Either Congress changes it, or 
you live with the consequences of it. But can you imagine the 
community just deciding they didn't like some other provision 
of our criminal code being enforced? Can you imagine that, Mr. 
Chairman? I just found that response----
    Chairman Issa. Mr.----
    Mr. Gowdy. --stunning----
    Chairman Issa. Mr. Gowdy----
    Mr. Gowdy. --but I'm out of time.
    Chairman Issa. Mr. Gowdy, you are out of time.
    And I guess one of the problems is that unions, large 
companies are a community, and the individual taxpayers 
apparently not getting a delay when they can't even get on the 
Web site are not a community.
    With that, we go to the gentlelady from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I have great concerns about the data-sharing network that 
was created by the Department of Health and Human Services that 
just became operational a few days ago.
    Ms. Ingram, I understand that you don't run this data 
sharing network and that its head does not report to you. Is 
that correct?
    Ms. Ingram. That's right.
    Ms. Duckworth. Thank you. I wish we could have those folks 
here so we could actually ask them some questions about how 
that program is running.
    With that, I yield my time to the ranking member.
    Mr. Cummings. Thank you very much.
    You know, I was just listening to yourexchange with Mr. 
Gowdy, and I--you know, I guess I'm--I'm--I hear all the 
complaints about IRS. And I remember when I practiced law, one 
time I was audited for 5 years in a row. I mean, at one time. 
And it was----
    Chairman Issa. Will the gentleman suspend for a second?
    I ask unanimous consent that the remaining time be fully 
yielded to the gentleman. You're now recognized for the 
remaining time. She can't actually yield and then leave under 
the rules.
    Mr. Cummings. All right.
    Chairman Issa. So it's now your--your time.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And I represented a number of people, and they--when they 
got a notice of audit from the IRS or they got certain letters 
from the IRS, they base--would get very upset and very nervous. 
And I was listening to what you just said, and it sounds like 
you're talking about a situation where sometimes it can be an 
IRS that may try to work with folk, the community, as you call 
them, to show some consideration. Is that--is that what you're 
trying to say? I mean----
    Ms. Ingram. Yeah. I'm trying to distinguish between whether 
somebody likes or doesn't like a law, which is irrelevant to 
our work, but whether there are logistical, practical problems 
with people's ability to do the mechanics of what they need to 
do, and I would just like to distinguish those two points.
    Mr. Cummings. Yeah. You know, you--I guess sometimes you're 
damned if you do and damned if you don't. We've heard a lot 
about IRS, and certainly we've had some bad actors, and, you 
know--and I know that Members have applauded you for what 
you've done, but the word on the street is that you're a 
superstar. I know. You don't have to shake your head. I'm 
telling you what I heard. And that they get you to take on the 
tough assignments. Did you ask for this one?
    Ms. Ingram. No, sir, I did not.
    Mr. Cummings. The--and the reason why I mention this is 
because, you know, the more as I listen, and I say to myself, 
it sounds like the IRS has put it--I mean, the piece that you 
have, you've been able to put it together. And could you kind 
of tell us about how that came about? In other words, did you 
have timelines and were you constantly hitting those timelines 
and--you know, because there are some other problems in some 
other areas. Maybe some people need to listen to what--how the 
IRS did this. And I'm not trying to put you on the spot. I'm 
just--I mean, in my office, I constantly say two words: 
effectiveness and efficiency. I tell them we've got one life to 
live. It's a limited amount of time on this Earth. We've got a 
limited amount of time where we are. We've got to get things 
done; we've got to get them done well. So I'm just--I'm just 
curious. Can you talk about the process of getting to where 
you've gotten to?
    Ms. Ingram. I think a very basic part of our success to 
date and our confidence in our planning going forward is that 
we recognized that we needed talent from across the IRS, and we 
identified that talent. We set up a governing committee that's 
chaired by the two deputy commissioners and to which we all 
report in. And if somebody wants more detail about that, there 
are a couple of GAO reports from 2011, 2012, that go into that 
in more detail.
    But we tried to set up very early on the best governing 
mechanism and project management mechanisms that we could to 
ensure that the various phased implementation--implementation 
of the various phases of the ACA, depending on effective dates 
and when it would hit tax administration, could be well 
organized, scheduled and simultaneously worked on in parallel 
paths. And I think personally that our effort to get that 
organized well has meant everything about our collective 
ability as a team to be ready for October 1st and for our 
confidence going forward towards the 2015 filing season.
    Mr. Cummings. And just one other question. These furloughs, 
how does that affect--when you're talking the subject matter of 
these hearings, where we are with regard to IRS and your 
relationship to all this, how does this--these furloughs, if at 
all, affect the things that you're doing, you know, the 
process--well, we forgot--I mean, your shop. I'm just--I'm just 
curious.
    Ms. Ingram. Well, what we've paid attention to is the need 
to have our computer systems be operational on 10/1 and the 
minimum number of people needed to either operate them or, from 
my shop, business people in order to support that work, so 
there is a small number of people from my shop who have been on 
duty to support the operations of the IT portion.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Thank the gentleman.
    Because we can never tell how many members are going to 
come and go and we have up to 10 additional members who may ask 
between both sides, Ms. Ingram, would it be appropriate to take 
about a 5-minute break or----
    Ms. Ingram. I'm happy to. Yeah.
    Chairman Issa. Why don't we go ahead and do that just so 
that we not take you in a--because I can't tell you how much 
longer beyond the people sitting here. So we'll stand in recess 
for just a few minutes.
    [Recess.]
    Chairman Issa. The committee will come back to order.
    We will now go to the gentleman from Texas, who has been 
patiently waiting. The gentleman, Mr. Farenthold, is 
recognized.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And, Ms. Ingram, I appreciate you being here. I know that 
is not the most comfortable seat to be in, in Washington, D.C.
    I want to take a step back and take a 30,000-foot view of 
what's going on right now. Now, when people think about the 
IRS, I would imagine their primary responsibility is to collect 
taxes, the bulk of which is income tax. Is that correct?
    Ms. Ingram. That's the primary purpose, yes.
    Mr. Farenthold. And the IRS relies on people who 
voluntarily comply with the income tax. Sure we have the audits 
here and there, but the vast majority of what the IRS does is 
based on the public complying with the laws, correct?
    Ms. Ingram. Yes. That's a cornerstone of our democracy.
    Mr. Farenthold. Now, with the current scandals that--that 
are going on, it is my feeling that the American public is 
losing confidence in the government. You had the--some of the 
leaks within the IRS with respect to member lists of 
organizations. You had the whole targeting scandal. Do you 
think these mis-cues, and I'm--I'm trying to pick a benign word 
here, have a negative impact on how the Americans perceive the 
entire government and the IRS in particular?
    Ms. Ingram. Without speaking to particular examples, I am 
deeply saddened, as a veteran of the civil service, at anything 
that damages the confidence of the American people and the tax 
administration of the----
    Mr. Farenthold. And would you agree it's inappropriate for 
the IRS to share information with anybody for political 
purposes and--would you agree with that?
    Ms. Ingram. I don't think political purposes should ever be 
part of our work.
    Mr. Farenthold. And, in fact, that was one of the articles 
of impeachment against President Nixon was--that eventually led 
to his resignation was a--was a charge that he was improperly 
using that information.
    Let me go to--so I think we've got a problem here that 
needs to be addressed in a big picture way. I also want to talk 
for a second about data security. As a former computer 
consultant, I know no matter how good a job you do at securing 
your own network, once you open up a hole for somebody else to 
get in and share data with them, you can no longer really have 
control over the ultimate security there.
    So despite--assuming the IRS were perfect, in this age, I 
don't think there's such a thing as perfect in cyber security, 
but as you start sharing personally identifiable information, 
including potential medical information, with third parties, is 
there any--anything in place to where if somebody's not being 
careful with that, you can cut them off? I mean, how do you 
deal with the security from your third party folks that you're 
sharing data with?
    Ms. Ingram. I think there are a couple of pieces to keep in 
mind about the situation. One is I think we'd be glad to 
provide a more detailed briefing later on the whole data 
security at the IRS piece, and I think that could be arranged.
    Mr. Farenthold. And that's something I would like to do.
    Ms. Ingram. That's----
    Mr. Farenthold. You do agree that as more people have 
access to the information, the more difficult security gets?
    Ms. Ingram. Which is why in the arrangement of how we were 
going to share data in this instance, we insisted that the data 
not be displayed outside of the machine----
    Mr. Farenthold. Okay.
    Ms. Ingram. --to individuals looking at a screen or the 
people helping them.
    Mr. Farenthold. All right. And I want to get to something 
the ranking member said. He was talking about the government 
shutdown, and you mentioned that you furloughed quite a few 
people in yours. And my understanding is 91 percent of the IRS 
has been furloughed. Does that sound right to you?
    Ms. Ingram. I'm not an expert on the details. It sounds 
roughly right.
    Mr. Farenthold. And my understanding, again, is that the 
people who take the checks and cash them for people who will be 
filing on the last minute, October 5th, are there, but the 
people who process the refunds for the people who are owed them 
are not. Are you aware of that?
    Ms. Ingram. I'm not an expert on the criteria for which 
people stay or not, but there is a life and property----
    Mr. Farenthold. All right.
    Ms. Ingram. --aspect to that.
    Mr. Farenthold. I appreciate it.
    And I promised Mr. Gowdy, I would give him my last minute, 
because he didn't get everything, so I yield to Mr. Gowdy. And 
thank you very much.
    Mr. Gowdy. Thank the gentleman from Texas.
    Ms. Ingram, we're told from time to time on this side of 
the aisle that the Affordable Care Act is the law of the land, 
it's been affirmed by the Supreme Court, and that we ought to 
just get used to it. You may from time to time have seen some 
of my colleagues on the other side of the aisle sharing that 
sentiment with us.
    I want to read another quote to you. And this is not from 
you, so I'm not going to ask you when you said it, but the 
quote is important, I think. ``Everyone is up in arms, because 
they don't like it. They can't do anything about it. They want 
the IRS to fix the problem, so everybody is screaming at us 
right now, fix it before the election.''
    Do you know who said that?
    Ms. Ingram. I have no idea, sir.
    Mr. Gowdy. Lois Lerner said that before she invoked her 
Fifth Amendment privilege, and she said it in connection with 
Citizens United. The President's been very vocal himself in 
calling for the overturning of Citizens United. So, in 
conclusion, I guess some of our frustration is this: If the 
President doesn't like Citizens United, Lois Lerner doesn't 
like Citizens United, my colleagues on the other side of the 
aisle doesn't like Citizens United, so they can advocate for 
its repeal and its legislative remedy and not following it, and 
they're not called arsonists or terrorists or anything else, 
but those of us who may think the Affordable Care Act is 
costing people jobs or may be offended that the HHS would 
mandate people violate their religious views, somehow the 
analysis is different when we ask that it all be changed or 
repealed or not enforced. So the duplicity of that, of Citizens 
United versus the Affordable Care Act, I think is what's 
fueling some of the frustration.
    With that, I would yield back.
    Chairman Issa. And I thank the gentleman.
    We now have the gentlelady from Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair----
    Chairman Issa. I think your mike, please.
    Ms. Kelly. Thank you, Mr. Chair.
    And thank you, Ms. Ingram, for being here today.
    I would like to ask you about the allegations that have 
been lodged against you. Republican Congressman Tom Price 
accused you of systematic harassment of conservative and 
religious organizations. He also argued that your employment at 
the IRS should be suspended.
    I would like to give you an opportunity to respond to those 
comments directly, because Congressmen and women can say a lot 
of things to the press and smear your name, and never give you 
a chance to respond.
    Did you engage in systematic harassment of conservative and 
religious organizations?
    Ms. Ingram. No, ma'am.
    Ms. Kelly. Throughout your 31-plus-year career at the IRS, 
have you ever treated a taxpayer differently based on your own 
political or personal beliefs?
    Ms. Ingram. Absolutely not.
    Ms. Kelly. And I want to again talk about the timeline. I 
know we've discussed your move from the commissioner of Tax 
Exempt and Government Entities to your new position at the ACA 
in December 2010. Is that correct?
    Ms. Ingram. I'm sorry. I was distracted by the sign. If you 
could ask me again.
    Ms. Kelly. That you moved from the commissioner of Tax 
Exempt Government Entities to your new ACA position in December 
2010. Is that correct?
    Ms. Ingram. Yes, ma'am.
    Ms. Kelly. And during your transcribed interview with 
committee staff, you said that during your tenure as 
commissioner, Ms. Lerner never told you about the allegations 
related to the Tea Party cases.
    Ms. Ingram. I have no memory of hearing about them while I 
was there.
    Ms. Kelly. And you became aware of the general allegations 
in 2012 really from press releases. Is that correct?
    Ms. Ingram. I heard some things in the press, which is--you 
know, I heard that. And then, in the spring, my boss asked me 
to sit in on a couple of meetings he had called.
    Ms. Kelly. So that's Deputy IRS Commissioner Steven Miller?
    Ms. Ingram. Mr. Miller, yes.
    Ms. Kelly. Right. Asked you to attend a meeting about the 
allegations in 2012?
    Ms. Ingram. Yes. In the spring.
    Ms. Kelly. And that's when he decided to send the team to 
Cincinnati to conduct an internal review of what happened. Is 
that right?
    Ms. Ingram. Yes. That was what I was observing going on 
when I sat in on the meeting.
    Ms. Kelly. And were you on that team?
    Ms. Ingram. No, ma'am.
    Ms. Kelly. Did you conduct any internal review?
    Ms. Ingram. No. I had no role in between the few meetings I 
attended other than to help persuade Ms. Marks to participate 
in the team.
    Ms. Kelly. Okay. But when the review was completed, you 
were informed by the internal review team that some 
applications for tax-exempt status had been screened using 
inappropriate criteria and experienced delays?
    Ms. Ingram. Mr. Miller asked me to sit in on a meeting 
where they reported back, and I heard at that time that there 
were serious concerns based on their on-the-ground review about 
the delays in cases, the handling of cases, the filter criteria 
for organizing inventory.
    Ms. Kelly. Were you involved in any way in the action plan 
to address the--these problems? Were you involved in any way?
    Ms. Ingram. I sat in on a couple of meetings that Mr. 
Miller asked me to join that--at which the team presented their 
proposal of what they would recommend happen next in terms of 
analyzing and moving cases, educating staff and so forth. So I 
sat in on some of those meetings, and that was kind of my role.
    Ms. Kelly. Okay. But you weren't a part of developing or 
overseeing or implementing----
    Ms. Ingram. No. I did--I never developed nor supervised the 
execution.
    Ms. Kelly. And why do you think you weren't a part of it?
    Ms. Ingram. Because I had a more than full-time job. I know 
many people in this room work long hours, but 60 or 70 hours 
seems like a full-time job to me, and that job was ACA. And I 
was not having any of my ACA duties taken off me. So when I 
could sit in when I was requested, I tried to cooperate, but it 
was only a few times, and I didn't make a lot of the times I 
was invited.
    Ms. Kelly. Okay. And did you play any role in Lois Lerner's 
decision to reveal the IG's findings at the ABA meeting?
    Ms. Ingram. None.
    Ms. Kelly. Okay. So let me just see if I have this right. 
You were not responsible for conducting the internal review. 
You were not charged with implementing the corrective measures. 
And you had no interaction with Lois Lerner about her decision 
to discuss the allegations at the ABA meeting.
    Ms. Ingram. Correct.
    Ms. Kelly. Thank you very much.
    I yield back.
    Chairman Issa. Thank the gentlelady.
    We now go to the gentleman from North Carolina, Mr. 
Meadows.
    Could you yield me just 30 seconds?
    Mr. Meadows. I'll--I'll be glad to, Mr. Chairman.
    Chairman Issa. I just want to shake sure I follow up on Ms. 
Kelly. Let's understand this, for the first 10 months of the 
targeting of conservative groups, you were there, and it was 
your job between February and December of 2012. And then until 
May of 2013, you held the title, meaning that you had a 
responsibility even if you were doing another full-time job. 
So, for 10 months, you were Lois Lerner's boss and in 
residence; for the next 2 years, you were Lois Lerner's boss, 
but not in residence, but still, ultimately, if she--she or her 
people were doing something wrong, it was still something that 
you should have either relinquished the title or taken some 
action. And in May of 2012, when you--when you knew that, 
having regularly come up here, you never informed Congress of 
the targeting even after you described it.
    I just want to make sure that Ms. Kelly's statement that 
you were somehow not part of it be understood that for 10 
months, you--you owned it as the boss; for the next 2 years, 
you owned it by title and did not relinquish the title; and for 
a period of time after you discovered the scandal, you did not 
reveal it. And that--that just--I find that concerning.
    Mr. Cummings. Mr. Chairman, ask unanimous consent that the 
gentleman be given an additional 3 minutes and she be allowed 
to answer the allegations that you just made against her.
    Chairman Issa. These are not allegations. These are facts.
    Mr. Cummings. Well, why won't you let her answer?
    Chairman Issa. These are the dates.
    Mr. Meadows. I--I object.
    Mr. Cummings. You object to a lady defending herself?
    Chairman Issa. The gentleman----
    Mr. Cummings. I mean, you guys are sitting here----
    Chairman Issa. The gentleman----
    Mr. Cummings. --making allegations that the lady----
    Chairman Issa. The gentleman asked for a----
    Mr. Cummings. --a 31-year employee. You're making----
    Chairman Issa. The gentleman will suspend.
    Mr. Cummings. Let her answer it. That's not right.
    Chairman Issa. The gentleman will suspend. The gentleman--
--
    Mr. Cummings. I'll suspend.
    Chairman Issa. You asked for unanimous consent because of a 
statement that there had been allegations. I stated a 
chronology of facts. The chronology of facts are for 10 months, 
she was on the job during the period of this scandal. 
Additionally, for the next several years, she had the title but 
was not in residence, and she, by her own testimony, testified 
that she became aware of it; however, did not inform the 
Congress or take measures to make it public, and it became 
public through other means. That--none of that is in 
controversy nor is it an allegation.
    Mr. Cummings. But she's sitting here and she's shaking her 
head, and I just want to her to have an opportunity to say 
whatever she was thinking. I--maybe she doesn't have anything 
to say, but the whole time she's shaking her head like this, 
and I'm just trying to--I'm just trying to be fair to the 
witness. That's all I'm asking. I want the truth, the whole 
truth, and nothing but the truth, so help me God.
    Chairman Issa. I'm sure--I'm sure you want the truth if, in 
fact, it vindicates somebody who for 10 months----
    Mr. Cummings. This is not vindicating. It's about allowing 
someone--when you make allegations like that, when you make 
allegations, a person should have an opportunity to defend 
themselves. That's why I asked unanimous consent that she--that 
he be given more time and that she simply have an opportunity 
to respond. Now, if she does not want to respond, fine.
    Chairman Issa. I thank----
    Mr. Meadows. If the rank----
    Chairman Issa. --the gentleman.
    Mr. Meadows. If the rank----
    Chairman Issa. Would the gentleman please suspend. Reset it 
to 5 minutes.
    If the gentlelady would like to respond as to the 
chronology, particularly as to the first 10 months, in which 
you were on the job while conservative groups were being 
targeted, that's fine. I'd be happy to have it. I was 
responding to Ms. Kelly's essential statement that, well, you 
didn't, you didn't, you didn't, when in fact the timeline is 
different. It's not the subject of today's hearing, but if you 
have some further input, we'd certainly be glad to hear it.
    Ms. Ingram. Well, with your indulgence, Mr. Chairman, I 
just would like to put a few points on the record, one of which 
is during the 10 months that I was--more than 10 months. During 
the 2010 year, before I went to ACA, at TEGE, I had five 
discrete areas that I was responsible for and a lot of very big 
things going on, including EEO, that had nothing to do with the 
determination letter program as it relates to 501(c)(4)'s.
    I have no recollection of hearing about the incidents that 
are contained in the TIGTA report. We were very busy with some 
issues that affected tens of thousands of exempt organizations, 
such as the statutory requirement that after 3 years of non-
filing, organizations become non-qualified. That was taking a 
lot of time. We were working on the implementation of the 
charitable hospital rules that the ACA imposed on the 
charitable hospital sector. That was a great deal of work. 
There were a lot of other things going on, and I just want to 
put that in context, for 2010.
    When I was assigned to go to the ACA, in the same 
announcement, the commissioner announced an acting commissioner 
in charge in my absence, and it was made quite clear to me that 
my responsibilities laid at the ACA project. And since that was 
a more than full-time job and there were people in charge of 
operating the TEGE division, that is where I was told to 
concentrate, and I did.
    From time to time, where, because of my previous 
experience, such as in Indian tribal governments, I could be 
helpful by very briefly helping out with a particular task, I 
was asked to do that. I--it was always on top of my ACA duties. 
So if you talk about 60 or 70 hours when I had to do that, it 
was on top of that.
    In the spring of 2012, the few meetings I was asked to sit 
in on, I saw in those meetings people, including my own boss, 
who were focused on the issues that they were learning about, 
upset about what they were hearing, wanting to get to the 
bottom of it, wanting to make sure they understood what was 
going on, and I assured myself that TIGTA had become involved. 
And knowing that that team was in charge of it and driving it 
and having very clear instructions that my job was ACA, and 
knowing that TIGTA was in the mix, who I trust to get to the 
bottom of these kinds of questions or allegations of this 
nature, I continued to work on ACA.
    So although I understand that the fact that my title on 
paper was not changed for some time and despite the fact that I 
repeatedly offered to my bosses, you know, put me wherever you 
need me to be to do the work I come in every day to do as an 
impartial civil servant, the fact that the title did not 
change, I understand sometimes confuses people, but I would 
like people to understand the nature of what my 
responsibilities were and my knowledge were at those various 
periods.
    Chairman Issa. Well, I appreciate that.
    Ms. Ingram. Thank you for the opportunity.
    Chairman Issa. And I appreciate that. And hopefully, you'll 
appreciate that what you said, and I take it as completely 
accurate, 100 percent, is not inconsistent with the three 
statements I made, that you were in charge for the first 10 
months, in which this scandal was going on without your 
knowledge; that you had the title for the next 2 years; that 
you became aware of it, and, by your own statement, you felt 
that TIGTA was taking care of it, so you felt no responsibility 
to inform Congress or in any other way go public with it. I'm 
not faulting you. I'm saying you didn't know it was going on 
while this bad service was going on for the beginning of it. 
You maintained the title. That's not a disparagement of you. 
The fact that you said maybe somebody else should get the 
title, in fact probably is part of the challenge is that an 
acting should have been a confirmed, if you will, individual so 
that you would get past the question of--of somebody handling 
this. And then, of course, lastly, while many people at the IRS 
knew about this well before the election, as it was being 
asserted, it was kept private.
    Not blaming you, but as Ms. Kelly was going through her--
her series, I saw these three timelines that I thought I could 
accurately state, and I believe I did. I think you've 
accurately confirmed, through no fault of yours, that these 
were accurate timelines, and that part of what is an 
investigation of this committee is, in fact, all the various 
elements that went into people at 501(c)(4)'s, 
disproportionately conservative groups, from 2000--well, before 
2010 until today, many of them have not received an approval or 
a denial. And that's what I think some Members of Congress have 
called bad customer service. I wouldn't call it bad customer 
service. I have other terms for it. But hopefully, we've--we've 
settled that.
    Mr. Meadows, I appreciate your patience. You're recognized 
for the full 5 minutes.
    RPTS BLAZEJEWSKI
    DCMN SECKMAN
    [1:05 p.m.]
    Mr. Meadows. Thank you, Mr. Chairman.
    I do want to give you a chance, because earlier in the 
testimony, Mr. Cartwright was asking a question; you responded, 
and I think you misspoke briefly because his question was, were 
you employed during the time in that particular position while 
targeting was going on? And your answer was no, and I believe 
that we know from the timeline that was just shared that, 
indeed, you were there for at least 8 to 10 months while the 
targeting was going on, according to what has been reported 
with the TIGTA report. Is that correct?
    Ms. Ingram. May I state that I have not studied the TIGTA 
report?
    Mr. Meadows. I have.
    Ms. Ingram. I respect that.
    Mr. Meadows. I have read it probably five times.
    Ms. Ingram. I respect that, sir. So----
    Mr. Meadows. Assuming that the TIGTA report is correct and 
the targeting began in February to April of 2010, were you 
indeed employed and in direct management capacity at that 
particular time?
    Ms. Ingram. If that's the time frame that you're----
    Mr. Meadows. That's what they report, yeah.
    Ms. Ingram. Okay. Then I was----
    Mr. Meadows. Because in that report----
    Ms. Ingram. --formally and functionally the commissioner 
until December.
    Mr. Meadows. Okay. Because in that report they gave a 
chart----
    Ms. Ingram. Okay.
    Mr. Meadows. --that was not just a chart in name only. It 
actually--that's where I first learned of your name was from 
the TIGTA report.
    Ms. Ingram. Okay.
    Mr. Meadows. And so, in doing that, they put in that there 
was systemic management failures or lack of management that 
would directly implicate you, and so today you are correcting 
your testimony, you were there during that first part of 2010 
while targeting was going on?
    Ms. Ingram. If that's the period you're talking about, I 
was at TEG as commissioner, yes.
    Mr. Meadows. Okay. Were you upset that Lois Lerner prior to 
your meeting that you were brought back in with, with Mr. 
Miller, were you upset that she never told you about any of 
this targeting? Because she was right in the middle of the 
storm. You had a personal relationship, not just a professional 
relationship. Were you not upset that she didn't share any of 
this?
    Ms. Ingram. So once I was on ACA, I wouldn't have been 
necessarily a logical person for her to turn to. I wish I had 
been.
    Mr. Meadows. But it happened under your watch. So you 
wouldn't be upset with her that she didn't share it with you?
    Ms. Ingram. If I may finish, sir. I wish I had known 
information during 2010 that I could have helped deal with that 
in a better way, but I don't recall ever knowing about the kind 
of stuff that I understand the TIGTA report covers, and after I 
went to ACA I would not have been the right person.
    Mr. Meadows. So what did you know? You say the kind of 
stuff. So what did you know during that period of time? Those 
are carefully chosen words.
    Ms. Ingram. No, sir, I'm sorry, they weren't particularly 
carefully chosen. I apologize. I was aware that there was a lot 
of noise out in the public about the Citizens United case. I 
was aware that there were a lot of other critical EO projects 
that affected lots and lots of EO's and some of which had 
mandatory implementation dates from the legislation, and I know 
that traditionally the kinds of cases in which questions would 
arise about political activity or campaign intervention had 
come up in the (c)(3) area and had come up in the exam stream 
and the process for selecting cases for exam based on letters 
that members of the public write to us all the time suggesting 
that we look at their opponents.
    Mr. Meadows. So let me ask you this: If you were called to 
testify back then, would you have given the same statement that 
you have today with regards to the implementation of ACA that 
everything is good, it's copacetic, everything is going along 
the way it should? Because obviously, I guess you were under 
that belief then. So could you be wrong today, as you were 
wrong in assuming that everything was going well under your 
previous management?
    Ms. Ingram. The oversight of the division involves a 
different management process and set of reporting up and 
division of labor than a project management office does. In a 
project management office----
    Mr. Meadows. So you are definitely sure you are right 
today, and that's because your role has changed?
    Ms. Ingram. Because in a project management office, my role 
is very hands on because of the structure and nature of the 
project.
    Mr. Meadows. Okay.
    Ms. Ingram. I have more personal knowledge.
    Mr. Meadows. All right. Well, let me ask you then, with 
Obamacare and the data hubs, I know a lot of that is HHS, are 
you involved in the nature of their testing from a security 
standpoint on going back and forth? Is the IRS involved in 
that, or is it all on the HHS side of things?
    Ms. Ingram. My understanding is that our testing with them 
is as to their connection, the handshake between their machine 
and our machine to make sure that the handshake works. We are 
not involved in the testing they do with others.
    Mr. Meadows. I am out of time. I yield back.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the ranking member as well. I just have one 
matter that I want to just address. A number of speakers ago, 
one of the gentlemen from the other side suggested that it was 
comparable, what the Republicans were doing in attacking the 
Affordable Care Act, to the President's opposition and 
Democratic opposition to the Citizens United decision. And it 
is true that the President and many Democrats, including 
myself, have called for the repeal or the overturning of the 
Citizens United decision.
    However, importantly I think, it is important to say that 
neither the President nor I have shut down the government in 
pursuit of our goals. And neither the government--neither the 
President nor Democrats in Congress have suggested that we 
default on the national debt in pursuit of our goals, and I 
think that is an important distinction that has to be made.
    Ms. Ingram, thank you very much for your willingness to 
come before this committee and help us with our work, and I 
appreciate your patience. I do have some questions regarding 
the role of the IRS's privacy governmental liaison and 
disclosure office and your role in implementing the ACA. 
Ranking Member Cummings earlier requested that a representative 
from this office appear as a witness today. However, that has 
not happened. The chairman refused that request, and so I'll 
direct these questions to you.
    According to the IRS organizational chart that I'm reading, 
the Office of Safeguards has the responsibility for monitoring 
nearly 300 Federal and State agencies that currently are 
permitted to receive taxpayer data to ensure that they are 
complying with privacy laws. Under the Affordable Care Act, the 
IRS, HHS, State and Federal exchanges, and other Federal 
agencies will share taxpayer information in order to determine 
an individual's eligibility for the premium tax credits.
    Ms. Ingram, is the sharing of Federal taxpayer information 
with State and Federal agencies a new task for the Office of 
Safeguards?
    Ms. Ingram. Well, for a more complete answer, we can 
provide that through that office, but we have decades of 
experience with the sharing of tax data under the long list of 
exceptions to 6103 that Congress has from time to time added to 
that section. This is a new one, and we've taken the same kind 
of care, if not more, in making sure that the safeguards are in 
place and that our oversight is launched.
    Mr. Lynch. Very good. So it sounds like this office has a 
longstanding experience in overseeing the transmission of 
taxpayer data?
    Ms. Ingram. Yes, sir.
    Mr. Lynch. Okay. And what kind of policies and procedures 
must State and Federal agencies have in place in order to 
receive taxpayer information? Could you describe that?
    Ms. Ingram. So I'm going to give you a high level answer 
because I am not an expert on the details of it. For example, 
the oversight board document, those pages were prepared by the 
Disclosure Office, but in general, there are very detailed--
it's a very detailed publication, pub 1075, that sits on our 
Web site. There's an extensive multi-page template that is the 
foundation for the safeguards procedures report, there are also 
a number of other kinds of data sharing agreements under 
various statutes. Those have all been implemented with the 
appropriate entity, whether that entity, as I said in my 
testimony, is HHS or whether the entity is the ultimate 
recipient of the data.
    Mr. Lynch. Okay. Now, these Federal agencies and State 
agencies, do they have to get a, go through a certification 
process in order to receive this information?
    Ms. Ingram. Yes. We do not release any data to anybody that 
we are not comfortable that they have sufficient safeguards in 
place following all the detailed procedures in those 
requirements.
    Mr. Lynch. Okay, and were the State and Federal exchanges 
certified pursuant to this process prior to October 1st?
    Ms. Ingram. Yes, the data hub, the federally facilitated 
exchange, the individual exchanges at the State level, and 
several of the Medicaid offices had also asked to be certified 
by October 1st.
    Mr. Lynch. Okay. Well, my time is short. I do want to thank 
you for your service, and I appreciate you coming to this 
committee and helping us. Thank you.
    I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Michigan for 5 minutes, Mr. 
Bentivolio.
    Mr. Bentivolio. Mr. Chairman, thank you for holding this 
important hearing today.
    Since I came to Congress, I have heard from every sector of 
the economy, and they all tell me the same thing: Obamacare is 
making it difficult to create more jobs and making it more 
costly to buy insurance. From the city manager of Plymouth, 
Michigan, who told my staff that he's unsure if the city parks 
can be maintained because it might put the city over 50 
employees to nearly every single business owner who comes into 
my office worried about the insurance they currently provide 
their employees skyrocketing in price. Obamacare is hurting a 
lot more people than appear to be helped by it.
    At this time, Mr. Chairman, I would like to enter for the 
record, if I may, today's Washington Post, a particular 
article, ``Many Foresaw Health Site Jam.''
    Chairman Issa. Without objection, so ordered.
    Mr. Bentivolio. Thank you. It says basically two allies of 
the administration, both of whom spoke on the condition of 
being anonymous because of the controversy surrounding the 
rollout, said they approached White House officials this year 
to raise concerns that the Federal exchange was not ready to 
launch. In both cases, Obama officials assured them there was 
no cause for alarm.
    Outside the White House, people familiar with the setup 
efforts had been warning of chaos in the days and months 
leading up to October 1st.
    On September 18th, Louisiana's Health and Hospitals 
Secretary Kathy, if I get this right, Kliebert, testified 
before Mr. Lankford's subcommittee that the administration was 
giving confusing information and making last minute changes 
that left the States scrambling.
    John Engates, chief technology officer at service provider 
RackSpace, said the government should have been able to prepare 
for the type of traffic that the site has experienced. I think 
that any modern Web company would be well prepared for a launch 
of this scale, said Engrates. We're not talking about hundreds 
of millions of people and we're not talking about complex 
transactions; this isn't downloading full movies off of 
NetFlix. The question I have is, did they have enough time to 
prepare, and did the people doing the work know what they were 
doing, end of quote in the newspaper.
    My question today, your testimony today, Ms. Ingram, sounds 
like testimony this committee heard earlier this year from CMS 
Administrator Marilyn Tavenner and Director of the Center for 
Consumer Information and Insurance Oversight Gary Cohen that 
everything was fine and that the administration would be 
prepared for October 1st. We now know that the administration 
was not prepared for October 1st. How can we know that the IRS 
is adequately prepared and that there was enough time for IRS 
to conduct the checks and make sure the safeguards were in 
place to protect all the sensitive information flowing through 
Obamacare data hub?
    Ms. Ingram. So I think one piece of that question, if I 
understood it correctly, sir, could be answered by the fact 
that our systems have come up on time and operated as planned 
and are turning transactions around when they reach our door as 
the IRS.
    The other part of the question, having to do with ensuring 
that data safeguards are adequately in place and that we have 
reassured ourselves as to that point, we would be glad to 
arrange a separate briefing to take you through more detail of 
what that team did, but that team started, as I understand it, 
very early on in implementation working with States and the HHS 
about what would be required, how the design of their systems 
could take the safeguards into account, and again on limiting 
where that data can go and how it has to be walled off and 
protected. I am not an expert on all the pieces that they did, 
but we would be glad to provide a separate briefing if that 
would be of help.
    Mr. Bentivolio. Okay. Recently it was reported that the 
Minnesota exchange accidentally released the names, addresses, 
and Social Security numbers of over 2,400 brokers. Exchanges 
will store significant amount of sensitive data, including 
income and employment information. If it comes to IRS's 
attention that an exchange improperly handles sensitive data, 
data like Minnesota has done, what steps will the IRS take to 
ensure sensitive taxpayer data is protected?
    Ms. Ingram. Two pieces. One that because it's restricted 
from view to so many people that might raise your concern, we 
think we have greatly reduced the likelihood, but if it comes 
to our attention, we actually can turn the switch off on the 
computer within minutes to cut off a feed to a particular 
recipient if we have reason to think that that recipient 
doesn't merit the approvals they received previously.
    Mr. Bentivolio. Thank you.
    I think my time has expired. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from the District of Columbia 
who I was with earlier working on the issues of reopening the 
District of Columbia, and I want to personally thank her for 
her efforts.
    Ms. Norton. Well, Mr. Chairman, you have stolen my thanks, 
because I wanted to thank you for coming to the swamp site, 
taking a respite from the hearing, which you, of course, are 
obligated to chair and considering that the District of 
Columbia's local budget, which is fast--where we are fast 
running out of contingency funds, was important enough to leave 
a hearing that I know you have shaped, and I very much 
appreciate that you did.
    I want to--and of course, the chairman, as he spoke and had 
to leave, so I didn't get a chance to thank him in the manner 
to which he deserves, was quick to tell me that the hearing is 
going on, and I realized I was AWOL.
    I did want to attend this hearing because the gentleman's 
question about being adequately prepared is--goes to my 
question.
    Ms. Ingram, you are a senior civil servant of considerable 
intelligence and long experience. If anything, I have great 
fears that we will lose people like you as civil servants are 
going through the issues that now confront all of you.
    Now, here is a new function. I imagine that you were given 
this function because of that long record, because of your 
great ability. We have a major change in the Tax Code, in the 
tax laws of the United States. In your experience, have you 
ever seen a change as major as the change that you now 
confront, where you have everything from your regulations to 
your IT infrastructure, new tax forms--that is not unusual--to 
come forward with?
    Ms. Ingram. I think people debate whether this or the Tax 
Act of 1986 or the 1974 passage of the Employee Retirement 
Income Security Act, how those would all stack up. I will say 
that this is certainly one of the largest pieces of legislative 
implementation that the IRS has tackled in recent years, but we 
are confident that we have it organized and we're on track.
    Ms. Norton. Now, with respect to those other two large tax 
overhauls that you mentioned, were you given increase in 
funding beyond your normal funding in order to handle the new 
workload in those two instances?
    Ms. Ingram. I will confess I was not employed in 1974, so I 
don't know what was done then, and in 1986, I was not in a 
position to know that, so I'm not----
    Ms. Norton. Well, let me know that. I have information that 
between 2010 and 2012, the budget of the IRS was cut by 3 
percent. Now, that is one thing you would wonder, if you have a 
major new function on the order of the two you discussed, why 
cuts would be in order rather than some increase, particularly 
given concerns, I think quite legitimate concerns that have 
been raised here about privacy, not to mention difficulty.
    Let me ask you, then--well, first, let me tell you, I 
happen to be sitting in the financial services appropriation--
no, in the Appropriations Committee when the financial services 
appropriation went through, and I was just stunned because the 
Appropriations Committee passed a 24 percent reduction in the 
IRS budget for 2014. I need to know, particularly in light of 
concerns, privacy and other concerns that have been raised 
here, whether you will be able to meet your benchmarks, the 
internal ones that you say have thus far been met, and to 
afford the protections with a quarter of your budget being cut 
at a moment when you're seeing--we're seeing one of the most 
major increases in responsibility ever given the IRS?
    Ms. Ingram. Well, I would like to leave the budget 
discussions to Acting Commissioner Werfel and his budget team, 
so I am a little hesitant to opine on the elements that 
Congresswoman----
    Ms. Norton. But I am not asking about the elements. I am 
just asking whether or not here--I am speaking as a layman. Can 
an agency which is given a major new responsibility simply move 
forward, absorb that major responsibility, change the 
infrastructure, issue new guidance, acquaint all the employees 
with new IT and regulations? Is that a fair, is that a fair or 
reasonable mandate to give an agency of the United States 
Government?
    Ms. Ingram. Our agency has a great deal on its hands, 
including the legislative implementation that we are required 
to do. Tough budgets require tough choices, and folks beyond me 
will be involved in those, that choice making, depending on 
what budget is available at any given time.
    Ms. Norton. You can be assured of this, Ms. Ingram, that 
your effectiveness in carrying out the ACA and your other 
responsibilities under the Internal Revenue Code will be 
scrutinized by this committee and others, and if it does not--
notwithstanding whatever the cut is, if you do not meet up to 
those, none of the blame will be laid here in the Congress of 
the United States, which instead of increasing your budget to 
accommodate changes, it has mandated has reduced your budget, 
making it very difficult, assuming the budget gets out at all, 
for you to meet the very demands we are making on the agency, 
and I thank you very much, Mr. Chairman.
    Chairman Issa. I thank the gentlelady, and the gentlelady 
makes a very good point, which is that if you manage to live 
with 24 percent less, we won't call you. If it doesn't work 
out, undoubtedly, somebody will be in front of many committees.
    We now go to the gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thanks for having this hearing, I'm sure this is going to 
be a subject that is going to have a recurring importance, 
given the huge expansion of the authority of the IRS under the 
so-called Affordable Care Act. I heard some of the colleagues 
on the other side of the aisle almost just mocking the hearing, 
and it really struck me because it is almost as if somehow we 
are just not supposed to talk about Obamacare anymore, and I 
think as we have seen it become implemented, the more and more 
apparent it has been that the promises that were made to 
justify the law's passage are essentially null and void. They 
were essentially false pretenses.
    I mean, for example, the President said the only change for 
people with insurance is that you will pay less, and that 
estimate was $2,500 per family. That Americans are finding out 
is totally not going to be the case.
    If you like your plan, we were told you can keep your plan, 
but yet we see stories of spouses losing their coverage, 
employees losing their employer-based coverage, getting put on 
the exchanges. And then we said if you like your doctor, you 
get to keep your doctor, but if you lose your current plan, you 
end up on the exchanges, you may not have access to the same 
doctor that you did before, and so the issue is not going to go 
away, given that what was promised is not being delivered.
    I think it is also just interesting to compare the passage 
of the health care law with some other major pieces of 
legislation. I just looked this up, it is amazing. Social 
Security got 96 percent of Democrats in the House, 81 percent 
of Republicans. Eisenhower's Interstate Highway System got 93 
percent of Democrats in the House, 98 percent of Republicans. 
Civil Rights Act 1964, 61 percent of Democrats in the House and 
80 percent of Republicans in the House. Reaganomics, 1981, 78 
percent of Democrats in the Senate supported that and 98 
percent of Republicans. And even welfare reform in 1996, broad 
bipartisan agreement. You didn't have any bipartisan agreement 
here, and so I think that that also contributes to the 
controversy.
    I keep hearing that this is the law of the land as if it is 
somehow sacrosanct, that you can't actually advance legislative 
changes to it, and that just--we have the authority to do that. 
Of course, we are able to suggest changes, delays, repeals, 
whatever is in our Article I authority, but the thing about 
this notion that somehow it is the law, full stop, you can't 
even talk about it is, if this is such a sacred piece of 
legislation, then why isn't the President implementing it as 
written? I mean, we have talked today about the delay in the 
employer mandate, which was supposed to start in January with 
no statutory basis for the delay. We know there was a delay on 
the cap on out-of-pocket costs, which were supposed to take 
effect this year. We know subsidies were granted to Members of 
Congress without having a statutory basis. Income verification 
requirements for exchange subsidies suspended. And then the use 
of subsidies on these Federal-based exchanges, and that is what 
I want to talk about now, just in terms of whether this 
implementation is being done with the law.
    The law, under the Affordable Care Act, says, Section 1401, 
subsidies can go to an individual, quote, enrolled in through 
an exchange established by the State, under Section 1311 of the 
Patient Protection and Affordable Care Act. And of course, we 
have seen most States have rejected creating exchanges, as the 
law contemplated, and so then the IRS has had to determine, 
well, what about these Federal exchanges. And I don't see any 
statutory basis for those subsidies to flow to Federal 
exchanges.
    Nevertheless, on May 23, 2012, the IRS finalized a 
regulation which actually allows subsidies to flow to Federal 
exchanges, even though there is no provision in the law to 
allow that.
    So my question for you is, just were you consulted when 
they were devising this rule about whether the IRS should issue 
guidance allowing subsidies to flow to people who were enrolled 
in federally run exchanges instead of exchanges instituted 
under Section 1311?
    Ms. Ingram. I was in--I was present for a number of 
different topics that were covered by that reg. For that 
particular topic, I was not particularly involved. I was 
probably in a briefing or two where other people discussed it, 
but it wasn't my decision.
    Mr. DeSantis. So they weren't asking you your thoughts 
about whether you thought that these subsidies should flow to 
people in federally run exchanges?
    Ms. Ingram. I am about administrability, not about the 
legal policy calls.
    Mr. DeSantis. Now, were you, prior to this regulation being 
instituted, were you guys going forward with your 
implementation assuming that the subsidies would be available 
for the States that declined to create a State exchange?
    Ms. Ingram. The proposed regs included the same position, 
and there were many comments that were filed, as is always the 
case after proposed regs. It is part of my job to keep track of 
what is in the proposed reg stage, ask about whether, what is 
coming in, in comments and the likelihood that something would 
change so that we don't go too far in implementation steps if 
something is going to change and we would have to change our 
work. That is my role.
    Mr. DeSantis. So the answer to that is, yes, you guys had 
assumed that there would be Federal subsidies for federally run 
exchanges?
    Ms. Ingram. I kept track of the likelihood that the 
position in the proposed reg would change so I could adjust, if 
necessary, the administrative work.
    Mr. DeSantis. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Chairman Issa. I thank the gentleman. I think the gentleman 
brings up a good point since CBO never scored that subsidy.
    At this point we have concluded our first round. I am going 
to ask the gentleman from Maryland, the ranking member, to 
close, and then I will close.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Ingram, I want to take a moment to thank you again for 
being here. But I want to thank you for something else. I want 
to thank you for having a can-do attitude, and I really mean 
that. You know, I am the son of two former sharecroppers with 
only a second grade education each. One of the things my father 
used to say to us as kids, and they educated all seven of their 
kids on a domestic's salary and a laborer, and their attitude 
was always there is no such word as can't. I thank you for, 
first of all, believing that you can get something done, get it 
done well, and then doing it, and I do believe that you are an 
exemplar of so many of our Federal employees. Many of them are 
sitting home right now, wherever they may be, possibly watching 
this or they will watch it later on, and they, too, have those 
can-do attitudes.
    And, you know, we hear a lot about the Affordable Care Act, 
and clearly, there are things that should be done to make it 
better. I think they tell me when Medicare started, they had a 
lot of problems and issues, but I think what you have shown is 
that the piece that was, you know, that you had to deal with, 
obviously good planning, targeted dates, I guess, some kind of 
timetable, making sure the tasks were done, and always saying I 
am going to reach that goal, I am going to get there. And so I 
thank you, I really do for--you know, I was--you shook your 
head a little earlier when I said, ``The word on the street was 
that you're a superstar,'' but that is what I have heard. You 
don't have to shake your head again.
    But it is the people like you and the people that sit 
behind you that give so much, they give so much because you 
realize it is so much bigger than you. And I look at the people 
who come to work for us. Most of these folks could be doing 
something else, but they come--I am talking about Republican 
and Democrat. They come to work every day, they believe in what 
they are doing. And they give everything they have got. And so 
I know you said that you feel comfortable. You are on target, 
and I would just ask you to maintain that, and I am saying this 
for a reason, because I want people to know that they are 
appreciated; they really are. They are appreciated for what 
they do because they are touching millions upon millions of 
Americans, and a lot of times I am sure they sit at their desks 
and say, you know, ``What am I doing this for? Why have I got 
to go through this? The problems keep coming and whatever.'' 
But I do believe that deep in their hearts people like you, for 
31 years, this apparently must feed your soul. It must.
    And I think that when people have a passion for something, 
that is where their strength is, and if we as the public are 
beneficiaries of your passion and of your purpose to make this 
society a better society, and I am convinced that once we work 
out the kinks in Obamacare, that we will have something that 
will benefit society long after we are dead. That, to me--I 
mean, I can't think of too much more, when you think about, you 
know, looking back at your life and if someone were to write a 
book, and for you to be able to say, ``Well, I did my part, I 
did it well,'' and I am not just talking about you, but I am 
talking about all the team that are making it happen for IRS 
and Obamacare, if they want to call it that, I want to thank 
you.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    Quick announcement: I spoke to Acting Commissioner Werfel, 
and he was not able to get us the documents that we presented 
to you. Additionally, obviously, he--well, not obviously, but 
he stated that in fact, he wouldn't be able to determine 
whether you were correct or not correct about that being 6103 
documentation. So I will work out with the committee and the 
commissioner how we can go through and get properly redacted 
material going forward, how we can get the discovery we did 
not. And we will try to resolve some of those questions, 
hopefully without having you back, even though I desperately 
would like to know the details underneath these communications 
and others. And from our oversight, it appears as though there 
are hundreds, if not thousands, of documents that have been 
claimed to be 6103 that are not. Again, you are not in the 
redaction business, neither is the commissioner directly, so we 
will work that out with him.
    I am going to go through just a couple of short things. You 
talked about the community. Under the Affordable Care Act, 
there is a 1 percent tax, going to 2.5 percent, if somebody 
doesn't buy insurance, and as the President has said, you know, 
and many have said, that has been held, that law has been to 
the Supreme Court. But let me just run through the numbers for 
a moment and ask you with your experience of working with the 
community if this makes sense. Warren Buffet makes a couple of 
billion dollars in a bad year, so under the Affordable Care 
Act, as a single individual, his penalty would be in the 
millions if he did not buy insurance, and yet the required cap 
for insurance would be less than that. Do you find it 
interesting that there is no provision of the Affordable Care 
Act for somebody to self-insure or to in some other way meet 
the financial responsibility, and therefore they are being 
mandated to buy a profit-oriented insurance package, in many 
cases?
    Ms. Ingram. Well, I want to--if I could speak first to the 
comment about Mr. Buffett, the actual calculation of the tax is 
capped at what it would cost to go get insurance. So it 
wouldn't be just simply a multiple of his income. But, I am 
sorry, I was--I apologize, I was distracted.
    Chairman Issa. Would that be the minimum plan? Because 
right now, they set a minimum in the law, but there is no 
maximum dollar set. So is that the high deductible, $4200, 
$5,000, $10,000?
    Ms. Ingram. I am not going to have the exact, which premium 
it is, but it is capped at the cost it would otherwise take 
someone to go get insurance, and there is a definitional thing 
in there. I can give you a more precise answer----
    Chairman Issa. Okay. So if Mr. Buffett would have a $10,000 
plan----
    Ms. Ingram. Let's say.
    Chairman Issa. That would be the minimum he could have, and 
he would be penalized $10,000, taken from him, but he would get 
no health care. Is that right?
    Ms. Ingram. That would be his economic choice at that 
point.
    Chairman Issa. So he cannot insure and pay the same amount 
as for insuring under the law?
    Ms. Ingram. I think there is a more sophisticated answer to 
that, so I would like to be able to respond more fully in----
    Chairman Issa. Yeah, no, please respond in writing, because 
from what we read is, if you pay the fine--if you self-insure, 
you will be charged the amount of having insured, you will have 
no coverage, but you, in fact, can self-insured. So you can pay 
all of your own charges, not be covered, and yet pay the same 
amount as if you were covered. I just--I find that sort of an 
interesting one.
    Let me switch to another part. In most of your 31 years of 
Federal service, I presume, and I am not trying to be overly 
personal, but I think it is for 2.1 million workers and 8 
million covered, we are in FEHBP. Are you?
    Ms. Ingram. Yes, I am.
    Chairman Issa. So you are familiar with the 300 or so 
choices available and certainly the 11-plus that are available 
to you in any of the communities around the District of 
Columbia? You are in an FEHBP plan?
    Ms. Ingram. I am.
    Chairman Issa. But you have looked at the array of ones 
available?
    Ms. Ingram. I am in a plan for that program, yes.
    Chairman Issa. And does it meet the minimums under the 
Affordable Care Act requirement for insurance?
    Ms. Ingram. My understanding is that it does.
    Chairman Issa. And employees of the House and Senate, 
including employees of this committee, are in that plan also. 
Is there any reason, any logical reason that they should be 
thrown out of that plan, other than it was mandated in the law?
    Ms. Ingram. I haven't been involved in any of the 
discussions about what should or should not be done about the 
coverage of folks on the Hill----
    Chairman Issa. Okay.
    Ms. Ingram. --and I would defer to those people.
    Chairman Issa. Okay. Yeah, no, there are really stupid 
things done by the Members of the House and Senate to the 
employees who work for us, probably are something for you to 
stay out of as long as you get to stay in FEHBP.
    The next question is one that does fall to you. If Congress 
tomorrow declared that FEHBP was a Federal exchange, would 
there be any inconsistency with Federal exchanges, small 
business Federal exchanges, such as the D.C. exchange?
    Ms. Ingram. I am not sure what the inconsistency question 
is. Your question immediately started my brain working on the 
logistics and the wiring, so I am sorry that's where my brain 
went.
    Chairman Issa. Right, but currently, FEHBP covers over 8 
million people. It covers COBRA for people who have left the 
Federal workforce. It covers the vast majority of retired 
Federal employees. And it covers virtually every current 
Federal employee and their families. So you have a plan that 
has over 300 options, you yourself in the District area get 
dozens and dozens of choices, HMOs, PPOs, conventional. You 
have a non-age-discrimination single price point that you can 
shop online prior to making your decision. Does it look like an 
exchange to you when you go into it or like an exchange you 
would like to have look?
    Ms. Ingram. I am sorry, my particular enrollment has rolled 
over consistently for so many years, I don't know what the 
experience is at the moment for new enrollees, so I can't 
really respond to the extent to which the policymakers or this 
Congress wishes to look across those fact patterns and equate 
them.
    Chairman Issa. Well, let's just go through. You have been 
studying the Affordable Care Act and its implementation and the 
exchanges, so you're familiar with what we are offering.
    Ms. Ingram. Yes.
    Chairman Issa. It doesn't surprise you that Mr. Cummings or 
I can go online during open enrollment, and we can look through 
policy after policy, find out how much it costs and choose.
    Ms. Ingram. Okay.
    Chairman Issa. It doesn't surprise you that there is no age 
discrimination, that 31 years into your career you pay the same 
amount as somebody who is starting tomorrow, that it is a flat 
fee within FEHBP?
    Ms. Ingram. I will take your word for it, sir. I am not an 
expert in FEHBP.
    Chairman Issa. Well, I am a little surprised, 3 years 
working the Affordable Care Act. Let's continue.
    Doesn't it surprise you, though, that FEHBP, you are able 
to move from plan to plan and any preexisting condition is not 
a problem, right?
    Ms. Ingram. That is my understanding.
    Chairman Issa. And I am taking you through this.
    Ms. Ingram. I am not sure, though.
    Chairman Issa. It is true.
    Ms. Ingram. Okay.
    Chairman Issa. Take Trey Gowdy and my word for these 
things.
    Ms. Ingram. Okay.
    Chairman Issa. So it is portable, as long as you are within 
the Federal workforce. There is no age discrimination. It 
doesn't care about preexisting conditions. And you have huge 
amount of different choices, HMOs, PPOs, and conventional. And 
you can be covered by 96 percent of all doctors in America and 
in all 50 States.
    In your opinion, if all that be true, is there any reason 
that the health care plan that you have, that I have, that the 
President and Vice President and every member of the Cabinet 
are eligible for shouldn't be made available to the American 
people?
    Ms. Ingram. That is a policy choice that I leave to people 
in policy positions.
    Chairman Issa. If you were not in the Federal workforce, 
would you like access to the program you are in now, or would 
you like to go to an exchange?
    Ms. Ingram. I would want to understand the, my options at 
the exchange at a personal level, depending on where I lived.
    Chairman Issa. But is there any exchange that has as many 
choices as FEHBP or even close?
    Ms. Ingram. I am not familiar with the array of choices in 
the various exchanges. That is HHS. I am not sure what question 
you are asking me, sir.
    Chairman Issa. I am just asking you for the common sense of 
since FEHBP doesn't have age discrimination, meets all the 
requirements that were anticipated in the Affordable Care Act, 
why the President and Members of Congress in the House and 
Senate never opened up the plan they were in. In fact, the 
President has more choices than any exchange in America, so 
people being forced into the exchanges, Federal exchanges, 
including my staff and Mr. Cummings' staff, will be given less 
choice than FEHBP.
    I would hope you would be able to answer that. But let me 
just review one thing that I heard here today because I think 
it is important. The IRS is ready. They met their deadlines. 
They were timely, and in fact, there are no known flaws in the 
IRS's performance as of today.
    Ms. Ingram. True.
    Chairman Issa. So we need to get Secretary Sebelius in here 
because basically HHS has screwed this whole thing up. The 
delays, the inability to get on, all of that comes out of HHS. 
It is not your end of the business.
    Ms. Ingram. That is not the part that we have been working 
on, no.
    Chairman Issa. Okay. Does it surprise you that if you go 
online, you deliver your Social Security number, as you are 
required to do, in order to get a calculation and look at 
plans, and then you decide not to accept any of the plans, and 
you go to exit, because they have made you give your Social 
Security number, they have made you, they have looked up your 
database, your tax information, and they have your email, they 
send you back an email telling you how much you are going to 
have to pay if you don't take, sign up for the Affordable Care 
Act?
    Ms. Ingram. I am not familiar with the way they've 
sequenced their enrollment process, other than I know that some 
of our folks have looked carefully at the questions that are 
asked to ensure that any tax-related items are correct and to 
ensure that no tax data is displayed on the face of the 
machine.
    Chairman Issa. I just find it interesting that they use 
your taxpayer database, even if somebody might have insurance, 
and they are just looking at what the exchange would be, 
because they don't know whether they will have insurance, they 
go through the process of checking--in order to check for a 
hypothetical enrollment, they give that information; they then 
get an email basically threatening them with the fine if they 
don't sign up. That is just an observation of people who were 
signing up, who are calling our offices and saying, I didn't 
know I would be told how much I would have to pay if I didn't 
enroll.
    Ms. Ingram. The only time that we are sent a query is when 
somebody has gotten to a point in whatever exchange it is to 
say, I would like to learn about possible assistance. The way 
in which those questions are sequenced may not be uniform 
across the exchanges, but we do not receive a query for every 
person entering those Web sites, only if they decide they would 
like to learn about their assistance options.
    Chairman Issa. Can you imagine--you had this question 
earlier--did you ever get a complaint by somebody who got a tax 
credit? Did you ever find somebody that didn't want their taxes 
reduced or eliminated? Can you imagine anyone not finding--not 
checking to see, hey, can I get a subsidy? That is going to be 
almost universally asked by virtually everybody that goes 
online is, am I eligible for a tax credit or a subsidy? It is 
human nature. I think we established that earlier. Don't you 
agree?
    Ms. Ingram. I think that is their economic interest or 
curiosity. They are told that for the income information, the 
queries will include asking us about their tax data. If they 
don't wish to check that box at that point, they can make that 
choice.
    Chairman Issa. Well, Ms. Ingram, here is the good news. You 
have literally been saved by the bell. We have run out of 
inquiries. You have been very generous with your time. We will 
make every effort to not have you have to come back over the 
items that you have offered for the record and the items that 
we were not able to read. And with that, again, I thank you for 
your 31 years of service, and we stand adjourned.
    [Whereupon, at 1:49 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC] [TIFF OMITTED] 86195.010

[GRAPHIC] [TIFF OMITTED] 86195.011

[GRAPHIC] [TIFF OMITTED] 86195.012

[GRAPHIC] [TIFF OMITTED] 86195.013

[GRAPHIC] [TIFF OMITTED] 86195.014

[GRAPHIC] [TIFF OMITTED] 86195.015

[GRAPHIC] [TIFF OMITTED] 86195.016

[GRAPHIC] [TIFF OMITTED] 86195.017

[GRAPHIC] [TIFF OMITTED] 86195.018

                                 <all>

</pre></body></html>
